No. ____________

IN THE

LEZMOND CHARLES MITCHELL,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

APPENDIX IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

APPENDIX INDEX
A.

B.

C.

D.

E.

F.

G.

H.

I.

PAGE

United States Court of Appeals for the Ninth Circuit, No. 1817031 (3:09-cv-08089-DGC; 3:01-cr-01062-DGC-1, District of
Arizona), Opinion, April 20, 2020

001-035

United States Court of Appeals for the Ninth Circuit, No. 1817031 (3:09-cv-08089-DGC; 3:01-cr-01062-DGC-1, District of
Arizona), Order Denying Petition for Rehearing, July 8, 2020

036

United States District Court for the District of Arizona, No. CV09-08089-PCT-DGC, Order and Memorandum Denying
Petitioner’s Motion for Relief from Judgment Pursuant to Fed.
R. Civ. Pro 60(b)(6), March 5, 2018

037-044

United States District Court for the District of Arizona, No. CV09-08089-PCT-MHM, Order Denying Motion to Interview
Jurors, September 4, 2009

045-054

United States District Court for the District of Arizona, No.
3:09-CV-08089, Reply in Support of Defendant’s Motion for
Relief from Judgment Pursuant to Fed. R. Civ. Pro 60(b)(6),
June 18, 2018

055-062

United States District Court for the District of Arizona, No. CV09-08089-DGC, Government’s Response to Defendant’s Motion
for Relief from Judgment Pursuant to Fed. R. Civ. Pro 60(b)(6),
May 21, 2018

063-076

United States District Court for the District of Arizona, No.
3:09-CV-08089, Notice of Motion and Motion for Relief from
Judgment Pursuant to Fed. R. Civ. Pro 60(b)(6), March 5, 2018

077-088

United States District Court for the District of Arizona, No 3:09CV-08089, (Trial Case No. CR-01-1062-MHM), Petitioner’s
Motion for Authorization to Interview Jurors in Support of
Motion to Vacate, Set Aside, or Correct the Sentence Pursuant
to 28 U.S.C. § 2255, May 22, 2009

089-106

Summary of Federal District Court Local Rules Regarding Juror
Interviews, prepared by the Federal Public Defender of the
Central District of California on June 8, 2020

107-125

(1 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 1 of 35

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

LEZMOND C. MITCHELL,
AKA Lezmond Charles
Mitchell,
Petitioner-Appellant,

No. 18-17031
D.C. Nos.
3:09-cv-08089-DGC
3:01-cr-01062-DGC-1

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

OPINION

Appeal from the United States District Court
for the District of Arizona
David G. Campbell, District Judge, Presiding
Argued and Submitted December 13, 2019
Phoenix, Arizona
Filed April 30, 2020
Before: Sandra S. Ikuta, Morgan Christen,
and Andrew D. Hurwitz, Circuit Judges.
Opinion by Judge Ikuta;
Concurrence by Judge Christen;
Concurrence by Judge Hurwitz

App. A - 001

(2 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 2 of 35

MITCHELL V. UNITED STATES

2

SUMMARY*

Criminal / Fed. R. Civ. P. 60(b) / 28 U.S.C. § 2255
The panel affirmed the district court’s denial of Lezmond
Mitchell’s motion pursuant to Fed. R. Civ. P. 60(b) for relief
from the district court’s denial of his 2009 motion for
authorization to interview jurors at his 2003 criminal trial in
order to investigate potential juror misconduct.
Mitchell argued that the Supreme Court’s intervening
decision in Peña-Rodriguez v. Colorado, 137 S. Ct. 855
(2017), which held that jury statements demonstrating racial
animus could be admissible in a proceeding inquiring into the
validity of the verdict, changed the law governing requests to
interview jurors for evidence of racial bias, and that this
change constituted an extraordinary circumstance justifying
relief under Rule 60(b)(6).
The panel held that the district court had jurisdiction to
decide the Rule 60(b) motion. The panel explained that the
motion, which at best would give Mitchell the opportunity to
attempt to develop a claim that the jurors were biased, does
not present a substantive claim on the merits and thus is not
a disguised second or successive 28 U.S.C. § 2255 motion.
The panel held that Mitchell presents no extraordinary
circumstances or district court errors that would justify
reopening his case, and that the district court therefore did not
abuse its discretion by denying the Rule 60(b) motion. The
*

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

App. A - 002

(3 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 3 of 35

MITCHELL V. UNITED STATES

3

panel explained that although Peña-Rodriguez established a
new exception to Fed. R. Evid. 606(b), which generally
prohibits jurors from testifying regarding their deliberations,
this change in law left untouched the law governing
investigating and interviewing jurors and thus did not give
rise to “extraordinary circumstances” for purposes of Rule
60(b).
Concurring, Judge Christen wrote that it is worth pausing
to consider why Mitchell, who did not receive the death
penalty for his murder convictions, faces the prospect of
being the first person to be executed by the federal
government for an intra-Indian crime, committed in Indian
country, by virtue of a conviction for carjacking resulting in
death.
Concurring, Judge Hurwitz wrote to suggest that the
current Executive take a fresh look at the wisdom of imposing
the death penalty in this case in which the crimes were
committed by a Navajo against Navajos entirely within the
territory of the sovereign Navajo Nation, and where the
Navajo Nation, and members of the victims’ family, have
opposed imposition of the death penalty on the defendant.

COUNSEL
Jonathan C. Aminoff (argued) and Celeste Bacchi, Deputy
Federal Public Defenders; Amy M. Karlin, Interim Federal
Public Defender; Federal Public Defender’s Office, Los
Angeles, California; for Petitioner-Appellant.

App. A - 003

(4 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 4 of 35

4

MITCHELL V. UNITED STATES

William G. Voit (argued), Assistant United States Attorney;
Krissa M. Lanham, Deputy Appellate Chief; Michael Bailey,
United States Attorney; United States Attorney’s Office,
Phoenix, Arizona; for Respondent-Appellee.

OPINION
IKUTA, Circuit Judge:
In May 2009, Lezmond Mitchell asked the district court
for authorization to interview the jurors at his criminal trial in
order to investigate potential juror misconduct. The district
court denied the motion because Mitchell identified no
evidence of juror misconduct, and therefore failed to show
good cause. In March 2018, Mitchell filed a motion under
Rule 60(b)(6) of the Federal Rules of Civil Procedure for
relief from the 2009 ruling. Mitchell argued that the Supreme
Court’s intervening decision in Peña-Rodriguez v. Colorado,
137 S. Ct. 855 (2017), changed the law governing requests to
interview jurors for evidence of racial bias, and that this
change constituted an extraordinary circumstance justifying
relief under Rule 60(b)(6). The district court denied this
motion as well. We affirm.
I
A
We have described the facts of this case in detail in two
prior opinions, see United States v. Mitchell, 502 F.3d 931
(9th Cir. 2007) (direct appeal) (“Mitchell I”); Mitchell v.
United States, 790 F.3d 881 (9th Cir. 2015) (appeal of denial
of motion under 28 U.S.C. § 2255) (“Mitchell II”), so we

App. A - 004

(5 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 5 of 35

MITCHELL V. UNITED STATES

5

summarize them only briefly. In October 2001, Mitchell and
three accomplices plotted to carjack a vehicle to use in an
armed robbery of a trading post on the Navajo reservation.
Mitchell and an accomplice, Johnny Orsinger, abducted 63year-old Alyce Slim and her 9-year-old granddaughter in
Slim’s GMC pickup truck. Somewhere near Sawmill,
Arizona, Mitchell and Orsinger killed Slim, stabbing her
33 times and moving her mutilated body to the back seat next
to her granddaughter. After driving the truck into the
mountains, Mitchell dragged Slim’s body out of the car and
ordered the granddaughter to get out of the truck and “lay
down and die.” Mitchell slit her throat twice, and then
dropped rocks on her head to finish her off. Mitchell and
Orsinger later returned to the scene to conceal evidence.
They severed the heads and hands of both victims and pulled
their torsos into the woods. Mitchell and Orsinger also
burned the victims’ clothing, jewelry, and glasses.
Three days after the murders, Mitchell and two
accomplices drove the GMC pickup truck to the trading post.
Once there, they struck the store manager with a shotgun,
threatened another employee, and stole some $5,530 from the
store. Mitchell and his accomplices drove the GMC pickup
truck back to a location where one of the accomplices had
parked his own vehicle. Mitchell set the truck on fire and left
the scene in the other vehicle.
A Navajo police officer discovered the pickup truck a
mile and a half south of a town within the Navajo Indian
reservation. Criminal investigators discovered evidence in
the truck connecting Mitchell to both the robbery and the
murders. When the FBI arrested Mitchell at an accomplice’s
house, Mitchell (who was in bed) “asked for his pants, which
he told an FBI agent were near a bunk bed on the floor.”

App. A - 005

(6 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 6 of 35

6

MITCHELL V. UNITED STATES

Mitchell I, 502 F.3d at 944. When the agent picked them up,
“a silver butterfly knife fell from a pocket.” Id. After the
accomplice and his mother consented to a search of the
house, FBI agents retrieved the silver butterfly knife. “Trace
amounts of blood from the silver knife were matched to
Slim.” Id.
After signing a waiver of his Miranda rights, Mitchell
admitted that he had been involved in the robbery and had
been present when “things happened” to Slim and her
granddaughter. Id. He directed Navajo police officers to the
site where he and Orsinger had buried the bodies, and he told
the officers “that he had stabbed the ‘old lady,’ and that the
evidence would show and/or witnesses would say that he had
cut the young girl’s throat twice.” Id. at 944 45. He also
admitted that “he and Orsinger [had] gathered rocks, and with
Orsinger leading on, the two took turns dropping them on [the
granddaughter’s] head.” Id. “Mitchell indicated that he and
Orsinger retrieved an axe and shovel, severed the heads and
hands, buried the parts in a foot-deep hole, burned the
victims’ clothing, and cleaned the knives in a stream.” Id.
Mitchell stated that it was Orsinger’s idea to sever the
victims’ heads and hands “because [Mitchell] would also
have severed the feet.” Id.
Mitchell was indicted for eleven crimes, including
premeditated first degree murder, armed carjacking resulting
in death, felony murder, robbery, kidnapping, and use of a
firearm in a crime of violence. The government filed a notice
of intent to seek the death penalty as to Mitchell based on the
charge of carjacking resulting in death.

App. A - 006

(7 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 7 of 35

MITCHELL V. UNITED STATES

7

Jury selection in Mitchell’s trial began on April 1, 2003.1
Potential jurors filled out prescreening questionnaires, and
were subjected to a twelve-day voir dire in which they were
asked questions about their qualifications, including their
ability to be impartial towards Native Americans. A petit
jury, including one member of the Navajo Nation, convicted
Mitchell on all counts.
The penalty phase began on May 14, 2003. Consistent
with the Federal Death Penalty Act, 18 U.S.C. §§ 3591 3598,
the district court instructed the jury that “in your
consideration of whether the death sentence is appropriate,
you must not consider the race, color, religious beliefs,
national origin, or sex of either the defendant or the victims,”
and that “[y]ou are not to return a sentence of death unless
you would return a sentence of death for the crime in question
without regard to race, color, religious beliefs, national
origin, or sex of either the defendant or any victim.” See
18 U.S.C. § 3593(f). In addition, the jury was required to
“return to the court a certificate, signed by each juror, that
consideration of the race, color, religious beliefs, national
origin, or sex of the defendant or any victim was not involved
in reaching his or her individual decision and that the
individual juror would have made the same recommendation
regarding a sentence for the crime in question no matter what
the race, color, religious beliefs, national origin, or sex of the
defendant or any victim may be.” Id. Each juror signed the
certificate. Mitchell I, 502 F.3d at 990.
In order to impose the death penalty under the Federal
Death Penalty Act, the jury was required to “unanimously
1

Then District Judge Mary Murguia presided over the trial and
sentencing.

App. A - 007

(8 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 8 of 35

8

MITCHELL V. UNITED STATES

find beyond a reasonable doubt: (1) the defendant was
18 years of age or older at the time of the offense; (2) the
defendant had at least one of four enumerated mentes reae
(often referred to as ‘gateway intent factors’); and (3) the
existence of at least one of sixteen statutorily defined
aggravating factors.” Id. at 973 (internal citations omitted).
Here, the jury found the four gateway intent factors, the
necessary statutory aggravating factors, and one non-statutory
aggravating factor. Id. at 946. “After weighing the
aggravating and mitigating factors, the jury recommended
imposition of a sentence of death.” Id.
The court sentenced Mitchell to death on September 15,
2003. As the jurors were discharged, the district judge stated:
You are free to talk about the case with
anyone or not talk about it as you wish. If
someone asks you about the case, and you
don’t want to talk about it, just advise them of
the fact and they will honor your request.
The lawyers will be standing in the hallway as
you exit. If you choose to talk to them, if you
have any questions for them, you may
approach them and ask them questions.
They’ve been instructed not to approach you.
It’s only if you want to talk or discuss the case
with lawyers on either side as you wish, you
may do. So if you decide to just exit the
building, you may.
On direct appeal, Mitchell contended that the procedures
used to empanel jurors caused an under-representation of
Native Americans. Id. at 949 50. Mitchell also argued that

App. A - 008

(9 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 9 of 35

MITCHELL V. UNITED STATES

9

his constitutional rights “were violated when the government
elicited testimony bearing on race, religion and cultural
heritage, and made statements in closing argument
impermissibly plying on the same factors.” Id. at 989. We
rejected these arguments. With respect to the government’s
statements in closing, we “accept[ed] the jurors’ assurance [in
their certifications] that no impermissible considerations of
race or religion factored into the verdict.” Id. at 990.
Mitchell alleged additional errors related to race and
religion at the penalty phase. He argued that the government
erred by suggesting, in closing, that “Mitchell turned his back
on his religious and cultural heritage.” Id. at 994 95. We
rejected this argument as well. Because Mitchell had
introduced a letter from the Attorney General of the Navajo
Nation indicating opposition to capital punishment and relied
on this evidence in mitigation, we held that “it was not plainly
erroneous for the government to challenge the credibility of
Mitchell’s reliance.” Id. at 995.
B
Nearly six years later, in May 2009, Mitchell filed a
motion in the district court requesting to interview members
of the jury in order to ascertain “whether any member of the
jury panel engaged in ex parte contacts, considered
extrajudicial evidence, allowed bias or prejudice to cloud
their judgment, or intentionally concealed or failed to disclose
material information relating to their qualifications to serve
as jurors in [his] case.”

App. A - 009

(10 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 10 of 35

MITCHELL V. UNITED STATES

10

Mitchell’s request to interview jurors was governed by
District of Arizona Local Rule Civil 39.2,2 which requires a
defendant seeking permission to interview jurors to file
“written interrogatories proposed to be submitted to the
juror(s), together with an affidavit setting forth the reasons
for such proposed interrogatories, within the time granted for
a motion for a new trial.” The rule provides that permission
to interview jurors “will be granted only upon the showing of
good cause.” Mitchell argued that good cause existed
because an investigation into potential juror misconduct was
a necessary part of any federal capital post-conviction
investigation. Despite lacking evidence of juror impropriety,
Mitchell speculated that jurors could have been affected by
the prosecutor’s comment regarding Mitchell’s turning his
back on the Navajo religion. In connection with this
argument, Mitchell cited United States v. Henley, 238 F.3d
1111, 1120 (9th Cir. 2001), to support his argument that Rule

2

Local Rule Civil 39.2(b) states:
Interviews with jurors after trial by or on behalf of
parties involved in the trial are prohibited except on
condition that the attorney or party involved desiring
such an interview file with the Court written
interrogatories proposed to be submitted to the juror(s),
together with an affidavit setting forth the reasons for
such proposed interrogatories, within the time granted
for a motion for a new trial. Approval for the interview
of jurors in accordance with the interrogatories and
affidavit so filed will be granted only upon the showing
of good cause. See Federal Rules of Evidence,
Rule 606(b).

This rule is made applicable to criminal cases by Local Rule Criminal
24.2.

App. A - 010

(11 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 11 of 35

MITCHELL V. UNITED STATES

11

606(b) of the Federal Rules of Evidence,3 which generally
prohibits jurors from testifying regarding their deliberations,
cannot preclude evidence regarding jurors’ racial or religious
bias. Mitchell also speculated that the jurors might have been
affected by publicity about the trial, or might have been
influenced by outside sources.
The district court denied Mitchell’s request. The court
ruled that Mitchell had not complied with the procedural
requirements of Local Rule 39.2, because the motion was
untimely and Mitchell had failed to file proposed
interrogatories to the jurors or submit an affidavit setting
3

Rule 606(b) of the Federal Rules of Evidence provides:
(b) During an Inquiry into the Validity of a Verdict or
Indictment.
(1) Prohibited Testimony or Other Evidence. During an
inquiry into the validity of a verdict or indictment, a
juror may not testify about any statement made or
incident that occurred during the jury’s deliberations;
the effect of anything on that juror’s or another juror’s
vote; or any juror’s mental processes concerning the
verdict or indictment. The court may not receive a
juror’s affidavit or evidence of a juror’s statement on
these matters.
(2) Exceptions. A juror may testify about whether:
(A) extraneous prejudicial information was improperly
brought to the jury’s attention;
(B) an outside influence was improperly brought to bear
on any juror; or
(C) a mistake was made in entering the verdict on the
verdict form.

App. A - 011

(12 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 12 of 35

12

MITCHELL V. UNITED STATES

forth reasons for interrogatories. In any event, the court held
that Mitchell had failed to establish “good cause,” as required
by Local Rule 39.2, because there was no preliminary
showing of juror misconduct; rather Mitchell’s allegations of
juror misconduct were “based on wholesale speculation.”
According to the court, the prosecutor’s statement that
Mitchell “turned his back on his religious and cultural
heritage” did not raise a potential for juror bias because the
Ninth Circuit had determined on direct appeal that the
statement was not improper. Moreover, the court reasoned
that any testimony regarding the subjective effect of the
prosecutor’s statements on the jury’s deliberation would be
barred by Rule 606(b) of the Federal Rules of Evidence.
Further, Mitchell had provided no evidence that prejudicial
news articles about his case existed or that any juror saw such
articles. The district court concluded that in the absence of
any showing of juror misconduct or any other basis for good
cause, Mitchell was not entitled to interview jurors.
C
After the denial of his request under Local Rule 39.2,
Mitchell brought a federal habeas motion under 28 U.S.C.
§ 2255 to challenge his sentence on multiple grounds,
primarily focusing on ineffective assistance of counsel. His
eleventh claim (Claim K) alleged that the district court had
violated the Fifth, Sixth, and Eighth Amendments by denying
his request to interview the jurors. According to Mitchell,
denying his interview request deprived him of the opportunity
to ensure that his jury was impartial and that the verdict was
reliable. The district court rejected Claim K because it
alleged an “error in a postconviction proceeding, not at trial
or sentencing,” and therefore failed to state a cognizable
claim for relief under § 2255. See Franzen v. Brinkman,

App. A - 012

(13 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 13 of 35

MITCHELL V. UNITED STATES

13

877 F.2d 26, 26 (9th Cir. 1989). The district court did not
grant a certificate of appealability for this claim. On appeal,
we denied a certificate of appealability with respect to all
uncertified claims and affirmed the district court’s denial of
Mitchell’s § 2255 motion. Mitchell II, 790 F.3d at 894 & n.7.
D
Two years after Mitchell II, the Supreme Court decided
Peña-Rodriguez, which held that, notwithstanding Rule
606(b), juror statements demonstrating racial animus could
be admissible as evidence. 137 S. Ct. at 869. Nearly a year
later, in March 2018, Mitchell filed a motion under Rule
60(b)(6) of the Federal Rules of Civil Procedure, seeking
relief from the district court’s judgment in light of PeñaRodriguez.4 Although Mitchell’s Rule 60(b)(6) motion
ostensibly sought to reopen his § 2255 proceeding, it actually
challenged the district court’s denial of his May 2009 request
to interview jurors. The district court5 denied the motion, and
Mitchell timely appealed.
We have jurisdiction pursuant to 28 U.S.C. § 1291. We
review the denial of a Rule 60(b) motion for abuse of
discretion, Harvest v. Castro, 531 F.3d 737, 741 (9th Cir.

4

Rule 60(b)(6) provides:
(b) Grounds for Relief from a Final Judgment, Order, or
Proceeding. On motion and just terms, the court may
relieve a party or its legal representative from a final
judgment, order, or proceeding for the following
reasons: . . . (6) any other reason that justifies relief.

5

Judge David Campbell was assigned to the case after Judge Murguia
was appointed to the Ninth Circuit.

App. A - 013

(14 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 14 of 35

MITCHELL V. UNITED STATES

14

2008), but we review questions of law underlying the district
court’s decision de novo, Hall v. Haws, 861 F.3d 977, 984
(9th Cir. 2017). We review de novo whether a § 2255 motion
is an unauthorized second or successive motion. See Jones v.
Ryan, 733 F.3d 825, 833 (9th Cir. 2013).
II
Before addressing the merits of Mitchell’s Rule 60(b)(6)
motion, we must first determine whether the district court had
jurisdiction to hear it. See 28 U.S.C. § 2255(h); Washington
v. United States, 653 F.3d 1057, 1062 (9th Cir. 2011). We
conclude that it did.
Under Rule 60(b), a court may “relieve a party or its legal
representative from a final judgment, order, or proceeding”
for specified reasons, including the catchall “any other reason
that justifies relief.” Fed. R. Civ. P. 60(b)(6). In Gonzalez v.
Crosby, the Court held that, like other Federal Rules of Civil
Procedure, Rule 60(b) applies in the habeas context “only to
the extent that it is not inconsistent with applicable federal
statutory provisions and rules.” 545 U.S. 524, 529 (2005)
(cleaned up). This means that Rule 60(b) does not apply to
the extent it is inconsistent with the habeas rules’ limitations
on second or successive applications. Id. at 529 30; see
28 U.S.C. §§ 2244(b), 2255(h).6
6

Although Gonzalez addressed only the extent to which Rule 60(b)
is inconsistent with § 2244 (the provision providing the second-orsuccessive bar for habeas petitions filed by state prisoners under § 2254),
545 U.S. at 529 n.3, we held in United States v. Buenrostro that the
reasoning in Gonzalez applies equally to § 2255 motions filed by federal
prisoners. 638 F.3d 720, 722 (9th Cir. 2011). But see Williams v. United
States, 927 F.3d 427, 434–36 (6th Cir. 2019) (holding that § 2244(b)(1)’s
prohibition on claims in a second or successive petition that were not

App. A - 014

(15 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 15 of 35

MITCHELL V. UNITED STATES

15

Under the Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA), a district court has only limited authority
to hear a claim presented in a second or successive habeas
motion. The court must deny a second or successive motion
unless the court of appeals first certifies that the motion relies
on a new rule of constitutional law that is retroactively
applicable or presents new evidence that meets the criteria set
forth in § 2255(h). See Burton v. Stewart, 549 U.S. 147, 149
(2007); Gonzalez, 545 U.S. at 531 32.
According to the Supreme Court, these rules require
courts to examine Rule 60(b) motions carefully in order to
determine whether they raise “claims.” Gonzalez, 545 U.S.
at 530 31. If a Rule 60(b) motion raises a claim, it “is in
substance a successive habeas petition and should be treated
accordingly.” Id. at 531. In other words, a Rule 60(b) motion
presenting a claim cannot proceed without certification from
the court of appeals; otherwise, “Rule 60(b) would
impermissibly circumvent” the second or successive bar. Id.
at 531 32.
A Rule 60(b) motion advances a “claim” for purposes of
AEDPA when it contains an “asserted federal basis for relief
from a state court’s judgment of conviction.” Id. at 530. As
explained in Gonzalez, an argument is a “claim” if it
“substantively addresses federal grounds” for setting aside a
prisoner’s conviction. Id. at 533. This includes an argument
seeking to add a new ground for relief, or attacking the
federal court’s previous resolution of a claim on the merits.
Id. at 532. It also includes a request to present “‘newly
discovered evidence’ in support of a claim previously
raised in a prior habeas petition does not apply to motions made by federal
prisoners under § 2255).

App. A - 015

(16 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 16 of 35

16

MITCHELL V. UNITED STATES

denied,” or an argument “contend[ing] that a subsequent
change in substantive law is a ‘reason justifying relief.’” Id.
at 531 (internal citation omitted); accord Washington,
653 F.3d at 1063. An “attack based on the movant’s own
conduct, or his habeas counsel’s omission . . . in effect asks
for a second chance to have the merits determined favorably”
and amounts to a claim. Gonzalez, 545 U.S. at 532 n.5.
However, not all arguments in a Rule 60(b) motion
constitute claims. Gonzalez gave examples of challenges that
could be included in a Rule 60(b) motion without turning it
into a second or successive habeas motion. For instance, an
argument that a court’s procedural error precluded a prisoner
from obtaining a merits determination does not raise a habeas
“claim.” Id. at 532 n.4. Procedural errors include errors in
determining whether the prisoner had exhausted state
remedies, whether the prisoner had procedurally defaulted a
claim, or whether a claim was time-barred. See id. Nor does
a motion asserting some defect in the integrity of a habeas
proceeding, such as a claim of fraud on the federal habeas
court, advance a “claim.” Id. at 532 n.5.
The government argues that even if a Rule 60(b) motion
does not present a claim on its face, it should be treated as a
disguised second or successive § 2255 motion if its end goal
is to discover and assert a claim. The government relies on
a Fifth Circuit case in which a federal prisoner brought a
Rule 60(b)(6) motion claiming that the district court had
erroneously denied his request to interview jurors regarding
potential racial bias. In re Robinson, 917 F.3d 856, 861 66
(5th Cir. 2019), cert. denied sub nom., Robinson v. United
States, No. 19-5535, 2020 WL 872217 (U.S. Feb. 24, 2020).
The prisoner argued that his motion was not a disguised
second or successive § 2255 motion because he was

App. A - 016

(17 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 17 of 35

MITCHELL V. UNITED STATES

17

challenging a procedural “defect in the integrity of the habeas
proceedings.” Id. at 864. The Fifth Circuit rejected this
characterization of the § 2255 motion because the district
court had not made any procedural error in denying habeas
discovery. Id. at 865. Because the § 2255 motion was not
challenging a procedural defect, the Fifth Circuit concluded
that the prisoner’s request to interview jurors regarding racial
bias had to be viewed as “attempting to advance a new habeas
claim related to jury impartiality” and constituted a second or
successive § 2255 motion. Id.
We decline to follow In re Robinson. The Fifth Circuit
read Gonzalez as holding that a prisoner could use a Rule
60(b)(6) motion only for a single category of challenges
(challenges to procedural errors); all other challenges were
forbidden merits-based claims. But, rather than narrowing
the use of Rule 60(b)(6) motions to a single type of challenge,
Gonzalez did the opposite: it excised a single category of
challenges from the arguments that could be raised under
Rule 60(b)(6), holding that a prisoner could not bring a
substantive merits-based claim as a Rule 60(b)(6) motion.
Gonzalez did not preclude a prisoner from bringing any other
sort of argument under Rule 60(b)(6).7
Because the Fifth Circuit bifurcated Rule 60(b)(6)
motions into permitted challenges to procedural errors and
merits-based claims, it failed to distinguish between a request
7

Perhaps realizing the gap in its analysis, In re Robinson adds that
“[e]ven if we were to find that Robinson’s impartial-jury claim did not
constitute a second or successive habeas petition, we would undoubtedly
conclude that he fails to show that, as a result of the denial of his
discovery request, extraordinary circumstances exist to justify the
reopening of the final judgment under Rule 60(b)(6).” 917 F.3d at 866
n.18 (cleaned up) (quoting Gonzalez, 545 U.S. at 535).

App. A - 017

(18 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 18 of 35

18

MITCHELL V. UNITED STATES

for evidence to develop a possible new claim and an effort to
bolster a prior claim, concluding that both fell within the
category of disallowed substantive challenges. Again, we
disagree. Consistent with Gonzalez, we have held that a
request for “newly discovered evidence in support of a claim
previously denied” qualifies as a “claim.” Wood v. Ryan,
759 F.3d 1117, 1120 (9th Cir. 2014) (quoting Gonzalez,
545 U.S. at 531) (holding that a state prisoner’s Rule 60(b)(6)
motion seeking relief from the district court’s denial of his
motion for evidentiary development in support of a previously
denied ineffective assistance of counsel claim was a second
or successive petition); see also Washington, 653 F.3d
at 1065 (holding that a motion seeking “a fresh opportunity
to air the arguments that failed at . . . trial” was a second or
successive § 2255 motion) (emphasis added).
But Gonzalez did not hold that a prisoner’s request to
develop evidence for a potential new claim also qualifies as
a “claim.” Such a request does not meet Gonzalez’s
definition of a substantive merits-based claim because it does
not assert a federal basis for relief from the prisoner’s
conviction or sentence. Here, for instance, Mitchell’s Rule
60(b)(6) motion argues that the district court erred in denying
Mitchell’s request to interview the jurors who recommended
the death penalty. Mitchell does not claim that the correction
of this alleged error would entitle him to relief or affect the
validity of his conviction or sentence. Nor does Mitchell seek
to present newly discovered evidence to support a prior claim
or argue that a change in law justifies relief from his
conviction or sentence. See Gonzalez, 545 U.S. at 531. At
most, a favorable ruling would give Mitchell the opportunity
to attempt to develop a claim that the jurors were biased.
Because Mitchell’s motion does not present a substantive
claim on the merits, “allowing the motion to proceed as

App. A - 018

(19 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 19 of 35

MITCHELL V. UNITED STATES

19

denominated creates no inconsistency with the habeas statute
or rules.” Id. at 533. Therefore, we conclude that Mitchell’s
motion is not a disguised second or successive § 2255 habeas
motion, and the district court had jurisdiction to decide his
Rule 60(b)(6) motion.
III
We therefore turn to whether Mitchell has established
“‘extraordinary circumstances’ justifying the reopening of a
final judgment.” Id. at 535 (quoting Ackermann v. United
States, 340 U.S. 193, 199 (1950)). In considering whether
there is an “extraordinary” circumstance for purposes of a
Rule 60(b)(6) motion, we consider a number of factors,
including the “degree of connection between the
extraordinary circumstance and the decision for which
reconsideration is sought.” Hall, 861 F.3d at 987 (citing
Phelps v. Alameida, 569 F.3d 1120, 1135 40 (9th Cir. 2009)).
Said otherwise, we consider whether the alleged
extraordinary circumstance, such as a change in the law, was
material to the prisoner’s claim.
A
“[A] change in intervening law” can constitute an
extraordinary circumstance. Id. at 987 88. Gonzalez made
clear, however, that not every change in intervening law
“provides cause for reopening cases long since final.”
545 U.S. at 536; see also Ritter v. Smith, 811 F.2d 1398, 1401
(11th Cir. 1987) (“[S]omething more than a ‘mere’ change in
the law is necessary to provide the grounds for Rule 60(b)(6)
relief.”). For instance, Gonzalez held that a Supreme Court
decision that changed an interpretation of controlling law was
not an “extraordinary circumstance” even though it would

App. A - 019

(20 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 20 of 35

20

MITCHELL V. UNITED STATES

have saved a prisoner’s habeas petition from being timebarred. 545 U.S. at 537 38. According to the Court,
development of the Supreme Court’s jurisprudence in a
particular area does not necessarily justify “reopening cases
long since final”; indeed, it is “hardly extraordinary” that the
Supreme Court arrives at a different interpretation of the law
after a prisoner’s case is no longer pending. Id. at 536.
Moreover, where an argument is available and raised by other
litigants (and even litigated all the way to the Supreme
Court), but the prisoner did not diligently pursue the
argument, the change in law is “all the less extraordinary.”
Id. at 537. Thus, a mere development in jurisprudence, as
opposed to an unexpected change, does not constitute an
extraordinary circumstance for purposes of Rule 60(b)(6).
B
Mitchell argues that Peña-Rodriguez was an intervening
change in law that constituted an extraordinary circumstance
requiring the district court to give Mitchell relief from the
prior order denying his request to interview jurors. In
addressing this argument, we consider the legal history
leading up to the decision in Peña-Rodriguez.
We have long imposed restrictions on lawyers seeking
access to jurors. These rules derive their authority from the
common law, where “judges placed the veil of secrecy about
jury deliberations.” N. Pac. Ry. Co. v. Mely, 219 F.2d 199,
201 (9th Cir. 1954). Rules restricting lawyers’ access to
jurors “(1) encourage freedom of discussion in the jury room;
(2) reduce the number of meritless post-trial motions;
(3) increase the finality of verdicts; and (4) further Federal
Rule of Evidence 606(b) by protecting jurors from
harassment and the jury system from post-verdict scrutiny.”

App. A - 020

(21 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 21 of 35

MITCHELL V. UNITED STATES

21

Cuevas v. United States, 317 F.3d 751, 753 (7th Cir. 2003).
Indeed, “[i]t is incumbent upon the courts to protect jurors
from the annoyance and harassment of such conduct,” Bryson
v. United States, 238 F.2d 657, 665 (9th Cir. 1956), and “it is
improper and unethical for lawyers to interview jurors to
discover what was the course of deliberation of a trial jury,”
People of Territory of Guam v. Marquez, 963 F.2d 1311,
1315 (9th Cir. 1992) (quoting Smith v. Cupp, 457 F.2d 1098,
1100 (9th Cir. 1972)). Therefore, in cases where there has
been no showing of juror misconduct, we have held that a
district court “d[oes] not abuse [its] discretion in refusing to
allow postverdict interrogation of jurors.” United States v.
Eldred, 588 F.2d 746, 752 (9th Cir. 1978) (upholding an
earlier version of the District of Arizona local rule restricting
access to jurors in the absence of “some showing of sufficient
reason”). We have also held that a district court’s “denial of
a motion to interrogate jurors” does not raise a constitutional
problem where “there has been no specific claim of jury
misconduct.” Smith, 457 F.2d at 1100.
The judicial authority to exercise discretion regarding
whether to grant lawyers permission to conduct jury
interviews also undergirds Rule 606(b) of the Federal Rules
of Evidence, which also stems from long-established common
law rules. Rule 606(b) generally provides that a juror may
not testify about statements and incidents that occurred
during the jury’s deliberations. Specifically, “[d]uring an
inquiry into the validity of a verdict or indictment, a juror
may not testify about any statement made or incident that
occurred during the jury’s deliberations; the effect of
anything on that juror’s or another juror’s vote; or any juror’s
mental processes concerning the verdict or indictment.” Fed.
R. Evid. 606(b)(1). Further, a court “may not receive a
juror’s affidavit or evidence of a juror’s statement on these

App. A - 021

(22 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 22 of 35

MITCHELL V. UNITED STATES

22

matters.” Fed. R. Evid. 606(b)(1).8 This “no-impeachment
rule” “promotes full and vigorous discussion by providing
jurors with considerable assurance that after being discharged
they will not be summoned to recount their deliberations, and
they will not otherwise be harassed or annoyed by litigants
seeking to challenge the verdict,” and “gives stability and
finality to verdicts.” Peña-Rodriguez, 137 S. Ct. at 865.
Prior to Peña-Rodriguez, the Supreme Court had declined
to recognize any exceptions (other than those in Rule 606(b))
to the no-impeachment rule. In Tanner v. United States, for
instance, the Court “rejected a Sixth Amendment exception
for evidence that some jurors were under the influence of
drugs and alcohol during the trial,” based on the “existing,
significant safeguards for a defendant’s right to an impartial
and competent jury,” such as voir dire, the opportunity to
observe jurors during trial, and the opportunity for jurors to
report misconduct before a verdict is rendered. PeñaRodriguez, 137 S. Ct. at 866 (citing Tanner v. United States,
483 U.S. 107, 125 27 (1987)); see also Warger v. Shauers,
574 U.S. 40, 47 48 (2014).
Notwithstanding the Supreme Court’s historical hesitance
to interfere with the operation of Rule 606(b), we have long
explained that the protections provided by this evidence rule
are not absolute. See Henley, 238 F.3d at 1120. Noting the
longstanding “conflict between protecting a defendant’s right
to a fair trial, free of racial bias, and protecting the secrecy

8

Rule 606(b) contain several exceptions, allowing a juror to testify
about whether “(A) extraneous prejudicial information was improperly
brought to the jury’s attention; (B) an outside influence was improperly
brought to bear on any juror; or (C) a mistake was made in entering the
verdict on the verdict form.” Fed. R. Evid. 606(b)(2).

App. A - 022

(23 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 23 of 35

MITCHELL V. UNITED STATES

23

and sanctity of jury deliberations,” we suggested that there
may be an exception to Rule 606(b) in cases where there was
evidence of juror racial bias. Id. at 1119. Although we did
not decide “whether or to what extent the rule prohibits juror
testimony concerning racist statements made during
deliberations,” id. at 1121, we agreed that “a powerful case
can be made that Rule 606(b) is wholly inapplicable to racial
bias,” id. at 1120.
Vindicating our views in Henley, Peña-Rodriguez
subsequently recognized an exception to Rule 606(b) to allow
jurors to testify about statements showing racial bias. In
Peña-Rodriguez, a criminal defendant was convicted of
unlawful sexual contact and harassment for sexually
assaulting two teenage sisters. 137 S. Ct. at 861. After the
jury was discharged, two jurors told the defendant’s counsel
that another juror had expressed anti-Hispanic bias against the
defendant and the defendant’s alibi witness during
deliberations. Id. According to the jurors’ affidavits, the
biased juror stated he thought the defendant was guilty
because “Mexican men ha[ve] a bravado that caused them to
believe they could do whatever they wanted with women,”
and made similar statements evincing racial prejudice. Id.
at 862. The trial court denied the prisoner’s motion for a new
trial, finding the affidavits would be inadmissible under Rule
606(b).9 Id.

9

Although the trial court decided the admissibility of the affidavits
under Rule 606(b) of the Colorado Rules of Evidence, the Colorado rule
is substantively identical to its federal counterpart, and the Supreme Court
on appeal analyzed Rule 606(b) of the Federal Rules of Evidence. Peña
Rodriguez, 137 S. Ct. at 864–65.

App. A - 023

(24 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 24 of 35

24

MITCHELL V. UNITED STATES

The Supreme Court reversed, holding that the Sixth
Amendment guarantee of an impartial jury required the
admission of evidence of juror racial bias. Id. at 870. The
Court held that racial bias is a “familiar and recurring evil
that, if left unaddressed, would risk systemic injury to the
administration of justice.” Id. at 868. According to the
Court, “racial bias implicates unique historical, constitutional,
and institutional concerns.” Id. Further, “[a] constitutional
rule that racial bias in the justice system must be
addressed including, in some instances, after the verdict has
been entered is necessary to prevent a systemic loss of
confidence in jury verdicts, a confidence that is a central
premise of the Sixth Amendment trial right.” Id. at 869.
While acknowledging the safeguards that protect the right
to an impartial jury (and urging trial courts to use such
“standard and existing processes designed to prevent racial
bias in jury deliberations,” id. at 871), the Court noted that
“their operation may be compromised, or they may prove
insufficient” in addressing juror prejudice, id. at 868. For
instance, “[t]he stigma that attends racial bias may make it
difficult for a juror to report inappropriate statements during
the course of juror deliberations.” Id. at 869.
In light of these concerns, the Court held that “where a
juror makes a clear statement that indicates he or she relied
on racial stereotypes or animus to convict a criminal
defendant,” then “the Sixth Amendment requires that the noimpeachment rule give way in order to permit the trial court
to consider the evidence of the juror’s statement and any
resulting denial of the jury trial guarantee.” Id. The Court
did not set down a rule for determining“[w]hether that
threshold showing has been satisfied” but rather held that
such a decision “is a matter committed to the substantial

App. A - 024

(25 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 25 of 35

MITCHELL V. UNITED STATES

25

discretion of the trial court in light of all the circumstances,
including the content and timing of the alleged statements and
the reliability of the proffered evidence.” Id. The Court
noted that “[n]ot every offhand comment indicating racial
bias or hostility will justify setting aside the no-impeachment
bar to allow further judicial inquiry.” Instead, “there must be
a showing that one or more jurors made statements exhibiting
overt racial bias that cast serious doubt on the fairness and
impartiality of the jury’s deliberations and resulting verdict”
and “the statement must tend to show that racial animus was
a significant motivating factor in the juror’s vote to convict.”
Id.
Despite establishing this exception to Rule 606(b), PeñaRodriguez acknowledged and confirmed the longstanding
rules giving trial courts discretion over lawyer efforts to
investigate and interview jurors. The Court stated that “[t]he
practical mechanics of acquiring and presenting such
evidence will no doubt be shaped and guided by state rules of
professional ethics and local court rules, both of which often
limit counsel’s post-trial contact with jurors.” Id. Limits on
contact with jurors “seek to provide jurors some protection
when they return to their daily affairs after the verdict has
been entered” and can be found even in jurisdictions “that
recognize a racial-bias exception” to the no-impeachment
rule. Id. at 869 70. The Court explained that jurors “may
come forward of their own accord” to report racial bias
notwithstanding rules prohibiting lawyers from initiating such
contact, a practice that “is common in cases involving juror
allegations of racial bias.” Id. (collecting cases).

App. A - 025

(26 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 26 of 35

26

MITCHELL V. UNITED STATES
C

Mitchell’s theory is that Peña-Rodriguez’s recognition of
the threat posed by racial bias to the judicial system worked
a sea change in the law applicable to his case. Although
Peña-Rodriguez’s immediate effect was to make an exception
to the rule precluding admissibility of evidence of racial bias
in jury deliberations under Rule 606(b), Mitchell argues that
this exception would have no practical effect if defendants
could not acquire evidence of juror bias. As a result, Mitchell
reasons, Peña-Rodriguez made an equally significant change
to the precedents allowing district courts to deny lawyers
leave to interrogate jurors and to rules such as Local Rule
39.2, which require lawyers to show good cause before they
can interview jurors. These rules must now be set aside,
according to Mitchell, because they impose an unreasonable
burden on a criminal defendant’s ability to ensure that no
racial bias impacted the jury’s verdict. Therefore, Mitchell
claims, Peña-Rodriguez made a fundamental change in the
law relevant to his request to interview jurors, and as such the
district court was obliged to grant his Rule 60(b)(6) motion.
We disagree. Although Peña-Rodriguez established a
new exception to Rule 606(b), this change in law left
untouched the law governing investigating and interviewing
jurors. See Hall, 861 F.3d at 987 (listing the “degree of
connection between the extraordinary circumstance and the
decision for which reconsideration is sought” as a factor for
a court to consider when ruling on a Rule 60(b) motion).
Indeed, Peña-Rodriguez acknowledged that juror-access rules
would impose limitations on the use of the new racial-bias
exception to Rule 606(b) because “[t]he practical mechanics
of acquiring and presenting such evidence will no doubt be
shaped and guided by state rules of professional ethics and

App. A - 026

(27 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 27 of 35

MITCHELL V. UNITED STATES

27

local court rules, both of which often limit counsel’s post-trial
contact with jurors.” 137 S. Ct. at 869; see also id. at 870
(referencing various rules setting limits on juror contacts).
Rather than override the limitations on lawyers’ access to
jurors, Peña-Rodriguez emphasizes the important purpose of
such limitations in providing “jurors some protection when
they return to their daily affairs after the verdict has been
entered.” Id. at 869.
Because Peña-Rodriguez does not override local court
rules or compel access to jurors, it is not “clearly
irreconcilable” with our precedent, Miller v. Gammie,
335 F.3d 889, 893 (2003) (en banc), and therefore did not
make any change in the law regarding lawyer access to jurors,
let alone one so significant that it would constitute
“extraordinary circumstances” for purposes of Rule 60(b).
Peña-Rodriguez permits district courts to continue to exercise
their discretion in granting motions to interview jurors, see
Smith, 457 F.2d at 1100, and to implement and adhere to rules
such as Local Rule 39.2 requiring a showing of good cause,
see Eldred, 588 F.2d at 752.
All other circuits that have considered this issue have
reached the same conclusion. The Second Circuit rejected the
argument that Peña-Rodriguez required a district court to
grant a request for juror interviews, and instead upheld a
district court’s denial of a request to interview jurors where
there was no “clear, strong, substantial and incontrovertible
evidence” that an impropriety occurred. United States v.
Baker, 899 F.3d 123, 134 (2d Cir. 2018) (citation omitted).
As the Second Circuit explained, Peña-Rodriguez established
“a narrow exception to the no-impeachment rule,” but “d[id]
not address the separate question of what showing must be
made before counsel is permitted to interview jurors post-

App. A - 027

(28 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 28 of 35

28

MITCHELL V. UNITED STATES

verdict to inquire into potential misconduct.” Id. at 133 34.
Rather “as to this question, the decision simply reaffirms the
importance of limits on counsel’s post-trial contact with
jurors.” Id. at 134; see also United States v. Birchette,
908 F.3d 50, 55 60 (4th Cir. 2018) (affirming the denial of a
request to interview jurors, even when presented with some
evidence of potential racial bias, because the evidence did not
satisfy the local rule’s “good cause” requirement); cf. United
States v. Robinson, 872 F.3d 760, 770 (6th Cir. 2017)
(affirming the denial of a motion for a new trial based on
evidence of a juror’s racial bias obtained in violation of local
rules because of Peña-Rodriguez’s “reaffirmation of the
validity of . . . local rules” regulating access to jurors).
Given this conclusion, Mitchell has failed to show an
intervening change in law that constituted extraordinary
circumstances.
D
We reject Mitchell’s other arguments. First, Mitchell
points to the district court’s statement that procedural
safeguards implemented during trial, such as voir dire and the
in-court observation of jurors, helped protect Mitchell’s
conviction from the influence of racial bias, and weighed
against finding “extraordinary circumstances.” Mitchell
argues that the district court erred in making this statement,
because Peña-Rodriguez held that procedural safeguards,
such as those presented in Tanner and its progeny, were
insufficient to protect the right to a fair trial free from racial
bias. This argument fails. Although Peña-Rodriguez
indicated that procedural safeguards might be insufficient by
themselves to protect against racial bias, 137 S. Ct. at 868 69,
it also stated that they could effectively limit the impact of

App. A - 028

(29 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 29 of 35

MITCHELL V. UNITED STATES

29

racial bias, id. at 871. Here, the district court took significant
steps to prevent racial bias. Jurors were asked in voir dire
about their attitudes towards Native Americans, were
instructed not to consider race, and were required to sign a
certification attesting that they did not consider race. In
addition, they were given the opportunity to speak with the
lawyers as they left the courtroom. Peña-Rodriguez noted
that these and similar procedural safeguards “deserve
mention” for their role in helping to avoid racial bias in
deliberations. Id.
Second, Mitchell argues that the district court should have
revisited the question whether Mitchell lacked “good cause”
for purposes of Local Rule 39.2 in light of Peña-Rodriguez.
This argument also fails. Peña-Rodriguez did not change our
controlling precedent on the issue of jury access. Moreover,
the district court did not err in denying Mitchell’s request for
lack of good cause, given that Mitchell did not offer any
“specific claim of jury misconduct.” Smith, 457 F.2d at 1100;
see Eldred, 588 F.2d at 752. We previously concluded in
Mitchell’s case that the racial composition of the jury pool
and petit jury, the government’s use of peremptory
challenges, and comments made by the prosecutor in closing
argument did not constitute errors at trial, see Mitchell I,
502 F.3d at 946 51, 957 58, 970 71, and thus they do not
support Mitchell’s claim that he had good cause to interview
jurors. We also decline to adopt a per se rule that good cause
is always satisfied in capital cases.
Because Mitchell presents no extraordinary circumstances
or district court errors that would justify reopening his case,
we conclude that the district court did not abuse its discretion
by denying Mitchell’s Rule 60(b) motion.

App. A - 029

(30 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 30 of 35

30

MITCHELL V. UNITED STATES
E

Our decision today does not mean that defendants will
lack opportunities to learn of racial bias occurring in their
cases. Although Mitchell asserts that local rules that require
a preliminary showing of juror bias before allowing parties to
interview jurors operate as an “all-out ban” on the ability of
criminal defendants to learn of any racial bias that impacted
the jury’s deliberations, Peña-Rodriguez explained that the
“pattern” of jurors approaching the lawyers in the case to
report racial bias expressed during deliberation “is common
in cases involving juror allegations of racial bias.” 137 S. Ct.
at 870 (collecting cases). It was pursuant to this pattern that
the criminal defendants in Peña-Rodriguez, id. at 861, and
Henley, 238 F.3d at 1113, obtained information of jurors’
racial bias, see also Baker, 899 F.3d at 128 29; Birchette,
908 F.3d at 55. There were ample opportunities for jurors in
Mitchell’s case to report any racial bias, including the
opportunity that the district judge gave the jurors to “discuss
the case” with the lawyers as the jurors exited the courtroom.
Nor does our decision mean that local rules will never
give way to the “unique historical, constitutional, and
institutional concerns” of racism that motivated PeñaRodriguez. 137 S. Ct. at 868. If a criminal defendant makes
a preliminary showing of juror bias, a district court may set
aside a procedural hurdle limiting access to jurors, just as the
Supreme Court made an exception to Rule 606(b) of the
Federal Rules of Evidence in the face of evidence of racial
bias. Indeed, the district court did not rely on Mitchell’s
failure to comply with the procedural requirements of Local
Rule 39.2 in denying Mitchell’s request to interview jurors.
We save questions regarding the extent to which procedural
rules must give way to the right to an impartial trial for

App. A - 030

(31 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 31 of 35

MITCHELL V. UNITED STATES

31

another day, however, because Mitchell has presented no
evidence of racial bias here.
AFFIRMED.

CHRISTEN, Circuit Judge, concurring:
I join the majority’s considered opinion in full, but write
separately because the lengthy history of this case may make
it easy to lose track of the fact that Mitchell did not receive
the death penalty for his murder convictions. Mitchell was
sentenced to death because, in the course of committing their
atrocious crimes, he and his accomplice also committed a
carjacking. In my view, it is worth pausing to consider why
Mitchell faces the prospect of being the first person to be
executed by the federal government for an intra-Indian crime,
committed in Indian country, by virtue of a conviction for
carjacking resulting in death.
For intra-Indian offenses committed in Indian country, the
Major Crimes Act allows federal prosecution of serious
crimes such as murder and manslaughter. 18 U.S.C.
§ 1153(a). The Major Crimes Act was enacted in 1885, in
direct response to the Supreme Court’s decision in Ex parte
Crow Dog, 109 U.S. 556 (1883), which held that the federal
government lacked jurisdiction to try an Indian for the murder
of another Indian in Indian country. Keeble v. United States,
412 U.S. 205, 209 10 (1973). More than one hundred years
later, Congress eliminated the death penalty for federal
prosecutions of Indian defendants under the Major Crimes
Act, subject to being reinstated at the election of a tribe’s
governing body the so-called “tribal option.” 18 U.S.C.

App. A - 031

(32 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 32 of 35

MITCHELL V. UNITED STATES

32

§ 3598; United States v. Gallaher, 624 F.3d 934, 936 (9th Cir.
2010).1 The tribal option was an important recognition of
tribal sovereignty. See Gallaher, 624 F.3d at 938 39. In
short, the tribal option “place[d] Native American tribes on an
equal footing with states: they may decide whether or not . . .
first degree murder committed within their jurisdiction is
punishable by death, even [when] first degree murders . . . are
prosecuted in federal court.” Id. at 939. The Navajo Nation,
like many other tribes, declined to opt in to the federal death
penalty.
Because of this history, when the United States
prosecuted Mitchell for the murders of Alyce Slim and her
nine-year-old granddaughter, it could not seek the death
penalty for those charges. The United States circumvented
the tribal option by also charging Mitchell with carjacking
resulting in death and seeking the death penalty for that
charge. The death penalty was not authorized for carjacking
until 1994.2 Because carjacking is a “crime of nationwide
applicability,”3 rather than a Major Crimes Act offense, the

1

The tribal option also extends to crimes prosecuted under the Indian
Country Crimes Act, 18 U.S.C. § 1152. But because the Indian Country
Crimes Act does not extend to intra Indian offenses committed in Indian
country, United States v. Begay, 42 F.3d 486, 498 (9th Cir. 1994), I limit
my discussion to the Major Crimes Act.
2

Violent Crime Control and Law Enforcement Act of 1994, Pub. L.
No. 103-322, § 60003(a)(14), 108 Stat. 1796, 1968 (1994).
3

Crimes of nationwide applicability are laws that “make actions
criminal wherever committed.” Begay, 42 F.3d at 498. By contrast,
enclave laws—such as those prosecuted under the Major Crimes
Act—“are laws in which the situs of the offense is an element of the
crime—places such as military bases, national parks, federal buildings,

App. A - 032

(33 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 33 of 35

MITCHELL V. UNITED STATES

33

tribal option is inapplicable to it. United States v. Mitchell,
502 F.3d 931, 948 (9th Cir. 2007).
The decision to seek the death penalty in Mitchell’s case
was made against the express wishes of the Navajo Nation,
several members of the victims’ family, and the United States
Attorney for the District of Arizona. As the Attorney General
of the Navajo Nation Department of Justice explained,
although “the details of [Mitchell’s] case[] were shocking,”
the Navajo Nation did not support the death penalty for
Mitchell because Navajo “culture and religion teaches us to
value life and instruct against the taking of human life for
vengeance.” To be sure, the evidence of Mitchell’s guilt was
overwhelming, as the majority explains, but those who
opposed the death penalty in his case did not doubt the
horrific nature of Mitchell’s crimes. The imposition of the
death penalty in this case is a betrayal of a promise made to
the Navajo Nation, and it demonstrates a deep disrespect for
tribal sovereignty. People can disagree about whether the
death penalty should ever be imposed, but our history shows
that the United States gave tribes the option to decide for
themselves.
Our court has already decided that the United States was
legally permitted to seek death pursuant to the carjacking
statute, Mitchell, 502 F.3d at 946 49, and I do not revisit that
conclusion. I write to underscore only that the United States
made an express commitment to tribal sovereignty when it
enacted the tribal option, and by seeking the death penalty in
this case, the United States walked away from that

and the like.” United States v. Anderson, 391 F.3d 1083, 1086 (9th Cir.
2004).

App. A - 033

(34 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 34 of 35

34

MITCHELL V. UNITED STATES

commitment. For all of these reasons, this case warrants
careful consideration.

HURWITZ, Circuit Judge, concurring:
Judge Ikuta’s opinion ably and comprehensively
addresses the issue raised in this appeal, and I join it in full.
I write separately to stress a point aptly made earlier in
the long history of this case by Judge Reinhardt. See Mitchell
v. United States, 790 F.3d 881, 894 97 (9th Cir. 2015)
(Reinhardt, J., dissenting in part). The heinous crimes that
gave rise to this case occurred entirely within the territory of
the sovereign Navajo Nation. The defendant is a Navajo, as
were the victims. The Navajo Nation has, from the outset of
this case, opposed imposition of the death penalty on the
defendant, as have members of the victims’ family.
The Attorney General nonetheless decided to override the
decision of the United States Attorney for the District of
Arizona not to seek the death penalty. Because this case
involved a carjacking, I do not question the government’s
legal right to seek the death penalty; indeed, we have already
held that it had the statutory right to do so. See United States
v. Mitchell, 502 F.3d 931, 946 49 (9th Cir. 2007). But that
the government had the right to make this decision does not
necessarily make it right, and I respectfully suggest that the
current Executive should take a fresh look at the wisdom of
imposing the death penalty. When the sovereign nation upon
whose territory the crime took place opposes capital
punishment of a tribal member whose victims were also tribal
members because it conflicts with that nation’s “culture and

App. A - 034

(35 of 39)
Case: 18-17031, 04/30/2020, ID: 11676333, DktEntry: 37-1, Page 35 of 35

MITCHELL V. UNITED STATES

35

religion,” a proper respect for tribal sovereignty requires that
the federal government not only pause before seeking that
sanction, but pause again before imposing it. That is
particularly true when imposition of the death penalty would
contravene the express wishes of several members of the
victims’ family.
The decision to pursue and to continue to pursue the
death penalty in this case spans several administrations. The
current Executive, however, has the unfettered ability to make
the final decision. See U.S. Const. art. II, § 2, cl. 1. Although
the judiciary today has done its job, I hope that the Executive
will carefully consider whether the death penalty is
appropriate in this unusual case.

App. A - 035

--- ---

---·

-----------------------

Case: 18-17031, 07/08/2020, ID: 11745691, DktEntry: 39, Page 1 of 1

FILED
JUL 8 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

LEZMOND C. MITCHELL, AKA
Lezmond Charles Mitchell,
Petitioner-Appellant,
V.

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-17031

D.C. Nos. 3:09-cv-08089-DGC
3:01-cr-O 1062-DGC-1
District of Arizona,
Prescott

UNITED STATES OF AMERICA,
ORDER
Respondent-Appellee.

Before: IKUTA, CHRISTEN, and HURWITZ, Circuit Judges.

The panel has unanimously voted to deny appellant's petition for rehearing.
The petition for rehearing en bane was circulated to the judges of the court, and no
judge requested a vote for en bane consideration.
The petition for rehearing and the petition for rehearing en bane are
DENIED.

App. B - 036

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 1 of 8

1

WO

2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Lezmond Charles Mitchell,

No. CV-09-08089-PCT-DGC

Defendant/Movant,

10

ORDER

11

v.

12

United States of America,

13

Plaintiff/Respondent.

14
15

Before the Court is Petitioner Lezmond Mitchell’s motion for relief from

16

judgment, filed pursuant to Federal Rule of Civil Procedure 60(b)(6). (Doc. 71.) The

17

motion has been fully briefed. (Docs. 76, 79.) For the reasons set forth below, the

18

motion is denied.

19

I.

Background

20

In 2003, Petitioner was sentenced to death under the Federal Death Penalty Act;

21

his conviction and sentences were affirmed on appeal. United States v. Mitchell, 502

22

F.3d 931, 942 (9th Cir. 2007), cert. denied 553 U.S. 1094 (2009). On May 22, 2009,

23

Petitioner filed a motion for authorization to interview jurors in which he asserted that his

24

counsels’ responsibility to conduct a thorough post-conviction investigation required that

25

they be allowed to contact and interview all jurors in his case. (Doc. 1.) Specifically,

26

Petitioner asked “to interview the jurors about racial and religious prejudice . . . to see

27

whether Mitchell’s Navajo beliefs,” which the prosecutor briefly invoked during closing

28

App. C - 037

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 2 of 8

1

arguments, “played any part in his death sentence.” (Id. at 10.) Respondent opposed the

2

motion. (Doc. 18.)

3

Petitioner’s request was governed by Local Rule of Civil Procedure 39.2(b), which

4

requires that the requesting party “file with the Court written interrogatories proposed to

5

be submitted to the juror(s), together with an affidavit setting forth the reasons for such

6

proposed interrogatories, within the time granted for a motion for a new trial.” Id.; see

7

also LRCrim. 23.1. In addition to these procedural requirements, the requesting party

8

must establish good cause for the request. LRCiv. 39.2(b). On September 4, 2009, the

9

Court denied Petitioner’s request to interview jurors because it was untimely and failed to

10

establish good cause. (Doc. 21.)

11

Petitioner moved to vacate, set aside or correct his sentence under 28 U.S.C.

12

§ 2255. (Doc. 9.) The Court denied his motion on September 30, 2010 (Doc. 56), and

13

the Ninth Circuit affirmed. Mitchell v. United States, 790 F.3d 881, 883 (9th Cir. 2015),

14

cert. denied 137 S. Ct. 38 (2016).

15

The United States Supreme Court then decided Peña-Rodriguez v. Colorado, 137

16

S. Ct. 855 (2017), which Petitioner now cites as the basis for his request to reopen his

17

§ 2255 motion and revisit his motion to contact the jurors from his trial. (Doc. 71 at 3.)

18

II.

Discussion

19

Citing Peña-Rodriguez, Petitioner alleges that this Court’s prior denial of his

20

request to interview jurors “prevented a full and fair merits determination, which

21

warrants re-opening the proceedings under Rule 60(b),” at which point he intends to

22

again “move the Court for an order granting . . . access to the jurors from his trial.”

23

(Doc. 71 at 9.) “Rule 60(b)(6) . . . permits reopening when the movant shows ‘any . . .

24

reason justifying relief from the operation of the judgment’ other than the more specific

25

circumstances set out in Rules 60(b)(1)–(5).” Gonzalez v. Crosby, 545 U.S. 524, 528–29

26

(2005). Relief under Rule 60(b)(6) requires a showing of “extraordinary circumstances.”

27

Id. at 536. “Such circumstances ‘rarely occur in the habeas context.’” Jones v. Ryan,

28

733 F.3d 825, 833 (9th Cir. 2013).

-2-

App. C - 038

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 3 of 8

1

Respondent urges that (1) the court lacks jurisdiction to decide Petitioner’s Rule

2

60 motion because it is in reality an improper second or successive § 2255 petition,

3

(2) Petitioner’s motion is barred by this Court’s prior rulings, and (3) the other safeguards

4

against racial bias in this case were sufficient to ensure Petitioner’s right to a fair trial was

5

realized.1 (Doc. 76.) Because Peña-Rodriguez does not grant Petitioner the right to

6

investigate potential juror bias in the absence of a reason to believe his jurors may have

7

been biased against him, there are no extraordinary circumstances warranting relief from

8

the judgment.

9

A.

The Court Has Jurisdiction to Consider Petitioner’s Motion.

10

After a petitioner files an initial § 2255 petition, any subsequent § 2255 petition is

11

barred unless the petitioner complies with the requirements of § 2255(h). See United

12

States v. Washington, 653 F.3d 1057, 1059 (9th Cir. 2011) (noting that § 2255(h) requires

13

that a petitioner seeking to file a second or successive petition must first have the circuit

14

court certify that the petition relies on either substantial new evidence or a new,

15

retroactive rule of constitutional law).

16

sometimes “characterize their pleading as being a motion under rule 60(b).” Id.

To avoid these requirements, petitioners

17

The Ninth Circuit has issued guidance for determining when a Rule 60(b) motion

18

is an attempt to circumvent the requirements of § 2255(h). “[A] Rule 60(b) motion that

19

attacks ‘some defect in the integrity of the federal habeas proceedings’ is not a disguised

20

§ 2255 motion . . . .” Washington, 653 F.3d at 1060 (quoting Gonzalez, 545 U.S. at 534).

21

Motions that “seek vindication” of a claim, on the other hand, are “in substance []

22

successive habeas petition[s] and should be treated accordingly.” See Gonzalez, 545 U.S.

23
24
25
26
27
28

1

Respondent also argues that to the extent Peña-Rodriguez has any substantive
bearing on Petitioner’s case, its holding is not retroactive and thus does not apply to
Petitioner. (Doc. 76 at 8–9.) Because the Court agrees with Respondent that PeñaRodriguez does not entitle Petitioner to relief under Rule 60(b)(6), the Court need not
address whether Peña-Rodriguez applies retroactively. See Greenawalt v. Ricketts, 943
F.2d 1020, 1029 (9th Cir. 1991) (declining to opine on retroactivity of Enmund v.
Florida, 458 U.S. 782, 801 (1982), where the holding in Enmund “would not change the
outcome of this case”).
-3-

App. C - 039

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 4 of 8

1

at 531. Improperly disguised motions may include those that add new grounds for relief,

2

attack the court’s previous resolution of a claim on the merits, or supplement evidence in

3

support of a previously litigated claim. Id. at 532.

4

In this motion, Petitioner does not seek to vindicate a substantive claim. He

5

consistently argues that he is seeking only to investigate, as a preliminary matter, whether

6

a substantive claim exists. (Doc. 1 at 4–8; Doc. 71 at 6–9.) Only if he discovered

7

evidence of juror bias would he then file a substantive claim. (Doc. 79 at 3–4.) His

8

motion does not raise substantive claims he previously litigated, and is validly before this

9

Court.

10

B.

Petitioner Is Not Entitled to Relief Under Rule 60(b)(6).

11

Petitioner alleges that the holding in Peña-Rodriguez establishes that this Court’s

12

order denying his request to contact jurors violated his Sixth Amendment rights, giving

13

rise to an “extraordinary circumstance” entitling him to relief under Rule 60(b)(6).

14

Respondent, relying primarily on the law-of-the-case doctrine, counters that Petitioner

15

remains bound by this Court’s prior rulings and may not re-litigate whether he is entitled

16

to interview jurors.

17

The law-of-the-case doctrine generally precludes courts “from reconsidering an

18

issue that has already been decided by the same court in the identical case.” Sechrest v.

19

Ignacio, 549 F.3d 789, 802 (9th Cir. 2008).

20

discretionary, United States v. Lewis, 611 F.3d 1172, 1179 (9th Cir. 2010), it mandates

21

that courts follow a prior decision “unless (1) the decision is clearly erroneous and its

22

enforcement would work a manifest injustice; (2) intervening controlling authority makes

23

reconsideration appropriate; or (3) substantially different evidence was adduced at a

24

subsequent trial.” Alaimalo v. United States, 645 F.3d 1042, 1049 (9th Cir. 2011).

Although the doctrine generally is

25

Petitioner argues, first, that the law of the case doctrine does not apply when a

26

party seeks relief under Rule 60(b). (Doc. 79 at 2.) Petitioner fails to cite authority

27

supporting this proposition, and the Court has found none. Cf., e.g., Agostini v. Felton,

28

521 U.S. 203, 236 (1997) (analyzing the law of the case doctrine when presented with a

-4-

App. C - 040

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 5 of 8

1

Rule 60(b)(5) request for relief and concluding that following the Court’s prior judgment

2

would meet the “manifest injustice” exception to the doctrine).

3

Petitioner argues that Peña-Rodriguez is “an intervening change in the law’ that justifies

4

departing from the law-of-the-case doctrine.”

5

because Petitioner is no more entitled to interview jurors now than he was prior to Peña-

6

Rodriguez, that case does not entitle him to relief.

(Id.)

In the alternative,

As explained below, however,

7

Petitioner describes Peña-Rodriguez as a broad decision recognizing a right under

8

the Sixth Amendment to conduct investigations into juror bias in criminal cases. (See

9

Doc. 71 at 9.) He argues that Peña-Rodriguez supersedes this Court’s Local Rule 39.2,

10

which places specific limits on juror contacts. (Id. at 8.) But Petitioner’s interpretation is

11

overbroad. Peña-Rodriguez does not override Local Rule 39.2.

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Local Rule 39.2 provides:
Interviews with jurors after trial by or on behalf of parties
involved in the trial are prohibited except on condition that
the attorney or party involved desiring such an interview file
with the Court written interrogatories proposed to be
submitted to the juror(s), together with an affidavit setting
forth the reasons for such proposed interrogatories, within the
time granted for a motion for a new trial. Approval for the
interview of jurors in accordance with the interrogatories
and affidavit so filed will be granted only upon the showing
of good cause. See Federal Rules of Evidence, Rule 606(b).
Following the interview, a second affidavit must be filed
indicating the scope and results of the interviews with jurors
and setting out the answers given to the interrogatories.
Id. (emphasis added); see also Fed. R. Evid. 606(b).
Local Rule 39.2 and Federal Rule of Evidence 606(b) implement what is known as
the federal “no-impeachment” rule. That rule bars litigants from using jurors’ statements
to attack the validity of a verdict. See Smith v. City & Cty. of Honolulu, 887 F.3d 944,
954 (9th Cir. 2018) (citing Fed. R. Evid. 606(b)). The rule “evolved to give substantial
protection to verdict finality and to assure jurors that, once their verdict has been entered,

28

-5-

App. C - 041

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 6 of 8

1

it will not later be called into question based on the comments or conclusions they

2

expressed during deliberations.” Peña-Rodriguez, 137 S. Ct. at 860.

3

In Peña-Rodriguez, the Supreme Court created a narrow exception to the no-

4

impeachment rule. The Court held that “where a juror makes a clear statement that

5

indicates he or she relied on racial stereotypes or animus to convict a criminal defendant,

6

the Sixth Amendment requires . . . the trial court to consider the evidence of the juror’s

7

statement and any resulting denial of the jury trial guarantee.” Id. at 869. The Court’s

8

decision addresses only what a court must do when presented with evidence of racial

9

bias; it does not address how or when a criminal defendant may seek to obtain evidence

10

of racial bias. Indeed, the Court specifically noted that the methods of investigating

11

potential racial animus remain governed by local rules. See Peña-Rodriguez, 137 S. Ct.

12

at 869 (“The practical mechanics of acquiring and presenting such evidence will no doubt

13

be shaped and guided by state rules of professional ethics and local court rules, both of

14

which often limit counsel’s post-trial contact with jurors.”).

15

Petitioner acknowledges that Peña-Rodriguez allows courts to limit access to

16

jurors through local rules, but argues that Local Rule 39.2 effectively prohibits access to

17

jurors after trial. (Doc. 79 at 6.) Not so. Rule 32.9 imposes a “good cause” threshold,

18

which requires only a “preliminary showing” of juror misconduct. See Wilkerson v.

19

Amco Corp., 703 F.2d 184, 185–86 (5th Cir. 1983) (“We continue to decline to ‘denigrate

20

jury trials by afterwards ransacking the jurors in search of some ground . . . for a new

21

trial’ unless a preliminary showing is made.”); Sullivan v. Fogg, 613 F.2d 465, 467 (2d

22

Cir. 1980) (“Once a preliminary showing of incompetence or juror misconduct has been

23

made there is a corresponding right to an inquiry into the relevant surrounding

24

circumstances.”). The good cause threshold does not prohibit all inquiries into potential

25

racial bias—it prohibits all baseless or speculative inquiries into potential racial bias.

26

Rule 39.2 reflects the fact that courts do not presume racial bias. See United

27

States v. Anekwu, 695 F.3d 967, 978 (9th Cir. 2012) (“[T]here is no constitutional

28

presumption of juror bias for or against members of any particular racial or ethnic

-6-

App. C - 042

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 7 of 8

1

groups.” (quoting Rosales–Lopez v. United States, 451 U.S. 182, 190 (1981))). Instead,

2

courts evaluate the need to investigate juror bias on a case by case basis. Trial courts

3

may determine whether a hearing on potential juror bias is necessary by first considering

4

“the content of the allegations, the seriousness of the alleged misconduct or bias, and the

5

credibility of the source.” See Tracey v. Palmateer, 341 F.3d 1037, 1044 (9th Cir.), cert.

6

denied, 543 U.S. 864 (2003).

7

Petitioner has not alleged any reason to believe that any of the jurors in his case

8

were biased against him due to his race. Absent a preliminary showing of bias, Rule 39.2

9

prohibits the fishing expedition Petitioner requests, and the Court’s holding in Peña-

10

Rodriguez does not alter that result. Petitioner is no more entitled to interview jurors now

11

than he was when he made his initial request. (Doc. 1.) Thus, he was not deprived of an

12

adequate investigation prior to filing his § 2255 motion in this Court, and he has not

13

established that “extraordinary circumstances” warrant relief from this Court’s judgment

14

under Rule 60(b)(6).

15

Finally, to the extent the parties dispute whether other safeguards, such as voir dire

16

and the in-court observation of jurors during trial, adequately protected Petitioner’s

17

conviction from the influence of racial bias (Docs. 76 at 12–14; 79 at 4–5), the Court

18

agrees with Respondent that those safeguards weigh against finding the “extraordinary

19

circumstances” that warrant reopening Petitioner’s case.

20

Finally, Petitioner is not entitled to a certificate of appealability because he has not

21

demonstrated that jurists of reason would find it debatable whether the Court abused its

22

discretion in denying Petitioner’s motion or that jurists of reason would find it debatable

23

whether Petitioner’s underlying § 2255 motion states a valid claim for denial of a

24

constitutional right. See United States v. Winkles, 795 F.3d 1134, 1143 (9th Cir. 2015).

25
26
27
28

-7-

App. C - 043

Case 3:09-cv-08089-DGC Document 80 Filed 09/18/18 Page 8 of 8

1

IT IS ORDERED denying Petitioner’s Notice of Motion and Motion of Relief from

2

Judgment Pursuant to Federal Rule of Civil Procedure Rule 60(b)(6) (Doc. 71).

3

IT IS FURTHER ORDERED that no certificate of appealability shall be issued.

4

Dated this 17th day of September, 2018.

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

-8-

App. C - 044

Case 3:09-cv-08089-MHM Document 21

1

Filed 09/04/09 Page 1 of 10

WO

2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
Lezmond Mitchell,
9
Petitioner,
10
vs.
11
12
13

United States of America,
Respondent.

14

)
)
)
)
)
)
)
)
)
)
)
)

No. CV-09-8089-PCT-MHM
DEATH PENALTY CASE

ORDER

15
Petitioner seeks authorization to interview jurors, moves for a protective order for
16
privileged materials, and requests that a number of exhibits lodged in support of his § 2255
17
petition be filed under seal. (Dkts. 1, 13, 16.) He has also filed an ex parte motion to modify
18
the scheduling order entered by the Court to provide for the filing of an amended petition.
19
(Dkt. 20). The Court addresses these motions in turn.
20
Motion to Interview Jurors
21
Petitioner requests authorization to interview the jurors in his case to ascertain
22

whether any member of the panel engaged in improper ex parte contacts, considered

23
extrajudicial evidence, allowed bias or prejudice to cloud their judgment, or intentionally
24
concealed or failed to disclose material information concerning his or her qualifications to
25
serve as a juror. (Dkt. 1 at 2.)
26
“District courts have ‘wide discretion’ to restrict contact with jurors to protect jurors
27

from ‘fishing expeditions’ by losing attorneys.” United States v. Wright, 506 F.3d 1293,

28

App. D - 045

Case 3:09-cv-08089-MHM Document 21

Filed 09/04/09 Page 2 of 10

1

1303 (10th Cir. 2007) (quoting Journal Pub. Co. v. Mechem, 801 F.2d 1233, 1236 (10th Cir.

2

1986)). Rule 39.2 of the District of Arizona’s Local Rules Civil, made applicable to criminal

3

cases by Local Rule Criminal 24.2, provides as follows:

4
5
6
7

Interviews with jurors after trial by or on behalf of parties involved in
the trial are prohibited except on condition that the attorney or party involved
desiring such an interview file with the Court written interrogatories proposed
to be submitted to the juror(s), together with an affidavit setting forth the
reasons for such proposed interrogatories, within the time granted for a motion
for a new trial. Approval for the interview of jurors in accordance with the
interrogatories and affidavit so filed will be granted only upon the showing of
good cause. See Federal Rules of Evidence, Rule 606(b).

8
LRCiv 39.2(b). The rationale for this rule comes from Federal Rule of Evidence 606(b),
9
which states that
10
11
12

a juror may not testify as to any matter or statement occurring during the
course of the jury’s deliberations or to the effect of anything upon that or any
other juror’s mind or emotions as influencing the juror to assent to or dissent
from the verdict or indictment concerning the juror’s mental processes in
connection therewith.

13
Strong policy considerations underlie this limitation on juror testimony. See McDonald v.
14
Pless, 238 U.S. 264, 267-68 (1915) (noting that public investigation of juror deliberations
15
would lead to “the destruction of all frankness and freedom of discussion and conference”);
16
Tanner v. United States, 483 U.S. 107, 120-21 (1987) (“Allegations of juror misconduct,
17
incompetency, or inattentiveness, raised for the first time days, weeks, or months after the
18
verdict, seriously disrupt the finality of the process.”). Consequently, juror testimony is
19
permissible only in limited circumstances to show that (1) extraneous prejudicial information
20
was improperly brought to the jury’s attention, (2) an outside influence was improperly
21
brought to bear upon any juror, or (3) there was a mistake in the verdict form. Fed. R. Evid.
22
606(b).
23
In their opposition to Petitioner’s motion, Respondents correctly note that Petitioner
24
has not attempted to comply with this Court’s local rule pertaining to juror interviews. (Dkt.
25
18 at 11.) He did not proffer proposed interrogatories or an affidavit and did not submit the
26
instant request within the prescribed time limit. These failures are grounds for denial. Even
27
if the Court overlooks the motion’s procedural deficiencies, Petitioner has failed to establish
28
-2-

App. D - 046

Case 3:09-cv-08089-MHM Document 21

1

Filed 09/04/09 Page 3 of 10

good cause.

2

Duty Under ABA Guidelines

3

Petitioner argues that good cause is established simply because counsel has an

4

obligation under the American Bar Association’s Guidelines for the Appointment and

5

Performance of Defense Counsel in Death Penalty Cases to conduct a reasonable and diligent

6

investigation, which includes interviewing jurors to uncover claims of possible jury

7

misconduct. (Dkt. 1 at 4-7.) Petitioner cites no authority to support his contention that an

8

exception to the strong policy against post-verdict juror investigation exists solely for capital

9

cases, and the Court declines to so find. Petitioner must, at a minimum, make a preliminary

10

showing of juror misconduct to establish good cause to conduct juror interviews. See United

11

States v. Stacey, 475 F.2d 1119, 1121 & n.1 (9th Cir. 1973); Smith v. Cupp, 457 F.2d 1098,

12

1100 (9th Cir. 1972).

13

Alleged Prosecutorial Misconduct

14

Petitioner asserts as good cause a statement by the prosecution during closing

15

arguments that suggested Petitioner had “turned his back on his religious and cultural

16

heritage.” United States v. Mitchell, 502 F.3d 931, 994-95 (9th Cir. 2007). Petitioner asserts

17

that the Ninth Circuit found this comment to be inappropriate but nonetheless denied relief

18

because Petitioner had failed to meet his burden of showing that the prosecutor’s comments

19

tainted the verdict. (Dkt. 1 at 9-10.) Petitioner therefore seeks the “opportunity” to meet this

20

burden by interviewing the jurors “to see whether Mitchell’s Navajo beliefs, or the allegation

21

that the crime violated his Navajo beliefs, played any part in his death sentence.” (Id. at 10.)

22

The Court rejects this argument on several grounds.

23

First, the inquiry Petitioner proposes clearly concerns the subjective effect of the

24

prosecutor’s statements on the jury’s sentencing deliberation and is thus plainly prohibited

25

by Rule 606(b). Petitioner’s reliance on United States v. Henley, 238 F.3d 1111, 1120 (9th

26

Cir. 2001), to argue otherwise is misplaced. In Henley, the court determined that Rule 606(b)

27

did not prohibit examination of a juror’s racial bias because such bias “is unrelated to any

28

specific issue that a juror in a criminal case may legitimately be called upon to determine.”
-3-

App. D - 047

Case 3:09-cv-08089-MHM Document 21

Filed 09/04/09 Page 4 of 10

1

Id. However, in that case, a juror made racist statements “before deliberations began and

2

outside the jury room.” Id. (emphasis in original). Here, the statements at issue were made

3

by the prosecutor during closing arguments. Such statements are clearly not “outside” or

4

“extraneous” influences that can be used to impeach the jury’s verdict under Rule 606(b).

5

See United States v. Bussell, 414 F.3d 1048, 1055 (9th Cir. 2005) (finding court’s jury

6

instruction raising speculation among jurors not extraneous because “[i]t did not enter the

7

room through an external, prohibited route, but rather was part of the trial”) (internal

8

quotation omitted); United States v. Rodriquez, 116 F.3d 1225, 1227 (8th Cir. 1997) (finding

9

fact defendant did not testify as part of trial, “not a fact jurors learned through outside

10

contact, communication, or publicity”).

11

Moreover, contrary to Petitioner’s assertion, the Ninth Circuit did not find the

12

prosecutor’s comments during closing argument concerning Petitioner’s religious and

13

cultural heritage to be improper. The court noted that while the prosecutor “at least

14

indirectly” alluded to religion, it was in the same sense as a letter from the Navajo Nation

15

proffered by the defense as mitigation that described Navajo values and the Nation’s lack of

16

support for capital punishment. Mitchell, 502 F.3d at 995. Because Petitioner had relied on

17

this letter in mitigation, “it was not plainly erroneous for the government to challenge the

18

credibility of Mitchell’s reliance.” Id.

19

Publicity

20

Petitioner asserts as good cause the bare fact that his case was publicized in the

21

newspaper. He postulates that because some articles were “highly prejudicial,” jurors must

22

be questioned to determine whether any of the articles “were improperly brought to the jury’s

23

attention.” (Dkt. 1 at 11.) Petitioner has not demonstrated any factual basis to support his

24

claim that jurors may have been exposed to prejudicial newspaper articles in the jury room.

25

Rather, he states summarily that there is a “strong likelihood” jurors sought out or were

26

exposed to publicity despite acknowledging that during voir dire most of the jurors stated

27

they had read nothing about the case. (Dkt. 19 at 4.) In addition, Petitioner states there were

28

“many articles” but fails to provide citation to the articles to assist the Court in determining
-4-

App. D - 048

Case 3:09-cv-08089-MHM Document 21

Filed 09/04/09 Page 5 of 10

1

where and when these articles were published. Nor has Petitioner provided any copies of the

2

articles to support this request. It appears to the Court that this is nothing more than a fishing

3

expedition and not an appropriate ground for post-verdict juror interviews.

4

Alleged Juror Misconduct

5

Petitioner contends that he has good cause based on “at least two acts of potential

6

juror misconduct that occurred during the guilt phase portion of the case.” (Dkt. 1 at 11.)

7

The first involved an unsigned juror note during trial asking, “Are we allowed to consult

8

detailed maps of this location to familiarize ourself [sic] with the aspects of this case?” (RT

9

4/30/03 at 2769.) With counsel’s acquiescence, at the conclusion of evidence that day, the

10

Court reiterated to the jury the “admonition not to do any research, to consult dictionaries,

11

or other reference materials, including maps or to use the Internet to answer any questions

12

you might have concerning this case.” (Id. at 2907.) The Court further reminded the jury

13

that the case had to be decided solely on the evidence admitted during trial. (Id. at 2908.)

14

Based only on the juror’s note, Petitioner speculates that one or more jurors may have

15

improperly consulted outside sources. (Dkt. 1 at 11.)

16

The second alleged instance of misconduct involved a note from an alternate juror

17

who relayed during trial that he had been in an elevator with three men who mentioned

18

Petitioner’s case. (RT 4/30/03 at 2770.) In response to questioning by the Court, the juror

19

stated that none of the individuals were in the courtroom and that the only thing he heard was

20

the name of the case. (Id. at 2909.) He then remarked, “Yeah, that’s all that was said. I was

21

kind of glad because I didn’t want to say anything about it either.” (Id.) From this remark,

22

Petitioner hypothesizes that the juror was “inclined” to discuss the case had the men spoken

23

further; therefore, he must be interviewed “to ensure that no such indiscretions took place.”

24

(Dkt. 1 at 12.)

25

Petitioner’s arguments are based on wholesale speculation and fail to establish good

26

cause. With regard to the alternate juror, the Court twice affirmed that the only thing he

27

heard was the name of the case. The juror responded, “Yes, ma’am. I just wanted to report

28

it because I thought I was supposed to.” (Id.) The Court finds neither alleged instance of
-5-

App. D - 049

Case 3:09-cv-08089-MHM Document 21

1

Filed 09/04/09 Page 6 of 10

“misconduct” sufficient to overcome the strong policy against post-verdict juror interviews.

2

Conclusion

3

Petitioner has failed to comply with the requirements of Local Rule Civil 39.2.

4

Moreover, he has not established good cause to substantiate his request to interview jurors.

5

Therefore, this motion is denied.

6

Motion for Protective Order and to Seal Exhibits

7

Petitioner has appended numerous exhibits to his § 2255 motion. Three are items

8

from trial counsel’s file offered in support of claims alleging ineffective assistance of

9

counsel: Exhibit 92 is an internal memo to defense counsel from their mitigation specialist;

10

Exhibit 93 is a comprehensive social history of Petitioner prepared by the mitigation

11

specialist; and Exhibit 94 is a psychiatric report of Petitioner prepared prior to trial. Because

12

these items constitute privileged attorney-work product, Petitioner requests that the Court

13

enter a protective order limiting their use to the instant habeas proceeding, pursuant to

14

Bittaker v. Woodford, 331 F.3d 715 (9th Cir. 2003). (Dkt. 13.) Petitioner further requests

15

that these documents, and any future privileged materials revealed through discovery, be

16

maintained under seal “to ensure compliance” with the Court’s protective order. (Dkt. 16 at

17

1.) Respondent concedes that issuance of a protective order is appropriate, but requests that

18

the protective order be styled after that approved in Bittaker in lieu of Petitioner’s proposed

19

language. (Dkt. 18 at 12.) Respondent opposes the motion to seal, stating that it is not in

20

possession of the relevant exhibits and that Petitioner has failed to demonstrate harm from

21

public dissemination of the information contained therein. (Id. at 12-13.)

22

In Bittaker, the court held that the scope of a prisoner’s waiver of the attorney-client

23

privilege arising from a claim of ineffective assistance of counsel is limited to the extent

24

necessary to litigate the claim in postconviction proceedings. 331 F.3d at 721-27. Here,

25

Petitioner has raised numerous ineffectiveness claims and has proffered privileged attorney-

26

client work product in support. (Dkt. 9.) Thus, he is entitled to an order of protection to

27

ensure that his limited waiver is not extended to any future proceedings that may become

28

necessary should he prevail on his § 2255 petition. Bittaker, 331 F.3d at 722-26. However,
-6-

App. D - 050

Case 3:09-cv-08089-MHM Document 21

Filed 09/04/09 Page 7 of 10

1

Petitioner’s proffered protective order goes further than the Court finds is necessary to carry

2

out the mandate of Bittaker. Specifically, Petitioner seeks a blanket order mandating that all

3

privileged attorney-client work product and communications proffered to the court or

4

disclosed to opposing counsel during these proceedings be automatically maintained under

5

seal. He argues that sealing privileged materials is “the only way to ensure compliance” with

6

the limitations imposed by the Court through its protective order. (Dkt. 16 at 1.) The Court

7

disagrees.

8

It is well settled that the public has a common law right of access to judicial

9

documents. Nixon v. Warner Commc’ns, Inc., 435 U.S. 589, 597 (1978); San Jose Mercury

10

News, Inc. v. U.S. Dist. Ct., 187 F.3d 1096, 1102 (9th Cir. 1999). However, this right is not

11

absolute. A party seeking closure can overcome the presumption of access by showing

12

“sufficiently compelling reasons for doing so.” Foltz v. State Farm Mut. Auto. Ins. Co., 331

13

F.3d 1122, 1135 (9th Cir. 2003). This standard has been described as a “balancing test,” San

14

Jose Mercury News, Inc., 187 F.3d at 1102, in which the court must weigh such factors as

15

the “public interest in understanding the judicial process and whether disclosure of the

16

material could result in improper use of the material for scandalous or libelous purposes or

17

infringement upon trade secrets.” Hagestad v. Tragesser, 49 F.3d 1430, 1434 (9th Cir. 1995)

18

(citing E.E.O.C. v. Erection Co., 900 F.2d 168, 170 (9th Cir. 1990)).

19

Although the Court agrees that a protective order limiting future use of attorney-client

20

materials is necessary, it declines to allow blanket sealing of such materials without

21

consideration of the public’s right of access. In this case, Petitioner has proffered privileged

22

materials as exhibits to his motion for relief from judgment. When discovery materials are

23

attached to a motion seeking action by the court, they become subject to the presumption of

24

access. Rushford v. New Yorker Magazine, Inc., 846 F.2d 249, 252 (4th Cir. 1988) (holding

25

that even documents specifically covered by a protective order during discovery must be

26

unsealed, absent an overriding interest, when attached to a dispositive motion). Thus, the

27

Court must balance competing interests to determine if the public right of access has been

28

overcome before it will allow Petitioner’s exhibits to be filed under seal. Because Petitioner
-7-

App. D - 051

Case 3:09-cv-08089-MHM Document 21

Filed 09/04/09 Page 8 of 10

1

did not specifically address the public’s right of access in his motion to seal, the Court will

2

deny the motion without prejudice to refiling. In his renewed motion, Petitioner shall

3

expressly address the prejudice he could suffer should the exhibits, in whole or in part, be

4

filed in the public record. Furthermore, in light of the protective order issued this same date,

5

Petitioner shall also provide unredacted copies of the exhibits to Respondent so that

6

Respondent may file an informed response to Petitioner’s renewed motion to seal.

7

Motion to File Amended Petition

8

Petitioner has filed an ex parte motion to vacate the impending due date for

9

Respondent’s answer to Petitioner’s § 2255 motion and for leave to file an amended petition

10

no later than November 18, 2009, or 90 days after this Court rules on his motion for

11

authorization to interview jurors. (Dkt. 20 at 1.) The impetus behind Petitioner’s motion is

12

the one-year statute of limitations for seeking relief from judgment imposed on federal

13

criminal defendants by 28 U.S.C. § 2255(f). In essence, he is asserting that one year was an

14

insufficient period of time to complete his investigation and prepare his application. He also

15

suggests that the filing of an amended petition is necessary because the Court has yet to rule

16

on his motion to interview jurors. Therefore, he seeks to postpone the filing of the

17

Government’s response, presently due on September 28, 2009, and requests leave to file an

18

amended petition. The Court is unpersuaded.

19

Counsel was appointed to represent Petitioner on April 25, 2008, more than thirteen

20

months prior to expiration of Petitioner’s limitations period. However, counsel did not move

21

for permission to interview jurors until May 22, 2009, less than three weeks before the statute

22

of limitations expired. On June 8, 2009, Petitioner filed a substantial 215-page petition to

23

vacate judgment. (Dkt. 9.) On June 29, the Court directed Respondent to file an answer to

24

the petition and to respond to the instant motions for juror interviews and a protective order

25

(Dkt. 17). The Court finds no good cause for the delay in seeking permission to file an

26

amended petition. Even were the request timely, the Court is disinclined to rule in an

27

advisory fashion on a request to amend.

28

Pursuant to Local Rule Civil 15.1(a), “A party who moves for leave to amend a
-8-

App. D - 052

Case 3:09-cv-08089-MHM Document 21

Filed 09/04/09 Page 9 of 10

1

pleading must attach a copy of the proposed amended pleading as an exhibit to the motion,

2

which shall indicate in what respect it differs from the pleading which it amends, by

3

bracketing or striking through the text to be deleted and underlining the text to be added.”

4

Petitioner has not proffered a proposed amendment and granting permission prospectively

5

to file an amended petition past expiration of § 2255’s limitations period is tantamount to an

6

advisory ruling that such amendment is proper. The Court cannot make a determination as

7

to whether amendment is appropriate unless and until Petitioner actually proffers an amended

8

pleading. Consequently, Petitioner’s motion to amend the Court’s scheduling order and for

9

time to file an amended petition is denied.

10

On a separate note, the Court observes that Petitioner titled the instant motion an “ex

11

parte” request. It is unclear to the Court why Petitioner would proffer such a motion on an

12

ex parte basis. In a declaration attached to the motion, Petitioner’s counsel states that she

13

emailed a copy of the motion to Respondent’s counsel, who replied by email that he would

14

oppose such a motion. (Id. at 6.) To the extent Petitioner seeks permission to proceed on this

15

motion ex parte, that request is denied. The Court does not favor ex parte applications

16

except when specifically authorized by law. See, e.g., 18 U.S.C. § 3599(f) (providing for ex

17

parte consideration of investigative and expert funding requests if need for confidentiality

18

is demonstrated). Therefore, the Court will direct the Clerk of Court to docket Petitioner’s

19

motion as an ordinary filing. Because the Court has deemed it most expeditious to rule on

20

Petitioner’s motion forthwith, Respondent is relieved from Local Rule Civil 7.2(c) from

21

filing a responsive memorandum.

22

Based on the foregoing,

23

IT IS HEREBY ORDERED that Petitioner’s Motion for Authorization to Interview

24

Jurors in Support of Motion to Vacate, Set Aside, or Correct the Sentence (Dkt. 1) is

25

DENIED.

26

IT IS FURTHER ORDERED that Petitioner’s Motion for Protective Order (Dkt. 13)

27

is GRANTED. Pursuant to Bittaker v. Woodford, 331 F.3d 715 (9th Cir. 2003), all

28

information that is privileged under the attorney-work product doctrine and is attorney-client
-9-

App. D - 053

Case 3:09-cv-08089-MHM Document 21

Filed 09/04/09 Page 10 of 10

1

communication produced or presented in this action may be used only by the parties,

2

members of their legal teams (i.e., lawyers, paralegals, investigators, support staff), and all

3

persons retained by the parties (i.e., outside investigators, consultants, expert witnesses) only

4

for the purpose of litigating Petitioner’s claims under 28 U.S.C. § 2255. Neither party shall

5

disclose these materials or the content of these materials to any other persons or agencies

6

without prior Court order. This order shall continue in effect after the conclusion of the

7

proceedings in Mitchell v. United States, and specifically shall apply in the event of any

8

retrial of all or any portion of Petitioner’s criminal case or in any clemency proceeding. Any

9

modification or vacation of this order shall only be made upon notice to, and an opportunity

10

to be heard from, both parties.

11

IT IS FURTHER ORDERED that Petitioner’s Ex Parte Application to File Under

12

Seal Exhibits 92, 93, and 94 (Dkt. 16) is DENIED WITHOUT PREJUDICE. Pursuant to

13

the discussion herein, Petitioner shall file a renewed motion to seal no later than ten (10)

14

days after the filing of this Order.

15

IT IS FURTHER ORDERED that the Clerk of Court shall file Petitioner’s Ex Parte

16

Application for Schedule to File Amended § 2255 Motion (Dkt. 20) as an ordinary filing on

17

the public docket.

18

IT IS FURTHER ORDERED that Petitioner’s Ex Parte Application for Schedule

19

to File Amended § 2255 Motion (Dkt. 20) is DENIED.

20

DATED this 1st day of September, 2009.

21
22
23
24
25
26
27
28
- 10 -

App. D - 054

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 1 of 8

1
2
3
4
5
6
7
8

HILARY POTASHNER (Bar No. 167060)
Federal Public Defender
JONATHAN C. AMINOFF (No. 259290)
(E-Mail: Jonathan_Aminoff@fd.org)
CELESTE BACCHI (No. 307119)
(E-Mail: Celeste_Bacchi@fd.org)
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-5374
Facsimile: (213) 894-0310
Attorneys for Defendant/Movant
LEZMOND CHARLES MITCHELL

9

THE UNITED STATES DISTRICT COURT

10

FOR THE DISTRICT OF ARIZONA

11
12
13

Lezmond Charles Mitchell,

Civil No. 3:09-CV-08089-DGC
(Criminal No. 3:01-CR-01062-NVW-1)

14

Defendant/Movant,

DEATH PENALTY CASE

15

v.

Honorable David G. Campbell
United States District Judge

16
17
18
19
20

United States of America,
Plaintiff/Respondent.

REPLY IN SUPPORT OF DEFENDANT’S
MOTION FOR RELIEF FROM
JUDGMENT PURSUANT TO FEDERAL
RULE OF CIVIL PROCEDURE RULE
60(b)(6)
Oral Argument Requested

21
22
23
24
25
26
27
28

App. E - 055

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 2 of 8

1
2

MEMORANDUM OF POINTS AND AUTHORITIES
A.

The Law of the Case Doctrine Does Not Bar Relief

3

The Government argues that law-of-the-case doctrine bars the Court from

4

granting Mitchell’s Rule 60 motion. Because Rule 60 allows for post-judgment relief

5

from judgment or orders, however, the Government’s logic would dictate that no Rule

6

60 motion could be granted absent a law-of-the-case analysis, which is belied by

7

Supreme Court precedent. Christeson v. Roper, 135 S. Ct. 891, 895-96 (2015) (stating

8

that a petitioner must establish only timeliness and extraordinary circumstances to avail

9

himself of relief under Rule 60). Assuming arguendo that the Government is correct,

10

however, Mitchell has already cited to Peña-Rodriguez v. Colorado, 137 S. Ct. 855

11

(2017), which constitutes “an intervening change in the law” that justifies departing

12

from the law-of-the-case doctrine. In re Rainbow Magazine, Inc., 77 F.3d 278, 281

13

(9th Cir. 1996). Moreover, Mitchell established in his motion the injustice of depriving

14

him of an opportunity to interview the jurors, Motion at 4-7, which also warrants a

15

departure from the law-of-the-case doctrine. Id. at 281.

16

B.

17

The Underlying Issues Are Not Procedurally Barred
The Government argues that because Mitchell raised the Court’s denial of his

18

request for juror interviews on “direct appeal,” Mitchell is barred from raising the issue

19

in a habeas proceeding. Opposition at 6:14-16. Separately, the Government asserts

20

that Mitchell first sought authorization for juror interviews during his section 2255

21

proceedings, after his direct appeal was denied. Opposition at 3:7-11. The former is

22

incorrect. The parties agree that Mitchell first sought approval for juror interviews in

23

2009, dkt. no. 1, his direct appeal proceedings ended when the Supreme Court denied

24

his petition for writ of certiorari on June 9, 2008. Mitchell v. United States, 553 U.S.

25

1094 (2008). When he appealed the District Court’s denial of his section 2255 motion,

26

Mitchell included the District Court’s denial of his request for juror interviews in his

27

appeal. However, an appeal of his section 2255 motion and a “direct appeal” are two

28

separate proceedings. Wall v. Kholi, 562 U.S. 545, 553 (2011) (“‘collateral review’ of
1

App. E - 056

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 3 of 8

1

a judgment or claim means a judicial reexamination of a judgment or claim in a

2

proceeding outside of the direct review process.”) (emphasis added).

3

It appears this argument may simply be an oversight by the Government as the

4

Government makes reference to Mitchell’s “direct appeal” but then cites to the

5

collateral proceedings. See Opposition at 6:4-7. Regardless, the procedural rule that

6

the Government advances – namely, if an issue is raised on direct appeal, the defendant

7

is barred from raising the same issue in a habeas proceeding – is obviously not

8

applicable here because the juror interviews were not raised on direct review.

9

C.

10

Mitchell’s Motion Is Not a Second or Successive 2255 Motion
In Gonzalez v. Crosby, 545 U.S. 524 (2005), the Supreme Court held that Federal

11

Rule of Civil Procedure, Rule 60 is applicable to habeas corpus proceedings, but

12

cautioned that courts should be wary of second or successive habeas petitions disguised

13

as Rule 60 motions. The Court explained that a Rule 60(b) motion “that seeks to revisit

14

the federal court’s denial on the merits of a claim for relief should be treated as a

15

successive habeas petition.” Id. at 534 (emphasis added). But where the motion

16

“confines itself not only to the first federal habeas petition, but to a nonmerits aspect of

17

the first federal habeas proceeding,” that motion is not a second or successive petition;

18

rather, it is a valid exercise of Rule 60(b). Id. Indeed, a motion that “challenges only

19

the District Court’s failure to reach the merits does not warrant such treatment, and can

20

therefore be ruled upon by the District Court without precertification by the Court of

21

Appeals pursuant to § 2244(b)(3).” Id. at 538.

22

Here, Mitchell’s motion raises a single issue: the Court’s rejection of his request

23

to interview his trial jurors. The parties agree that this is a procedural ruling.

24

Opposition at 8:2-4.

25

Although acknowledging that Mitchell is not currently presenting a new claim in

26

his motion or seeking to revisit a claim already denied on its merits, the Government

27

argues that Mitchell’s motion is a second or successive motion. Opposition at 8. The

28

Government’s theory is that if Mitchell’s discovery request is granted, and in discovery
2

App. E - 057

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 4 of 8

1

he finds evidence that may form the basis for a claim not currently included in his

2

section 2255 motion, then that new claim would constitute a second or successive

3

motion. Id. at 8:12-19. The Government offers no authority for this theory, and its

4

citations to Gonzalez do not support this principle. Moreover, whether granting

5

Mitchell’s Rule 60(b) motion ultimately leads to an opportunity for Mitchell to amend

6

his petition with a new claim is not part of the analysis at this stage. In fact, in

7

Gonzalez, 545 U.S. 524 (2005), the Supreme Court found that challenging a timeliness

8

denial via a Rule 60(b) motion was a proper function of a Rule 60(b) motion. If

9

Gonzalez’s motion was granted, it would obviously have allowed him to litigate his

10

underlying substantive claims for relief and if, in the ordinary course of proceedings,

11

discovery was granted, Gonzalez may indeed have amended his petition with new

12

claims. Thus, whether litigation on this procedural issue ultimately allows Mitchell to

13

re-open his habeas proceedings is not a question to be considered by this court, nor

14

does it provide justification to deny this motion. Additionally, Mitchell raised several

15

claims related to his jury in his section 2255 motion, and claimed in his amended

16

section 2255 motion that the jury was not impartial. See Dkt. No. 30 at Claim M.

17

Depending on what evidence is ultimately discovered, Mitchell may not need to amend

18

his petition to add new claims.

19

D.

Peña-Rodriguez Establishes that the Existing Safeguards Against Racial

20

Bias are Lacking

21

The Government argues that trial measures such as voir dire guard against racial

22

prejudice. Opposition at 12-14. Of course, if those safeguards were effective, then

23

cases like Peña-Rodriguez v. Colorado, 137 S. Ct. 855 (2017), where a juror espouses

24

racist views during deliberations, would not exist. Moreover, and more specifically,

25

Mitchell has raised several claims about the voir dire process in his case. Dkt. No. 30

26

at Claim H, I, J, L, M. It may be true, as a general matter, that voir dire helps to

27

safeguard against racial prejudice. However, as cases like Peña-Rodriguez

28
3

App. E - 058

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 5 of 8

1

demonstrate, the fact is that racist individuals exist and they end up on juries, and

2

Mitchell should be permitted to investigate this issue.

3

E.

4

Local Rule 39.2 is Inconsistent with Peña-Rodriguez
The District of Arizona’s local rules have placed Mitchell in a catch-22: to

5

establish racial bias, he must investigate; to be permitted to investigate, he must

6

establish racial bias. Indeed, the Government endorses this catch-22, arguing that

7

Mitchell “must make a preliminary showing of misconduct to establish good cause to

8

conduct juror interviews.” Opposition at 12:13-14.

9

In support of its position, the Government contends that the “Ninth Circuit

10

disfavors post-verdict interrogation of jurors and has consistently disallowed such

11

interrogation….” Opposition at 12:10-12. In support of this theory, the Government

12

cites to Smith v. Cupp, 457 F.2d 1098, 1100 (9th Cir. 1972) which does not state a

13

general proposition adverse to juror interviews, but simply holds, pre- Peña-Rodriguez,

14

that there is no federal constitutional right to interview jurors. The Government also

15

cites to Northern Pacific Railway Co. v. Mely, 219 F.2d 199, 202 (9th Cir. 1954), which

16

also does not state a general proposition against juror interviews. Instead, it simply

17

holds that it is inappropriate to inquire into the course of jury deliberations, as

18

prohibited by Federal Rule of Evidence 606(b), but says nothing about inquiring into

19

juror misconduct or evidence that is not barred by Rule 606(b). The additional cites

20

offered by the Government do no more than to establish that evidence barred by 606(b)

21

is not admissible. United States v. Stacey, 475 F.2d 1119, 1121 (9th Cir. 1973) (“After

22

a verdict is returned a juror will not be heard to impeach the verdict when his testimony

23

concerns his misunderstanding of the court’s instructions. This rule does not violate a

24

defendant’s constitutional rights.” (internal citation omitted)).

25

In actuality, the Ninth Circuit has considered the fruits of juror interviews when

26

the subject matter is admissible under Rule 606(b). See, e.g., Godoy v. Spearman, 861

27

F.3d 956 (9th Cir. 2017) (en banc) (remanding for an evidentiary hearing in reliance on

28

an alternate juror’s declaration concerning juror’s communication with outside source);
4

App. E - 059

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 6 of 8

1

Estrada v. Scribner, 512 F.3d 1227 (9th Cir. 2008) (finding juror declarations

2

admissible where they detailed improper discussions and extraneous evidence); United

3

States v. Maree, 934 F.2d 196 (9th Cir. 1991) (juror’s declaration was admissible where

4

it detailed outside influence exerted on the jury) overruled on other grounds by United

5

States v. Adams, 432 F.3d 1092 (9th Cir. 2006). Mitchell’s request to interview jurors

6

is consistent with Ninth Circuit precedent as Mitchell seeks to interview the jurors for

7

evidence that is not rendered inadmissible by Rule 606(b).

8

Both Mitchell and the Government cite to the Supreme Court’s language in

9

Peña-Rodriguez v. Colorado, where the Court states “[t]he practical mechanics of

10

acquiring and presenting such evidence will no doubt be shaped and guided by state

11

rules of professional ethics and local court rules, both of which often limit counsel’s

12

post-trial contact with jurors.” 137 S. Ct. at 859-60; Opposition at 11:16-18; Motion at

13

6:8-11. Yet the Government does not respond to the fact that Local Criminal Rule

14

39.2, requiring good cause as a prerequisite to juror interviews, is far more limiting

15

than almost any rule on this topic in the entire Ninth Circuit. Indeed, Local Criminal

16

Rule 39.2 does not set forth “practical mechanics” guiding counsel’s post-trial contact

17

with jurors; rather, it constitutes an all-out ban on counsel’s ability to investigate the

18

possibility of juror misconduct. The Government’s only response is that because the

19

jurors did not approach Mitchell’s counsel of their own accord, and Mitchell could not

20

otherwise find evidence of juror misconduct, Opposition at 11-12, Mitchell must live

21

with the possibility of unrealized juror misconduct.

22

The Government’s arguments do not comport with Peña-Rodriguez. Federal

23

Rule of Evidence 606(b) prohibits jurors from testifying about the substance of their

24

deliberations. In Peña-Rodriguez, however, the Supreme Court held that the Sixth

25

Amendment required that Rule 606(b), and its state equivalent, cannot bar evidence of

26

racial animus. 137 S. Ct. 855 (2017). Allowing a petitioner to advance evidence of a

27

juror’s racial bias is inconsistent with barring a petitioner from investigating racial bias

28

amongst jurors. Indeed, the Supreme Court discusses at length rules that “limit”
5

App. E - 060

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 7 of 8

1

attorneys contact with jurors and provide the jurors “some protection” when their juror

2

obligations are complete. Id. at 869. Rules like Rule 39.2 that go beyond limiting

3

contact and instead create total bans on juror interviews, render the rights articulated in

4

Peña-Rodriguez meaningless.

5

Constitutional rights implicitly protect those closely related acts necessary to

6

their exercise. Luis v. United States, 136 S. Ct. 1083, 1097 (2016) (Thomas, J.

7

dissenting). Inevitably, “[t]here comes a point ... at which the regulation of action

8

intimately and unavoidably connected with [a right] is a regulation of [the right] itself.”

9

Hill v. Colorado, 530 U.S. 703, 745 (2000) (Scalia, J., dissenting). The Supreme Court

10

has applied this principle in a number of cases. For example, because criminal

11

defendants have a right to an initial appeal, the Court has determined that defendants

12

must also have the right to counsel for that appeal, or else the appellate right is

13

diminished. Douglas v. California, 372 U.S. 353 (1963). And later, continuing this

14

trend, the Court held that if defendants on appeal have a right to counsel, then that right

15

must encompass the effective assistance of appellate counsel. Evitts v. Lucey, 469 U.S.

16

387 (1985). The same logic applies here: If criminal defendants have the

17

constitutional right to present evidence of juror bias, then they must be given the tools

18

to investigate that evidence, and Local Rule 24.1 bars the ability to do so.

19

This past term, the Supreme Court emphasized that “[d]iscrimination on the basis

20

of race, odious in all aspects, is especially pernicious in the administration of justice.”

21

Buck, 137 S. Ct. at 778 (quoting Rose v. Mitchell, 443 U.S. 545, 555 (1979)); Peña-

22

Rodriguez, 137 S. Ct. at 868 (same). The Buck court continued that:

23

Relying on race to impose a criminal sanction “poisons public

24

confidence” in the judicial process. Davis v. Ayala, 135 S. Ct.

25

2187, 2208 (2015). It thus injures not just the defendant, but

26

“the law as an institution, … the community at large, and ...

27

the democratic ideal reflected in the processes of our courts.”

28

Rose, 443 U.S. at 556 (internal quotation marks omitted).
6

App. E - 061

Case 3:09-cv-08089-DGC Document 79 Filed 06/18/18 Page 8 of 8

1

Such concerns are precisely among those we have identified

2

as supporting relief under Rule 60(b)(6).

3
4

137 S. Ct. at 778.
Those same concerns are at issue here. Mitchell has already highlighted the

5

racial issues at play in his case and in death-penalty prosecutions at large. Motion at 5-

6

6. These issues warrant relief under Rule 60(b).

7
8
9

CONCLUSION
For all of the foregoing reasons, Mitchell respectfully requests that the Court
grant this motion, re-open this case, and allow Mitchell to move for access to the jurors.

10
11

Respectfully submitted,

12
13
14
15
16

Dated: June 18, 2018

/s/ Jonathan C. Aminoff
JONATHAN C. AMINOFF
CELESTE BACCHI
Deputy Federal Public Defenders

17
18
19
20
21
22
23
24
25
26
27
28
7

App. E - 062

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 1 of 14

1
2
3
4
5
6
7

ELIZABETH A. STRANGE
First Assistant United States Attorney
District of Arizona
VINCENT Q. KIRBY
Assistant U.S. Attorney
Arizona State Bar No. 006377
Two Renaissance Square
40 N. Central Ave., Suite 1800
Phoenix, Arizona 85004
Telephone: 602-514-7500
Email: Vincent.Kirby@usdoj.gov
Attorneys for Plaintiff

8

IN THE UNITED STATES DISTRICT COURT

9

FOR THE DISTRICT OF ARIZONA

10
11

United States of America,
Plaintiff,

12

vs.

13
14

CV-09-08089-DGC
GOVERNMENT’S RESPONSE TO
DEFENDANT’S MOTION FOR RELIEF
FROM JUDGEMENT PURSUANT TO
RULE 60(b)(6) FED. R. CIV. P.

Lezmond Mitchell,

15

Defendant.

16

The government respectfully requests the Court to deny the Defendant’s Motion

17

based on this Court’s prior ruling that since the defendant’s original Motion To Interview

18

Jurors was raised in a post-trial setting there was “not a cognizable claim for relief under §

19

2255.” Mitchell v. United States, No. CV-09-8089-PCT-MHM, 2010 WL 3895691, *42 (D.

20

Ariz. Sept. 30, 2010). The Ninth Circuit affirmed the decision. Mitchell v. United States

21

790 F.3d 881, 894 (9th Cir. 2015).

22

///

23

///

24

///

25

///

26

///

27

///

28

///

App. F - 063

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 2 of 14

1

Alternatively, the Rule 60 (b)(6) Motion is a disguised § 2255 Petition which would

2

require a COA.

3

retroactive, nor does it permit a defendant to interview jurors to determine whether there

4

was juror racial bias without any preliminary evidence. For all of these reasons the Motion

5

should be denied. This request is based on the attached Memorandum.

6

Finally, Pena-Rodriguez v. Colorado, 137 S.Ct. 855 (2017) is not

Respectfully submitted this 21st day of May 2018.

7

ELIZABETH A. STRANGE
First Assistant United States Attorney
District of Arizona

8
9

S/Vincent Q. Kirby
VINCENT Q. KIRBY
Assistant U.S. Attorney

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
-2-

App. F - 064

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 3 of 14

1
2

MEMORANDUM

I.

Facts and Procedural History

3

The defendant was convicted of eleven criminal counts related to the brutal murders

4

of a 63-year old grandmother and her 9-year old granddaughter. Among the counts of

5

conviction was Count 2 - Carjacking Resulting in Death, for which the defendant received

6

the death penalty at the recommendation of the trial jury. The defendant was sentenced on

7

September 15, 2003. The Ninth Circuit later affirmed the conviction and sentenced on

8

September 5, 2007. United States v. Mitchell 502 F.3d 931 (9th Cir. 2007). A petition for

9

certiorari was denied June 9, 2008. Mitchell v. United States, 553 U.S. 1094 (2008).

10

Six years after conviction, on May 22, 2009, the defendant filed a Motion for

11

Authorization to Interview Jurors. (CV 09-08089, CR-1.) The Court denied the Motion as

12

untimely, failure to provide requisite affidavits, interrogatories and establish “good cause”

13

to substantiate his request. (CV 09-08089, CR-21; Mitchell v. United States, No. CV-09-

14

8089-PCT-MHM, 2010 WL 3895691, *2, *4 (D. Ariz. Sept. 30, 2010)

15

The defendant amended his original habeas petition in an attempt to again raise his

16

request to interview the jurors. (CV 09-08089, CR- 42-1.) However, this Court ruled that

17

the Motion for Authorization to Interview Jurors had been raised in a post-conviction

18

setting, rather than in a trial/sentencing setting and therefore was not a “cognizable claim

19

for relief under § 2255.” Mitchell v. United States, No. CV 09-08089, CR-56; 2010 WL

20

3895691 at *42 (D. AZ. September 30, 2010)

21

The issue was raised as part of the defendant’s appeal of the Court’s denial of the

22

habeas petition. The Ninth Circuit, while not specifically addressing this issue, implicitly

23

rejected the argument by affirming the judgment of this Court. Mitchell v. United States 790

24

F.3d 881, 894 (9th Cir. 2015); Certiorari Denied Mitchell v. United States 137 S.Ct. 38,

25

U.S., Oct. 3, 2016. The defense failed to raise it again either in his Motion for Rehearing or

26

the Petition for Certiorari.

27

The defendant has now filed another Motion seeking permission to reopen his

28

Section 2255 litigation in order to interview the jurors citing Pena-Rodriguez v. Colorado,
-3-

App. F - 065

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 4 of 14

1

137 S.Ct. 855 (2017).

2

ARGUMENT

3

Court’s Prior Orders Precludes the Reopening of the Habeas Proceedings.

4

The defendant seeks to reopen his “Section 2255 litigation to correct the defects in

5

the integrity of the post-conviction proceedings that deprived him of a resolution of his

6

claims on their merits” in order to again seek permission to interview the trial jurors. (CR-

7

71 p. 2.) He is seeking relief pursuant to Fed. R. Civ. P. 60 60(b)(6) that allows a court, in

8

very limited circumstances, to grant relief in habeas cases for “any other reason that justifies

9

relief.” However, before the Court can reach the Rule 60(b)(6) issue, there is the question

10

of whether the defense can even request to reopen the habeas proceeding.

11

In 2009, the defendant sought authorization to interview the trial jurors pursuant to

12

LRCiv 39.2(b) made applicable to criminal cases by Local Rule Criminal 24.2, which

13

provides in part:

14
15
16
17
18
19
20
21

Interviews with jurors after trial by or on behalf of parties involved in the trial
are prohibited except on condition that the attorney or party involved desiring
such an interview file with the Court written interrogatories proposed to be
submitted to the juror(s), together with an affidavit setting forth the reasons
for such proposed interrogatories, within the time granted for a motion for a
new trial. Approval for the interview of jurors in accordance with the
interrogatories and affidavit so filed will be granted only upon the showing of
good cause. See Federal Rules of Evidence, Rule 606(b). Following the
interview, a second affidavit must be filed indicating the scope and results of
the interviews with jurors and setting out the answers given to the
interrogatories.

22

The defendant did not file a motion in compliance with LRCiv 39.2(b) after the

23

verdict was rendered in May 2003. It was not until approximately six years later, on May

24

22, 2009, that the defendant filed his Motion Seeking Authorization to Interview Jurors.

25

(CV 09-08089, CR-1.)

26

The Court denied the Motion noting Rule 606(b)’s limitations on juror testimony.

27

Further, it found that not only was the request untimely, but the defendant failed to proffer

28

proposed interrogatories, or an affidavit as required by the Rule. Finally, even overlooking
-4-

App. F - 066

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 5 of 14

1

the procedural failures the Court ruled that the defendant failed to show “good cause.”

2

Mitchell v. United States, CV-09-08089, 2009 WL 2905958 *2. The Court also rejected

3

the defendant’s argument that the good cause was established by the American Bar

4

Association’s Guidelines in Death Penalty cases directing habeas counsel to interview jurors

5

post-verdict. It found no support in case law that death cases were entitled to exceptions of

6

the strong policy against such interviews. Mitchell v. United States, CV-09-08089, 2009

7

WL 2905958 *2 (CR-21 p. 3.) The Supreme Court has agreed that the ABA Guidelines are

8

only guidelines. Bobby v. Van Hook, 558 U.S. 4, 8 (2009).

9

In response to that ruling, the defendant amended his original habeas petition to

10

include the Court’s denial of the request to interview jurors. (CV-09-08089, CR 42-1.)

11

However, the Court ruled that the Motion for Authorization to Interview Jurors had been

12

raised in a post-conviction setting rather than trial or sentencing and therefore was “not a

13

cognizable claim for relief under § 2255.” Mitchell v. United States, No. CV 09-08089, CR-

14

56; 2010 WL 3895691 at *42 (D. AZ. September 30, 2010). Under the doctrine of the “law

15

of the case,” courts are “generally precluded from reconsidering an issue that has already

16

been decided by the same court, or a higher court in the identical case.” United States v.

17

Alexander, 106 F.3d 874, 876 ((9th Cir. 1997) (quoting Thomas v. Bible, 983 F.2d 152, 154

18

(9th Cir. 1993)).

19

A court may depart from the law of the case and grant reconsideration only where

20

1) the first decision was clearly erroneous, 2) an intervening change in the law has occurred,

21

3) the evidence on remand is substantially different, 4) other changed circumstances exist,

22

or 5) a manifest injustice would otherwise result. Failure to apply the doctrine of the law of

23

the case absent one of the requisite conditions constitutes an abuse of discretion. Id. at 876.

24

The original decision was not clearly erroneous, there has been no intervening change in the

25

law, as no case has authorized the interviews of jurors without some preliminary showing

26

of an issue; nothing else has changed; and there is no manifest injustice when after 15 years

27

no juror has come forward to allege racial bias. Therefore, the Court’s decision that the

28

original request to interview jurors was not timely, failed to demonstrate good cause as well
-5-

App. F - 067

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 6 of 14

1

as its subsequent ruling that the Motion was “not a cognizable claim for relief under § 2255”,

2

are the law of case. Therefore, there is no Habeas Proceeding to reopen on the matter of

3

juror interviews.

4

Furthermore, the defendant raised the denial on direct appeal, (CA-11-99003, CR-

5

23). While the Ninth Circuit’s opinion did not include a discussion of the juror interview

6

issue, it implicitly rejected the claim in ruling: “[t]he judgment of the district court is

7

AFFIRMED.” Mitchell v. United States 790 F.3d 881, 894 (9th Cir. 2015). The defendant

8

failed to raise it any further with the Ninth Circuit in its Motion for Rehearing. (CA-11-

9

99003, CR-74-1) Nor did it bring the issue to the attention of the Supreme Court in its

10

petition for certiorari. (No 15-8725). He also failed to seek a Certificate of Appealability

11

from the Ninth Circuit. Had he been denied a certificate by the Court of Appeals he could

12

have sought a review by the United States Supreme Court via petition for Writ of Certiorari.

13

Hohn v. United States, 524 U.S. 236 (1998).

14

Since he raised this issue on direct appeal, he is also barred from raising it in a

15

habeas proceeding. The Ninth Circuit has long held that “[i]ssues disposed of on a previous

16

direct appeal are not reviewable in a subsequent petition under 2255.” Stein v. U.S., 390

17

F.2d 625, 626 (9th Cir. 1968). “Issues disposed of on a previous direct appeal are not

18

reviewable in a subsequent § 2255 proceeding. The fact that the issue may be stated in

19

different terms is of no significance.” United States v. Currie, 589 F.2d 993, 995 (9th Cir.

20

1979); Mitchell v. United States, 2012 WL 1768088 *4 (D. Az. May 17, 2012).

21

Based on the Court’s prior rulings and his direct appeal the defendant’s request to

22

reopen his § 2255 Habeas proceeding must be denied.

23

RULE 60(b)(6) and SECOND OR SUCCESSIVE MOTION.

24

To the extent that the Court disagrees with the argument that the Habeas Proceeding

25

is not directly available based on its prior rulings, the Court must first determine whether

26

this Motion is a legitimate Rule 60(b)(6) motion or a disguised second or successive habeas

27

petition. If it is the latter, the Court lacks jurisdiction to consider the matter. United States

28

v. Washington, 653 F.3d 1057, 1065 (9th Cir. 2011).
-6-

App. F - 068

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 7 of 14

1

Federal criminal defendants are generally limited to a single motion under § 2255,

2

and may not bring a “second or successive motion” unless it meets the exacting standards

3

of 28 U.S.C. § 2255(h). Under that provision, a subsequent motion cannot be considered

4

absent certification by the circuit court of appeals that it contains “(1) newly discovered

5

evidence that, if proven and viewed in light of the evidence as a whole, would be sufficient

6

to establish by clear and convincing evidence that no reasonable factfinder would have

7

found the movant guilty of the offense,” or “(2) a new rule of constitutional law, made

8

retroactive to cases on collateral review by the Supreme Court, that was previously

9

unavailable.”

Id. § 2255(h).

To avoid this onerous standard, petitioners sometimes

10

characterize their pleadings as motions under Rule 60(b) of the Federal Rules of Civil

11

Procedure, which “allows a party to seek relief from a final judgment, and request reopening

12

of a case, under a limited set of circumstances.” Gonzalez v. Crosby, 545 U.S. 524, 528

13

(2005) 1; United States v. Washington, 653 F.3d 1057, 1059 (9th Cir. 2011). When a Rule

14

60(b) motion is actually a disguised second or successive § 2255 motion, it must meet the

15

criteria set forth in § 2255(h). Gonzalez, 545 U.S. at 528.

16

The Supreme Court has not adopted a bright-line rule for distinguishing bona fide

17

Rule 60(b) motions from disguised second or subsequent § 2255 motions, instead holding

18

that a Rule 60(b) motion that attacks “some defect in the integrity of the federal habeas

19

proceedings” is not a disguised § 2255 motion but rather “has an unquestionably valid role

20

to play in habeas cases.” Id. at 532, 534; see also United States v. Buenrostro, 638 F.3d 720,

21

722–23 (9th Cir. 2011) (per curiam). A legitimate Rule 60(b) motion may challenge a

22

district court’s procedural ruling, such as a “failure to exhaust, procedural default, or statute-

23

of-limitations bar,” that actually “precluded a merits determination.” Gonzalez, 545 U.S. at

24

532 n. 4. On the other hand, if the motion presents a “claim,” i.e., “an asserted federal basis

25

for relief from a ... judgment of conviction,” then it is, in substance, a new request for relief

26
27
28

1

Although Gonzalez dealt with a § 2254 proceeding the Ninth Circuit has held it also
applies to § 2255 motions as well. United States v. Buenrostro, 638 F.3d 720, 722 (9th Cir.
2011).
-7-

App. F - 069

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 8 of 14

1

on the merits and should be treated as a disguised § 2255 motion. Id. at 530.

2

In this case, Mitchell purports to attack a procedural ruling – the denial of a request

3

to interview jurors – but does so in the service of a claim he never made; that racial bias

4

amongst the jurors prejudiced the verdict against him. (CR-30). Indeed, this Court has

5

already held that Mitchell’s complaints about the denial of juror interviews failed to state a

6

claim upon which collateral relief might lie. Mitchell v. United States, No. CV-09-8089,

7

CR-56 p. 60.) The Court did so despite Mitchell’s complaints that “without any opportunity

8

to communicate with the jurors, it would be impossible for him to identify, much less prove,

9

that an individual juror was biased or that the deliberations were otherwise compromised.”

10

(CR-30 at 174.) Therefore, while Mitchell does attack a procedural ruling by this Court, the

11

issue he identifies could not form the basis of relief absent permission by the Ninth Circuit

12

for him to raise the substantive question of juror bias. As such, it appears that he has used

13

Rule 60(b) in an improper attempt to smuggle a substantive issue before the Court,

14

notwithstanding § 2255(h). Stated another way, Mitchell’s arguments cannot satisfy Rule

15

60(b) because they allege a “defect in the integrity of the federal habeas proceedings” that

16

did not impact this Court’s adjudication of the merits as presented in the amended motion

17

for relief. Cf. Gonzalez, 545 U.S. at 532, 534. Indeed, the defendant states that he is seeking

18

to reopen the Section 2255 litigation to correct defects in those prior proceeding in order to

19

pursue a “resolution of his claims on their merits.” (CR 71, p. 2)

20

Even were the court to conclude that the defendant is entitled to reopen his habeas

21

petition, the defendant is still not eligible for relief. He cannot sustain his burden of showing

22

“’extraordinary circumstances’ justifying the reopening of a final judgment.” Gonzalez v.

23

Crosby, 545 U.S. at 535. The Court has explained that “[s]uch circumstances will rarely

24

occur in the habeas context.” Gonzalez, 545 U.S., at 535, 125 S.Ct. 2641. He fails to show

25

that Pena-Rodriguez applies retroactively to his case. Even if the Court does determine that

26

Pena-Rodriguez applies to the case, the defendant is unable to establish that the opinion

27

supports his request to interview the jurors without a preliminary showing.

28

In Tharpe v. Sellers, 138 S. Ct. 545 (2018)(per curiam), a post Pena-Rodriguez
-8-

App. F - 070

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 9 of 14

1

case, the Supreme Court remanded that case to the Eleventh Circuit for further consideration

2

of whether a COA should issue on the issue of juror-bias. Although the opinion did not

3

discuss Pena-Rodriguez, Justice Thomas, in dissent, provided an instructive analysis in

4

concluding that Pena-Rodriguez did not apply retroactively:

5
6
7
8
9
10
11
12
13
14
15
16

Pena–Rodriguez established a new rule: The opinion states that it is answering a
question “left open” by this Court's earlier precedents. 580 U.S., at ––––, 137 S.Ct.,
at 867. A new rule does not apply retroactively unless it is substantive or a
“watershed rul[e] of criminal procedure.” Teague v. Lane, 489 U.S. 288, 311, 109
S.Ct. 1060, 103 L.Ed.2d 334 (1989) (plurality opinion). Since Pena–Rodriguez
permits a trial court “to consider [certain] evidence,” 580 U.S., at ––––, 137 S.Ct.,
at 869–70, and does not “alte[r] the range of conduct or the class of persons that the
law punishes,” Schriro v. Summerlin, 542 U.S. 348, 353, 124 S.Ct. 2519, 159
L.Ed.2d 442 (2004), it cannot be a substantive rule. And Tharpe does not even
attempt to argue that Pena–Rodriguez established a watershed rule of criminal
procedure—a class of rules that is so “narrow” that it is “ ‘unlikely that any has yet
to emerge.’ ” Schriro, supra, at 352, 124 S.Ct. 2519 (quoting Tyler v. Cain, 533 U.S.
656, 667, n. 7, 121 S.Ct. 2478, 150 L.Ed.2d 632 (2001); alterations omitted). Nor
could he. Not even the right to have a jury decide a defendant's eligibility for death
counts as a watershed rule of criminal procedure. Schriro, supra, at 355–358, 124
S.Ct. 2519. Tharpe v. Sellers, 138 S. Ct. 545, 551–52, 199 L. Ed. 2d 424 (2018)
(Justice Thomas dissenting)

17

While Pena-Rodriguez carved out an exception to Rule 606(b) and allow for a

18

review of racial bias of jurors, the Ninth Circuit had already raised the possibility. United

19

States v. Henley, 238 F.3d 1111, 1120 (9th Cir. 2001). Nevertheless, the defendant failed to

20

avail himself of the opportunity to pursue this area of inquiry in his 2009 Motion. He now

21

submits that Pena-Rodriguez supports his request to interview jurors without any

22

preliminary showing of racial bias. There is no approval from the Supreme Court or any

23

other court for fishing expeditions in the absence of some information of racial bias. Rather

24

the case law is to the contrary.

25

In Pena-Rodriguez, the jury was discharged and advised by the court that they were

26

free to discuss the case with anyone if they chose. Pena-Rodriguez, 137 S.Ct. at 861. The

27

defense attorney entered the jury room and was approached by two jurors. They informed

28

counsel that another juror had expressed anti-Hispanic bias toward the defendant. Id. 861.
-9-

App. F - 071

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 10 of 14

1

Following the local court rules, defense counsel sought and obtained permission from the

2

court to again contact the two jurors and obtain their affidavits limited solely to the issue of

3

racial bias. Id. 870. However, the district denied the motion for a new trial because of

4

Colorado’s version of Rule 606(b) ruling that it was powerless to consider the affidavits and

5

the Colorado Supreme Court agreed. Id. 862.

6

The Supreme Court set out to determine “whether there is an exception to the no-

7

impeachment rule when, after the jury is discharged, a juror comes forward with compelling

8

evidence that another juror made clear and explicit statements that racial animus was a

9

significant motivating factor in his or her vote to convict.” Id. 861(emphasis added).

10

The Court had previously addressed the issue of jury impeachment in Tanner v.

11

United States, 483 U.S. 107 (1987).

12

misconduct raised after a verdict would “seriously disrupt the finality of the process.”

13

“Moreover, full and frank discussion on the jury room, jurors’ willingness to return an

14

unpopular verdict, and the community’s trust in a system that relies on the decisions of

15

laypeople would all be undermined by a barrage of post-verdict scrutiny of juror conduct.”

16

Id. 120-121. “While persistent inquiry into internal jury processes could “in some instances

17

lead to the invalidation of verdicts reached after irresponsible or improper juror behavior,”

18

our very system of trial by jury might not “survive such efforts to perfect it.” Id. 120.

It expressed concerns that allegations of juror

19

More recently, the Court rejected losing plaintiff’s attempts to introduce a juror

20

affidavit in an attempt to prove the foreperson lied during voir dire. Warger v. Shauers 135

21

S.Ct. 521 (2014). It stated, “Congress’ enactment of Rule 606(b) was premised on the

22

concern that the use of deliberation evidence to challenge verdict would represent a threat

23

to both jurors and finality in those circumstances not covered by the Rule’s express

24

exceptions.” Id. at 528.

25

In Pena-Rodriguez, the Court again reviewed Tanner and Warger in conjunction

26

with the history behind the no-impeachment rule found in Rule 606 Fed. R. Evid. It

27

reiterated that Rule 606 continued to have substantial merit. “It promotes full and vigorous

28

discussion by jurors with considerable assurance that after being discharged they will not be
-10-

App. F - 072

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 11 of 14

1

summoned to recount their deliberations, and they will not otherwise be harassed or annoyed

2

by litigants seeking to challenge the verdict. Additionally, it provides stability and finality

3

to the verdict.” Pena-Rodriguez, 137 S.Ct. at 865. “Once a jury has pronounced its

4

judgment, Rule 606(b) helps ensure jurors’ ability to ‘separate and melt anonymously in to

5

the community from which they came.’” United States v. Leung, 796 F.3d 1032, 1038 (9th

6

Cir. 2015) (internal citation omitted).

7

The Pena-Rodriguez Court, after a review of the no-impeachment rule and the

8

impact of racial prejudice in the administration justice carved out another exception to Rule

9

606(b). “[T]hat where a juror makes a clear statement that he or she relied on racial

10

stereotypes or animus to convict a criminal defendant, the Sixth Amendment requires that

11

the no-impeachment rule give way in order to permit the trial court to consider the evidence

12

of the juror’s statement and any denial of the jury trial guarantee.” Pena-Rodriguez, 137

13

S.Ct. at 869.

14

The defendant argues that the only way for him to determine whether racial bias

15

played any role in the jury deliberations is to interview the members of the jury. However,

16

the Court rejected the idea of open season on interviewing jurors. Rather, it left the

17

mechanics of acquiring such evidence to the “state rules of professional ethics and local

18

court rules both of which often limits counsel’s post-trial contact with jurors.” Pena-

19

Rodriguez, 137 S.Ct. at 869. “These limits seek to provide jurors some protection when

20

they return to their daily affairs after the verdict. But while a juror can always tell counsel

21

they do not wish to discuss the case, jurors in some instances may come forward of their

22

own accord.” Pena-Rodriguez, 137 S.Ct. at 869. The Sixth Circuit concluded that this

23

language allowed for the enforcement of local rules limiting juror contact. United States v.

24

Robinson, 872 F.3d 760, 770 (6th Cir. 2017). It upheld a district court’s dismissal of a

25

motion for new trial, in part, based on juror racial bias where the defense contacted jurors

26

in violation of its local rules. Id. 770.

27

The Court repeatedly emphasized in Pena-Rodriguez that it was the jurors who

28

came forward and that defense counsel followed the local court rules and obtained
-11-

App. F - 073

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 12 of 14

1

permission to seek the affidavit of the jurors. Pena-Rodriguez, 137 S.Ct. at 870. The

2

argument offered here of the need to interview jurors to determine whether there was racial

3

bias in the jury room was rejected in United States v. Reyes, 2018 WL 705302 (D. Vermont

4

2/01/2018 *3. The judge ruled that Pena-Rodriguez did not support mere speculation since

5

it was premised on jurors coming forward, which had not happened in Reyes. * 3

6

In this District, Ariz. R. Sup. Ct. 42, E. R. 3.5 (“E.R. 3.5”). Arizona Rule of

7

Professional Conduct Rule ER 3.5(a)(1) “”prohibits contact with jurors after they are

8

discharged if the communication is prohibited by law or court order. LRCiv 39.2(b)

9

prohibits such contact unless the court grants permission under a limited set of

10

circumstances. The Ninth Circuit disfavors post-verdict interrogation of jurors and has

11

consistently disallowed such interrogation for the purpose of discovering potential, but

12

unspecified, jury misconduct. Smith v. Cupp, 457 F.2d 1098, 1100 (9th Cir. 1972); N. Pac.

13

Ry. Co. v. Mely, 219 F.2d 199, 202 (9th Cir. 1954). At minimum, a party must make a

14

preliminary showing of misconduct to establish good cause to conduct juror interviews. See

15

United States v. Stacey, 475 F.2d 1119, 1121 & n. 1 (9th Cir. 1973); Smith, 457 F.2d at 1100.

16

The defense cites to no authority in which a court allowed a fishing expedition without some

17

type of preliminary showing of misconduct.

18

TRIAL SAFEGUARDS AGAINST RACIAL BIAS

19

The Tanner Court also outlined existing safeguards to protect an individual’s right

20

to an impartial and competent jury without the need to delve into juror testimony. It listed

21

voir dire as a means of probing impartiality, the ability of the court and counsel to observe

22

and learn of juror misconduct during the course of the trial, the opportunity of jurors to

23

observe each other and to report issues prior to the verdict and finally the use of non-juror

24

testimony after trial to impeach the verdict. Tanner, 483 U.S. at 127. The Supreme Court

25

again acknowledged those safeguards in Warger, 135 S.Ct. at 529 and Pena-Rodriguez, 137

26

S.Ct. at 871.

27

In the instant case, there were many such safeguards. More so than a usual trial.

28

First, each member of the venire panel answered a 22-page questionnaire with 77 questions,
-12-

App. F - 074

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 13 of 14

1

which they answered under the penalty of perjury. Question 40 inquired whether the

2

individual, close family members or friends were Native American. They were asked in

3

Question 41 whether they, close family member or friends ever lived or worked on an Indian

4

Reservation or had substantial work or personal contacts with a Reservation or its tribal

5

members. Question 42 sought out whether any contacts or relationships with Native

6

Americans would make it difficult for the potential juror to be fair and impartial in a case

7

where the defendant was alleged to be a Native American. Finally, in question 43, they

8

were asked whether there was any reason, such as personal experiences, or what they had

9

heard or read or visits to a Reservation, that they believed would make it difficult for them

10

to be a fair and impartial juror. Some potential jurors were struck based on their answers to

11

the questionnaires prior to the actual selection process. (RT 3/26/03 pp. 88-153.)

12

Over the course of approximately 16 days, the venire was interviewed in small

13

groups and then one by one by both the court and counsel. At the end of the penalty phase,

14

the jurors were instructed:

15
16
17
18
19
20
21
22
23
24
25
26
27
28

Finally – finally, in your consideration of whether the death sentence is
appropriate, you must not consider the race, color, religious beliefs, national
origin, or sex of either the defendant of the victims. You are not to return a
sentence of death unless you would return a sentence of death for the crime in
question without regard to race, color, religious beliefs, national origin or sex
of either the defendant or any victim.
To emphasize the importance of this consideration, Section VII of the
Special Verdict Forms contains a certification statement. Each juror should
carefully read the statement and sign your name in the appropriate place if the
statement accurately reflects the manner in which you reach your individual
decision.
(RT 5/16/2003 pp. 4103-04.)
Each of the jurors signed this document at the conclusion of their deliberations.
(RT 5/20/2003 pp. 4201, 4206.) (CR-01-01062, CR 325.)
Finally, as the court discharged the jury it advised them that they were free to talk
with anyone about the case including the lawyers, but that they were under no obligation to

-13-

App. F - 075

Case 3:09-cv-08089-DGC Document 76 Filed 05/21/18 Page 14 of 14

1

do so. (RT 5/23/2003 p. 4207.) No juror came forward at that time nor in the 15 years

2

since the verdict was rendered in this case to report racial bias. The Supreme Court found

3

that juror complaints about the racial bias of another juror are usually made quickly after

4

the verdict. Pena-Rodriguez, 137 S.Ct. at 870.

5

CONCLUSION

6

The law of the case that the original request to interview jurors was untimely, failed

7

to show good cause and that the Motion was not a cognizable claim under Section 2255

8

precludes reopening the Habeas Proceedings. Further, the Ninth Circuit’s affirmance of the

9

district court’s decision also bars the reopening.

10

Alternatively, the defendant’s Rule 60(b)(6) Motion is a disguised Section 2255

11

Petition which requires a Certificate Of Appealability to proceed. Further, Pena-Rodriguez

12

is not retroactive to this case nor does it support the defense contention that he is entitled to

13

interview the jurors without any showing of racial bias. Therefore, the defendant cannot

14

sustain his burden of demonstrating “extraordinary circumstances” to support the reopening

15

of a final judgement under Rule 60(b)(6). For these reasons, the Motion should be denied.

16

Respectfully submitted this 21st day of May, 2018.

17
18

ELIZABETH A. STRANGE
Acting United States Attorney

19
20
21

s/ Vincent Q. Kirby
VINCENT Q. KIRBY
Assistant United States Attorney

22
23
24
25
26
27
28
-14-

App. F - 076

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 1 of 11

1
2
3
4
5
6
7
8

HILARY POTASHNER (Bar No. 167060)
Federal Public Defender
JONATHAN C. AMINOFF (No. 259290)
(E-Mail: Jonathan_Aminoff@fd.org)
CELESTE BACCHI (No. 307119)
(E-Mail: Celeste_Bacchi@fd.org)
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-5374
Facsimile: (213) 894-0310
Attorneys for Defendant/Movant
LEZMOND CHARLES MITCHELL

9

THE UNITED STATES DISTRICT COURT

10

FOR THE DISTRICT OF ARIZONA

11
12
13

Lezmond Charles Mitchell,

Civil No. 3:09-CV-08089
(Criminal No. 3:01-CR-01062-NVW-1)

14

Defendant/Movant,

DEATH PENALTY CASE

15

v.

Honorable Neil V. Wake
United States District Judge

16

United States of America,

18

NOTICE OF MOTION AND MOTION
FOR RELIEF FROM JUDGMENT
PURSUANT TO FEDERAL RULE OF
CIVIL PROCEDURE RULE 60(b)(6)

19

Oral Argument Requested

17

Plaintiff/Respondent.

20
21
22
23
24
25
26
27
28

App. G - 077

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 2 of 11

1
2
3
4
5
6

THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9
10
11
12
13

Lezmond Charles Mitchell
Defendant/Movant,
v.
United States of America,
Plaintiff/Respondent.

Civil No. 3:09-CV-08089
(Criminal No. 3:01-CR-01062-NVW-1)
DEATH PENALTY CASE
Honorable Neil V. Wake
United States District Judge

15

NOTICE OF MOTION AND MOTION
FOR RELIEF FROM JUDGMENT
PURSUANT TO FEDERAL RULE OF
CIVIL PROCEDURE RULE 60(b)(6)

16

Oral Argument Requested

14

17
18
19
20

Movant Lezmond Mitchell moves pursuant to Federal Rule of Civil Procedure,
Rule 60(b)(6) for relief from the judgment of this Court due to the extraordinary
circumstances of this case. This motion is based on the attached memorandum of
points and authorities and all the files and records of this case.

21
22

Respectfully submitted,

23
24
25
26

Dated: March 5, 2018

/s/ Jonathan C. Aminoff
JONATHAN C. AMINOFF
CELESTE BACCHI
Deputy Federal Public Defenders

27
28
2

App. G - 078

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 3 of 11

1

MEMORANDUM OF POINTS AND AUTHORITIES

2

I. INTRODUCTION

3

In this death-penalty case, appointed post-conviction counsel for Lezmond

4

Mitchell sought to conduct a reasonable investigation in support of Mitchell’s post-

5

judgment motion to vacate his conditions and sentences. Part of that investigation

6

should have included interviewing the jurors from Mitchell’s trial, but Mitchell’s

7

counsel was barred from speaking with the jurors. The Supreme Court subsequently

8

issued Peña-Rodriguez v. Colorado, 137 S. Ct. 855 (2017), which casts doubt on this

9

Court’s prior ruling and warrants re-opening this case to allow Mitchell to brief his

10
11
12

right to access the jurors from his trial.
II. BACKGROUND
This Court sentenced Lezmond Mitchell to death on September 15, 2003. United

13

States v. Mitchell, CR-01-1062, Dkt. No. 425. The Ninth Circuit affirmed Mitchell’s

14

convictions and sentences, United States v. Mitchell, 502 F.3d 931 (9th Cir. 2007), and

15

the Supreme Court denied certiorari. Mitchell v. United States, 553 U.S. 1094 (2008).

16

On June 8, 2009, Mitchell moved to vacate his convictions and sentences in this

17

Court, pursuant to 28 U.S.C. Section 2255, Mitchell v. United States, CV-09-8089, Dkt.

18

No. 9. Before filing his Section 2255 motion, however, Mitchell moved for

19

authorization to interview the jurors from his capital trial. Id. at Dkt. No. 1. Leave of

20

court was required pursuant to a District of Arizona rule that prohibits attorneys from

21

contacting jurors after trial unless they submit written interrogatories to the district

22

court “within the time granted for a motion for a new trial” and show “good cause” for

23

the interview. D. Ariz. Loc. Civ. R. 39.2(b); D. Ariz. Loc. Crim. R. 24.2. The

24

government opposed the motion. Dkt. No. 18.

25
26

This Court denied Mitchell’s request to interview the trial jurors on two grounds.
First, it indicated that Mitchell had not followed the local rule’s procedures regarding

27
28
1

App. G - 079

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 4 of 11

1

submitting proposed interrogatories and an affidavit,1 and filing within the time granted

2

for a motion for a new trial. Dkt. No. 31. Alternatively, the district court concluded

3

that Mitchell had not shown “good cause” for contacting the jurors. Id. Mitchell then

4

amended his Section 2255 motion to include a claim that this Court violated his

5

constitutional rights by denying him access to the jurors. Dkt. No. 30 at 173.

6

This Court subsequently denied Mitchell’s Section 2255 motion without holding

7

an evidentiary hearing. Dkt. No. 56. Mitchell appealed on several grounds, including

8

the denial of his motion to interview jurors. The Ninth Circuit’s opinion affirming the

9

denial of his Section 2255 motion does not address the juror interviews. Mitchell v.

10

United States, 790 F.3d 881 (9th Cir. 2015). The Supreme Court denied certiorari.

11

Mitchell v. United States, 137 S. Ct. 38 (2016).

12

In its recent decision in Peña-Rodriguez v. Colorado, 137 S. Ct 855 (2017), the

13

Supreme Court established that Mitchell was erroneously denied the opportunity to

14

interview the jurors in his case. This error prevented Mitchell from presenting a fully

15

investigated Section 2255 motion to this Court, and prevented the Court from

16

conducting a full merits determination resulting in a “defect in the integrity of [his]

17

federal habeas proceeding.” Gonzalez v. Crosby, 545 U.S. 524, 532 (2005). Mitchell

18

moves to re-open the Section 2255 litigation to correct the defects in the integrity of the

19

post-conviction proceedings that deprived him of a resolution of his claims on their

20

merits.

21
22
23

III.

ARGUMENT

The central concern of Federal Rule of Civil Procedure 60(b)(6) is that justice is
done. Klapprott v. United States, 335 U.S. 601, 615 (1949). Accordingly, Rule

24
25
26
27
28

1

Mitchell submits that Local Rule 39.2 is unduly burdensome and should not
impact Mitchell’s ability to conduct a reasonable investigation including informal
interviews with jurors. If, however, the Court grants this motion but insists on
Mitchell’s compliance with Local Rule 39.2, Mitchell will submit interrogatories as
directed by the Court.
2

App. G - 080

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 5 of 11

1

60(b)(6) “vests power in courts . . . to enable them to vacate judgments whenever such

2

action is appropriate to accomplish justice.” Id. at 615. Pursuant to Rule 60(b)(6), a

3

party can seek relief “from a final judgment, order, or proceeding” and request

4

reopening of his case, for “any other reason that justifies relief.” Fed. R. Civ. P.

5

60(b)(6). Rule 60(b)(6) “reflects and confirms the courts’ own inherent and

6

discretionary power, ‘firmly established in English practice long before the foundation

7

of our Republic,’ to set aside a judgment whose enforcement would work inequity.”

8

Plaut v. Spendthrift Farm, Inc., 514 U.S. 211, 233-34 (1995) (quoting Hazel-Atlas

9

Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 244 (1944).

10

The Circuit Courts have long identified Rule 60(b)(6) as “a grand reservoir of

11

equitable power,” Phelps v. Alameida, 569 F.3d 1120, 1133 (9th Cir. 2009) (quoting

12

Harrell v. DCS Equip. Leasing Corp., 951 F.2d 1453, 1458 (5th Cir. 1992)), that

13

affords courts the discretion and power “to vacate judgments whenever such action is

14

appropriate to accomplish justice.” Gonzalez, 545 U.S. at 542, (quoting Liljeberg v.

15

Health Servs. Acquisition Corp., 486 U.S. 847, 864 (1988)). A court’s ability to grant

16

relief under Rule 60(b), is constrained only by the requirements that a petitioner

17

“demonstrate both the motion’s timeliness and … that ‘extraordinary circumstances

18

justif[y] the reopening of a final judgment.’” Christeson v. Roper, 135 S. Ct. 891, 895-

19

96 (2015) (quoting Gonzalez, 545 U.S. at 535).

20

Rule 60(b), “like the rest of the Rules of Civil Procedure, applies in habeas

21

corpus proceedings” and “has an unquestionably valid role to play in habeas cases.”

22

Gonzalez, 545 U.S. at 534. District courts have jurisdiction to consider Rule 60(b)

23

motions in habeas proceedings when such motions “attack[ ] not the substance of the

24

federal court’s resolution of a claim on the merits, but some defect in the integrity of

25

the federal habeas proceeding.” Gonzalez, 545 U.S. at 532. Thus, a district court can

26

consider a Rule 60(b) motion when a petitioner “asserts that a previous ruling which

27

precluded a merits determination was in error — for example, a denial for such reasons

28

as failure to exhaust, procedural default or statute-of-limitations bar.” Id. at 532 n.4.
3

App. G - 081

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 6 of 11

1

Rule 60(b) is particularly important where federal review of the merits of a

2

petitioner’s claims has been limited. Phelps v. Alameida, 569 F.3d 1120, 1140 (9th Cir.

3

2009) (“a central purpose of Rule 60(b) is to correct erroneous legal judgments that, if

4

left uncorrected, would prevent the true merits of a petitioner’s constitutional claims

5

from ever being heard.”).

6

A.

The Lack of Due Process Afforded to Mitchell Constitutes an

7

Extraordinary Circumstance Justifying Relief

8

Post-conviction counsel in a capital case is duty-bound to conduct “an aggressive

9

investigation of all aspects of the case.” American Bar Association (“ABA”) 2003

10

Death Penalty Guidelines 10.15.1(E)(4). The commentary to the ABA Death Penalty

11

Guidelines explains that post-conviction counsel must conduct a “thorough,

12

independent investigation” of, inter alia, juror misconduct, because “the trial record is

13

unlikely to provide either a complete or accurate picture of the facts and issues in the

14

case.” 31 Hofstra L. Rev. 913, 1085-86 (2003).

15

In the course of litigating his Section 2255 motion, Mitchell was denied the

16

ability to conduct the type of investigation mandated by the ABA. Intervening

17

Supreme Court caselaw reaffirms that this denial, which precluded a full and fair merits

18

determination, was erroneous.

19

The Supreme Court’s recent decision in Peña-Rodriguez v. Colorado, 137 S. Ct.

20

855 (2017), supports Mitchell’s case for interviewing the jurors and demonstrates the

21

error of this Court’s decision. In that case, Peña-Rodriguez’s counsel was permitted to

22

speak with the jurors, and two jurors informed counsel that another juror had expressed

23

anti-Hispanic bias toward the defendant and his alibi witnesses. Id. at 861. Defense

24

counsel ultimately submitted signed affidavits from those jurors, which memorialized

25

the racist comments made by another juror. Id. at 862. Despite this evidence of juror

26

misconduct, the trial court denied the defense motion for a new trial, finding that the

27

affidavits were not admissible to impeach the verdict under Colorado’s equivalent to

28

Federal Rule of Evidence 606(b), which renders inadmissible virtually any post-verdict
4

App. G - 082

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 7 of 11

1

juror statement concerning the contents of the jury’s deliberations. Id. at 862. The

2

Colorado Supreme Court affirmed, and the Supreme Court granted certiorari to decide

3

if racial bias should be an exception to the general, firmly rooted provisions behind

4

Rule 606(b). Id. at 862-63. The Supreme Court reversed, finding that the Sixth

5

Amendment requires that the no-impeachment rule give way in order to permit a trial

6

court to consider evidence that a juror relied on racial stereotypes or animus to convict

7

a criminal defendant. Id. at 869. The Court reasoned that racial bias is such a stain on

8

American history and notions of fair justice, and such a clear denial of the jury trial

9

guarantee, that general evidence rules must be modified to root out racism in the

10
11

criminal justice system. Id. at 871.
It is uncontroverted that the death penalty has a long history of racial injustice.

12

Indeed, just last term the Supreme Court reversed a Texas capital conviction in which a

13

man’s death sentence may have been based on his race. Buck v. Davis, 137 S. Ct. 759

14

(2017). The United States government has a particularly shameful history of

15

oppressing the Native American people. See, e.g., Mesclaero Apache Tribe v. Jones,

16

411 U.S. 145, 152 (1973) (“The intent and purpose of the Reorganization Act was ‘to

17

rehabilitate the Indian’s economic life and to give him a chance to develop the initiative

18

destroyed by a century of oppression and paternalism.’”) (quoting H.R.Rep.No.1804,

19

73d Cong., 2d Sess., 6 (1934)). Indeed, in this case, the government arbitrarily pursued

20

a death sentence pursuant to “an aggressive expansion of the federal death penalty”

21

despite strong opposition from the Navajo Nation, the victims’ family, and the local

22

United States Attorney’s Office. Mitchell, 790 F.3d at 894-897 (Reinhardt, J.,

23

dissenting). Mitchell was then tried before a jury that consisted of only one Native

24

American. The jury was picked from a 207-person venire which included 29 Native

25

Americans. Of those 29 people, four were excluded based on their use of Navajo as

26

their first language, RT 38, 119, 601-602, 1174, and eight more were excluded due to

27

their Navajo beliefs in opposition to the death penalty. RT 198-99, 336, 988, 1262-63,

28

1424, 1684, 2256. In fact, when the government attempted to exclude the lone
5

App. G - 083

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 8 of 11

1

surviving Native American juror, the Court sustained Mitchell’s Batson2 objection and

2

denied the government’s strike. RT 2506, 2509-13. The government was, however,

3

successful in removing the only African American juror on the venire. RT 2514-16.

4

Given the severity of Mitchell’s sentence, and the racial undertones of this capital

5

prosecution, Mitchell should be permitted to conduct an investigation no more intrusive

6

than necessary to determine what role, if any, racial bias played in his convictions and

7

sentences.

8
9

The Supreme Court noted in Peña-Rodriguez that the “practical mechanics of
acquiring and presenting [evidence of juror bias] will no doubt be shaped and guided by

10

state rules of professional ethics and local court rules, both of which often limit

11

counsel’s post-trial contact with jurors.” Id. at 869. In Arizona, however, Local Rule

12

39.2 goes far beyond limiting counsel’s contacting with jurors. Rather, it prevents any

13

contact between the parties and a juror absent permission of the Court on a showing of

14

good cause. Indeed, of the fifteen district courts in the Ninth Circuit, only two — the

15

District of Arizona and the District of Montana — require a “good cause” showing. D.

16

Ariz. Loc. Civ. R. 39.2(b); D. Ariz. Loc. Crim. R. 24.2; D. Mont. Loc. Civ. R. 48.1(b);

17

D. Mont. Loc. Crim. R. 24.2(b). Five other district courts require leave of court

18

without a “good cause” showing. D. Alaska Loc. Civ. R. 83.1(h); D. Or. Loc. R. 48-2;

19

E.D. Wash. Loc. R. 47.1(d); W.D. Wash. Loc. R. 47(d). Eight district courts in the

20

Ninth Circuit impose no post-trial restrictions on juror contacts whatsoever.

21

Moreover, Local Rule 39.2 does not apply to habeas petitioners attacking state

22

convictions and sentences in federal district courts in Arizona. Ellison v. Ryan, 2017

23

WL 1491608 (D. Ariz. April 26, 2017) at *2-3; Cota v. Ryan, 2017 WL 713640 (D.

24

Ariz. February 23, 2017) at *2; Harrod v. Ryan, 2016 WL 6082109 (D. Ariz. October

25

18, 2016) at *3. As a practical matter, this means that all 116 inmates on death row in

26
27
28

2

Batson v. Kentucky, 476 U.S. 79 (1986).
6

App. G - 084

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 9 of 11

1

Arizona3 are free to conduct a reasonable investigation by informally interviewing their

2

jurors and presenting the fruits of that investigation in support of their federal habeas

3

petitions to federal district courts in Arizona. But Mitchell, solely by virtue of the fact

4

that he was prosecuted federally, is barred from conducting that same reasonable

5

investigation. Thus Mitchell is left with no mechanism, practical or otherwise, for

6

investigating the type of misconduct at issue in Peña-Rodriguez.

7

Ultimately, the Peña-Rodriguez case emphasizes that the specter of racial bias is

8

an issue so repulsive that exceptions should be made to general rules to ensure that

9

racism has not influenced criminal convictions or sentences. The Supreme Court has

10

also emphasized the importance of investigation in the post-conviction context. See,

11

e.g., Martinez v. Ryan, 566 U.S. 1, 13 (2012) (explaining that post-conviction

12

ineffective assistance of counsel claims can require extensive investigation such that an

13

inmate’s ability to file such a claim is significantly diminished absent the assistance of

14

post-conviction counsel). On balance, Peña-Rodriguez establishes that criminal

15

defendants must be allowed to pursue racial bias issues, and whether this Court sets

16

aside Local Rule 39.2’s good cause requirement, or finds that investigating racial bias

17

satisfies the good cause requirement, Mitchell must be afforded the right to investigate.

18

Mitchell’s inability to adequately investigate his case prevented a full and fair merits

19

determination, which warrants re-opening the proceedings under Rule 60(b) and

20

permitting Mitchell to move the Court for an order granting Mitchell access to the

21

jurors from his trial.

22

B.

23

This Motion is Timely
Mitchell has diligently pursued his rights. He timely appealed his convictions

24

and sentences in this Court and timely filed his Section 2255 motion and related

25

appeals.

26
27
28

3

https://corrections.az.gov/public-resources/death-row
7

App. G - 085

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 10 of 11

1

Mitchell has filed this motion under Federal Rule of Civil Procedure, Rule

2

60(b)(6). A motion brought pursuant to Rule 60(b)(6) must be filed within a reasonable

3

time to be considered timely. Rule 60(c)(1). “What constitutes “reasonable time”

4

depends upon the facts of each case, taking into consideration the interest in finality,

5

the reason for delay, the practical ability of the litigant to learn earlier of the grounds

6

relied upon, and prejudice to other parties.” Ashford v. Steuart, 657 F.2d 1053, 1055

7

(9th Cir. 1981) (per curiam).

8

The interest in finality has been minimized by the Supreme Court in the context

9

of a Rule 60(b) motion because the purpose of Rule 60(b) is to create an exception to

10

finality. Gonzalez, 545 U.S. at 520 (“[Finality], standing alone, is unpersuasive in the

11

interpretation of a provision whose whole purpose is to make an exception to

12

finality.”). Setting aside the first factor, Mitchell has good reason for any delay, as this

13

motion is based on the Supreme Court’s recent decision in Peña-Rodriguez, which was

14

issued less than a year from the date of filing this motion. The third factor also weighs

15

in Mitchell’s favor because he obviously could not have known how this decision

16

would impact his case before the Supreme Court issued its opinion. Indeed, the circuit

17

courts have legitimized waiting for subsequent decisions to be issued before filing a

18

Rule 60(b) motion. Clarke v. Burke, 570 F.2d 824, 831-32 (8th Cir. 1978) (where the

19

“movants acted reasonably in waiting for the district court’s decision in a later, but

20

related, case before filing the Rule 60(b) motion because it was the unfavorable ruling

21

in the later case that precipitated the need for the Rule 60(b) motion.”). Finally, the

22

government will not suffer prejudice if the Court grants this motion. While the

23

Supreme Court opinion upon which this motion is based is new, the underlying issue

24

has been previously argued in this case. As a result, the government should be familiar

25

with these issues and not prejudiced by the timing of this motion.

26

The primary concern for timeliness is avoiding a scenario where the movant has

27

allowed “the normal appeals channels [to] lapse” or “ignored normal legal recourses”

28

and now seeks a “second bite at the apple.” In re Pacific Far East Lines, Inc., 889 F.2d
8

App. G - 086

Case 3:09-cv-08089-MHM Document 71 Filed 03/05/18 Page 11 of 11

1

242 (9th Cir. 1989). That is not the situation here. Mitchell timely moved to interview

2

the jurors in his case. When the Court denied his request, he raised the issue in his

3

Amended 2255 Motion. Mitchell v. United States, Case No. 09-CV-8089, Dkt. No. 30,

4

Claim K at 173. When his 2255 Motion was denied, Mitchell raised the issue on

5

appeal. Mitchell v. United States, Ninth Circuit Case No. 11-99003, Dkt. Entry 23 at

6

78.

7

In Buck v Davis, the Supreme Court overturned the Fifth Circuit’s denial of a

8

COA and found that Buck had demonstrated entitlement to relief under Rule 60(b)(6).

9

137 S. Ct. 759 (2017). The Supreme Court reached this decision notwithstanding that

10

Buck’s motion primarily relied on the Supreme Court’s decisions in Martinez v. Ryan,

11

566 U.S. 1 (2012), and Trevino v. Thaler, 569 U.S. 413 (2013), but was filed almost

12

two years after Martinez was decided and 8 months after Trevino was decided. Id. at

13

767, 771. Mitchell’s motion is being filed less than one year after Peña-Rodriguez was

14

decided. Buck establishes that Mitchell has filed his motion within a reasonable time.

15
16
17

IV. CONCLUSION
For all of the foregoing reasons, Mitchell respectfully requests that the Court
grant this motion, re-open this case, and allow Mitchell to move for access to the jurors.

18
19

Respectfully submitted,

20
21
22
23
24

Dated: March 5, 2018

/s/ Jonathan C. Aminoff
JONATHAN C. AMINOFF
CELESTE BACCHI
Deputy Federal Public Defenders

25
26
27
28
9

App. G - 087

Case 3:09-cv-08089-MHM Document 71-1 Filed 03/05/18 Page 1 of 1

1
2
3
4
5
6
7
8
9

THE STATES DISTRICT COURT

10

FOR THE DISTRICT OF ARIZONA

11
12

Lezmond Charles Mitchell,

13

Defendant/Movant,

14

v.

15
16
17
18

United States of America,
Plaintiff/Respondent.

Civil No. 3:09-CV-08089
(Criminal No. 3:01-CR-01062-NWVW-1)
DEATH PENALTY CASE
Honorable Neil V. Wake
United States District Judge
[PROPOSED ORDER] GRANTING
NOTICE OF MOTION AND MOTION
FOR RELIEF FROM JUDGMENT
PURSUANT TO FEDERAL RULE OF
CIVIL PROCEDURE RULE 60(b)(6)

19
20

Upon the motion of Movant Lezmond Charles Mitchell,

21

IT IS HEREBY ORDERED that Mitchell’s motion for relief from judgment

22

pursuant to Federal Rule of Civil Procedure, Rule 60(b) is granted.

23
24
25
26
27
28

App. G - 088

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 1 of 18

SEAN K. KENNEDY ( 145632)
(Sean_Kennedy@fd.org)
Federal Public Defender
STATIA PEAKHEART (200363)
Deputy Federal Public Defender
(Statia_ Peakheart@fd.org)
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone (213) 894-2854
Facsimile (213) 894-0081
Attome_ys for Defendant-Movant
LEZMOND CHARLES MITCHELL
UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
LEZMOND CHARLES MITCHELL,
Movant,

CAPITAL CASE
28 u.s.c. § 2255

Case No. - - - -

V.

(Trial Case No. CR-01-1062-MHM)
UNITED STATES OF AMERICA,
Respondent.

ORAL ARGUMENT REQUESTED

MOTION FOR AUTHORIZATION TO INTERVIEW JURORS
IN SUPPORT OF MOTION TO VACATE, SET ASIDE,
OR CORRECT THE SENTENCE

Petitioner, Lezmond Charles Mitchell, through undersigned counsel,
respectfully moves the Court to permit his federal habeas counsel, or their
representatives, to contact and interview the jurors in his case. Such an
opportunity is essential to secure rights guaranteed to Mr. Mitchell by 28 U.S.C.
§ 2255, 18 U.S.C. § 3599, and the Fifth, Sixth, and Eighth Amendments to the
United States Constitution.

1

App H - 089

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 2 of 18

A.

Introduction
Petitioner Lezmond Mitchell hereby moves the Court for authorization to

conduct a complete investigation that includes ascertaining whether any member
of the jury panel engaged in ex parte contacts, considered extrajudicial evidence,
allowed bias or prejudice to cloud their judgment, or intentionally concealed or
failed to disclose material information relating to their qualifications to serve as
jurors in Mr. Mitchell's case. In pursuing this investigation, federal
postconviction counsel cannot be foreclosed from interviewing the witnesses who
would be the most reliable source of evidence on these claims - the jurors
themselves. See McC/eskey v. Zant, 499 U.S. 467,498 (1991) (imposes on all
post-conviction applicants the obligation to "conduct a reasonable and diligent
investigation aimed at including all relevant claims and grounds for relief in the
first federal habeas petition." ).

B.

Procedural History
On September 15, 2003, following a jury trial and penalty phase proceeding,

Hon. Mary H. Murguia, United States District Judge for the District of Arizona,
sentenced Lezmond Mitchell to death. Mr. Mitchell's direct appeal to the United
States Court of Appeals for the Ninth Circuit was not successful, United States v.

Mitchell, 502 F.3d 931 (9th Cir. 2007), and the United States Supreme Court
denied the petition for writ of certiorari on June 9, 2008, Mitchell v. United States,
128 S.Ct. 2902. Mr. Mitchell is in custody on federal death row in Terre Haute,
Indiana.
Section 2255 of Title 28 of the United States Code sets forth a one-year
period of limitations for filing a motion to vacate, set aside or correct the sentence.
Thus, Mr. Mitchell must file his motion no later than June 9, 2009. In the course
2

App H - 090

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 3 of 18

of preparing the§ 2255 motion, Mr. Mitchell's federal habeas counsel consider it
necessary to interview the jurors who deliberated and decided Mr. Mitchell's
capital case. Counsel for Mr. Mitchell hereby move this Court for leave to
conduct a full and complete investigation in preparation for Mr. Mitchell's
forthcoming motion to vacate, set aside or correct the sentence.
Rule 24.2 of the Local Rules of Criminal Procedure for the District of
Arizona makes applicable Civil Rule 39.2 to criminal matters concerning
communication with trial jurors. The rule requires the movant to request leave of
the Court to interview the jurors post-trial. L.Civ.R. 39.2(b). Approval for the
interview should be granted "upon the showing of good cause." Id.

C.

Factual Background
An investigation into potential jury misconduct - no different than an

investigation into possible instances of ineffective assistance of counsel or
prosecutorial suppression of material evidence - is a standard and essential aspect
of any minimally competent federal capital postconviction § 2255 investigation.
In this case, no reasonably competent postconviction counsel would fail to
question the jurors.
Petitioner's counsel does not seek discovery, but only permission to conduct
his investigation. The identities of the jurors are not secret. Their names are
publicly available in the district court record. Other identifying information and
(dated) contact information are available to counsel in non-public parts of the
record. Federal habeas counsel do not request disclosure of any information. This
motion seeks only permission for federal habeas counsel to contact these jurors.

3

App H - 091

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 4 of 18

D.

ARGUMENT

t.

Petitioner's Counsel Must Conduct a Reasonable
Investigation Including Allegations of Possible Jury Bias,
Taint, or Misconduct

A federal postconviction applicant "must assert all possible violations of his
constitutional rights in his initial application or run the risk of losing what might
be a viable claim." See, e.g., Brown v. Vasquez, 952 F.2d 1164, 1167 (9th Cir.
1992). The Supreme Court has made clear that counsel for a postconviction
applicant "must conduct a reasonable and diligent investigation aimed at including
all relevant claims and grounds for relief in the first federal habeas petition."

McC/eskey v. Zant, 499 U.S. 467,498 (1991). The Ninth Circuit has characterized
this as "a substantial burden." Brown, 952 F.2d at 1167. As the Supreme Court
explained,
If what petitioner knows or could discover upon reasonable
investigation supports a claim for relief in a federal habeas petition,
what he does not know is irrelevant. Omission of the claim will not
be excused merely because evidence discovered later might also have
supported or strengthened the claim.

McC/eskey, 499 U.S. at 498.
The United States Constitution guarantees the defendant a trial by impartial
jurors who are not exposed to extraneous information or influence or motivated by
bias. See Williams v. Taylor, 529 U.S. 420 (2000); Remmer v. United States, 350
U.S. 377 (1956); Remmer v. United States, 347 U.S. 227 (1954). It has long been
recognized that jurors' exposure to extrajudicial evidence or their participation in

ex parte contacts regarding the substance of the trial can undermine the fairness of

4

App H - 092

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 5 of 18

the proceeding and entitle a defendant to a new trial. 1 The Supreme Court has
affirmed that "an attempt to investigate [a] petitioner's jury" constitutes "diligent
... efforts to develop the facts" supporting potential claims. Williams v. Taylor,
529 U.S. 420, 442-43 (2000).
The American Bar Association's Guidelines for the Appointment and
Performance of Defense Counsel in Death Penalty Cases reinforce the necessity of
federal postconviction counsel's proposed investigation. Wiggins v. Smith, 539
U.S. 510,524,534 (2003) (Supreme Court has "long[ ...] referred" to the
American Bar Association's standards as "guides to determining what is
reasonable" in the representation of capital defendants), citing Strickland v.

Washington, 466 U.S. 668,688 (1984), and Williams v. Taylor, 529 U.S. 362,396
(2000)). Those Guidelines make clear that:
Post-conviction counsel should seek to litigate all issues,
whether or not previously presented, that are arguably meritorious
under the standards applicable to high quality capital defense

1

Mattox v. United States, 146 U.S. 140 (1892) Gurors' exposure to media
article in jury room recounting facts relating to prior trial and public anticipation
of quick guilty verdicts is prejudicial error warranting relief); Remmer v. United
States, 347 U.S. 227 (1954) (attempted bribery of juror warrants relief); Parker v.
Gladden, 385 U.S. 363 (1966) (bailiffs comments to jurors regarding strength of
evidence requires relief); Gibson v. Clanon, 633 F .2d 851 (9th Cir. 1980) Guror's
library research held prejudicial); United States v. Tebha, 770 F.2d 1454 (9th Cir.
1985) (receipt of exhibit not introduced in evidence was prejudicial); Marino v.
Vasquez, 812 F.2d 499 (9th Cir. 1987) (dictionary research and experiment
required habeas relief); Dickson v. Sullivan, 849 F .2d 403 (9th Cir. 1988)
(improper comments by bailiff to jurors compelled habeas relief); United States v.
Maree, 934 F .2d 196 (9th Cir. 1991) Guror' s ex parte conversation with friend
regarding deliberations was prejudicial error); Dyer v. Calderon, 151 F.3d 970
(9th Cir. 1998) (concealment of material evidence during voir dire required habeas
relief).

5

App H - 093

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 6 of 18

representation, including challenges to any overly restrictive
procedural rules. Counsel should make every professionally
appropriate effort to pre~ent issues in a manner that will preserve
them for subsequent review.
ABA Guidelines for the Appointment and Performance of Defense Counsel in
Death Penalty Cases, Guideline 10.15.1 (Duties of Post-conviction Counsel) ,r C,
reprinted in The Guiding Hand of Counsel, 31 HOFSTRA L. REV. 913, 1079
(2003). 2
The commentary explains:

rC]ollateral counsel cannot rely on the previously compiled
record but must conduct a thorou~h, mdependent investigation in
accordance with Guideline 10.7. Subsection E(4)). As demonstrated
by the high percentage of reversa s and disturbinglY. large number of
innocent persons sentenced to death, the trial recora is unlikely to
JJrovide either a complete or accurate picture of the facts and issues in
the case.
Id., Guideline 10.15.1, ,r C (31 HOFSTRA L. REV. at 1085-86).3
2

These obligations were not new to the 2003 Guidelines, but a restatement
of principles contained in the earlier 1989 Guidelines:
B.
. .. Counsel should consider conducting a full investigation of
the case, relating to both the guilt/innocence and sentencing phases ....
Postconviction counsel should obtain and review a complete record of all
court proceedings relevant to the case. With the consent of the client,
postconviction counsel should obtain and review all prior counsel's file(s).
C.
Postconviction counsel should seek to present to the
appropriate court or courts all arguably meritorious issues, including
challenges to overly restrictive rules governing postconviction proceedings.
ABA Guidelines for the Appointment and Performance of Counsel In Death
Penalty Cases, Guideline 11.9.3 (Duties of Postconviction Counsel) (1989).
The extent of the burden on federal habeas counsel has, of course, increased
as a result of the Supreme Court's 1991 McC/eskey decision.
3

[I]t is of critical importance that counsel on direct appeal proceed,
like all post-conviction counsel, in a manner that maximizes the
client's ultimate chances of success. 'Winnowing' issues in a capital
6

App H - 094

case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 7 of 18

"Collateral counsel should assume that any meritorious issue not contained
in the initial application will be waived or procedurally defaulted in subsequent
litigation, or barred by strict rules governing subsequent applications." Id. (31
HOFSTRA L. REV. at 1086). 4
As the Supreme Court recognized in Williams, claims of possible jury
misconduct are often capable of being discovered upon a reasonable and diligent
investigation. Williams, 529 U.S. at 442-43. In fact, in Worstzeck v. Stewart, 118

F.3d 648, 653 (9th Cir. 1997), the inmate-petitioner was barred from filing a
successive request for postconviction relief alleging juror impropriety because he
had not previously interviewed jurors and could not show that he could not have
uncovered this evidence through previous exercise of due diligence. The
commentators to the ABA Guidelines recognize that juror misconduct is among
the grounds that can give rise to relief and therefore must be thoroughly
investigated. Guideline 10.15.1 (31 HOFSTRA L. REV. at 1086). But Petitioner's

appeal can have fatal consequences. Issues abandoned by counsel in
one case, pursued by different counsel in another case and ultimately
successful, cannot necessarily be reclaimed later. When a client will
be killed if the case is lost, counsel should not let any possible ground
for relief go unexplored or unexploited.
Commentary to Guideline 10.15.1 (31 Hofstra L. Rev. at 1083 (footnotes
omitted)).
4

It is premature to ask whether the investigation will uncover facts
revealing meritorious, cognizable claims. "Until previously unpresented issues are
fully explored, there is no way to determine whether or not any arguably
applicable forfeiture doctrines may be overcome." Commentary to Guideline
10.15.1 (31 HOFSTRA L. REV. at 1086 n.350).

7

App H - 095

case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 8 of 18

attorneys cannot conduct that investigation unless this court grants them the ability
to contact the jurors.
The obligation placed on federal habeas counsel by the United States
Supreme Court, the Ninth Circuit, and the American Bar Association to conduct a
thorough investigation and to assert all possible constitutional violations in the
habeas petition constitutes a showing of good cause sufficient to satisfy Rule 39.2.

2.

This Court Should Allow Federal Postconviction Counsel to
Conduct the Required Investigation
In his direct appeal to the Ninth Circuit, Lezmond Mitchell argued that

prosecutorial misconduct in the form of improper statements made as a part of its
closing argument deprived Mitchell of a fair trial. The Ninth Circuit agreed with

Mr. Mitchell that the comments were indeed improper, however the Ninth Circuit
denied relief stating that the burden is on Mitchell "to show that the misconduct
tainted the verdict." United States v. Mitchell, 502 F.3d 931, 996 (9th Cir. 2007).
The Ninth Circuit ruled that Mr. Mitchell had failed to meet his burden, and thus
ruled that the government's misconduct did not affect Mitchell's substantial rights.
Id.
Here, Mr. Mitchell seeks the opportunity to meet his burden. The only
objective measure to determine whether Mitchell's rights were impacted is by
actually interviewing the jurors on this issue. Frequently, however, when a
petitioner requests post-verdict contact with jurors, courts hesitate to grant such
contact based upon Federal Rule of Evidence 606(b). See, e.g., United States v.
Rice, 446 F.2d 1390 (9th Cir. 1971).

Federal Rule of Evidence 606(b) states:
Upon an inquiry into the validity of a verdict or indictment, a juror
may not testify as to any matter or statement occurring during the
8

App H - 096

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 9 of 18

course of the jury's deliberations or to the effect of anything upon
that or any other juror's mind or emotions as influencmg the juror to
assent to or dissent from the verdict or indictment or concernmg the
juror's mental _processes in connection therewith. But a juror may
testify about (I) whether extraneous prejudicial information was
improperly brought to the jury's attention, (2) whether any outside
influence was improperly brought to bear upon any juror, or (3)
whether there was a mistake in entering the verdict on to the verdict
form.
The Ninth Circuit has specifically stated that the "rule of juror incompetency [Rule
606(b)] cannot be applied in such an unfair manner as to deny due process."

United States v. Henley, 238 F.3d 1111 (9th Cir. 2001). In the present case, Mr.
Mitchell would indeed be denied due process if the Court insisted he meet a
burden of proof, but denied him access to the only direct evidence to meet that
burden.
In Rushen v. Spain, 464 U.S. 114 (1983), the United States Supreme Court
clarified that a "juror may testify concerning any mental bias in matters unrelated
to the specific issues that the juror was called upon to decide .... " Rushen v.

Spain, 464 U.S. 114, 121 n.5 (1983) (citing Fed.R.Evid. 606(b)). The Ninth
Circuit has specifically ruled that "racial prejudice is a mental bias that is
unrelated to the specific issues that the juror was called upon to decide." Henley,
238 F.3d at 1120. And thus suggested that "racial bias is generally not subject to
Rule 606(b)'s prohibitions against juror testimony." Id.
Regarding the prosecutor's many comments that the Ninth Circuit agreed
were inappropriate, one comment dealt specifically with Lezmond Mitchell's
apparent rejection of the Navajo religion. See RIT 4180 5 ; Mitchell, 502 F.3d at
994-5. There is no debate that religious comments are inappropriate in penalty

5

"RTI" refers to the Reporter's Transcript at Trial.
9

App H - 097

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 10 of 18

phase proceedings (see e.g., Sandoval v. Calderon, 241 F.3d 765, 777 (9th Cir.
2001)), but the Ninth Circuit found that Mitchell had failed to meet his burden of
showing that the prosecutor's comments tainted the verdict. Mitchell, 502 F.3d at
996. Mitchell seeks to interview the jurors about racial and religious prejudice on
this point to see whether Mitchell's Navajo beliefs, or the allegation that the crime
violated his Navajo beliefs, played any part in his death sentence. Religious
prejudice, like racial prejudice, is a mental bias "unrelated to the specific issues
that the juror was called upon to decide" and thus should not be subject to Rule
606(b). See Rushen, 464 U.S. at 121 n.5, and Henley, 238 F.3d at 1120.
Furthermore, Mr. Mitchell's crimes and trial were highly publicized in both
the local and state-wide media. The importance of close scrutiny for any
inappropriate juror contact is heightened when a sensational case results in an
emotionally charged, highly publicized trial. See Sheppard v. Maxwell, 384 U.S.
333,351 (1966) (quoting Patterson v. State of Colorado, 205 U.S. 454,462
(1907)).
Mitchell's case is considered a "landmark" federal trial because it marked
the first time that federal officials in the United States Department of Justice and,
consequently, in Arizona, prosecuted a case under the 1994 Federal Death Penalty
Act. The many articles published in connection with the case spoke of"crime
sprees," "brutal killings," a remorseless Lezmond Mitchell, and increasing gang
violence. Moreover, many reporters put the blame for these acts on two men:
Lezmond Mitchell and another man who, they explained, was ineligible for the
death penalty. Furthermore, some of the articles included information about a
second multiple-murder and an erroneous report that Lezmond Mitchell was
arrested in connection with that crime. Perhaps most damning, however, was an
10

App H - 098

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 11 of 18

article stating that Mitchell, along with the other five men with whom he had been
arrested, had been bragging about their violent escapades to such an extent that the
other inmates at the Window Rock jail had twice beaten them. The article
explained that as a result of these beatings, Mitchell and his cohorts had to be
separated from the general population. It is well settled that a juror's
consideration of news articles is prejudicial and can warrant a new trial, see e.g.,

United States v. Littlefield, 752 F.2d 1429 (9th Cir. 1985), and extensive media
coverage can deprive a defendant of a fair trial. Sheppard v. Maxwell, 384 U.S.
333, 362 ( 1966). Obviously the articles concerning Mr. Mitchell are highly
prejudicial, and inquiry as to whether they were improperly brought to the jury's
attention is legitimate and admissible under Federal Rule of Evidence 606(b)(l).
Finally, there were at least two acts of potential juror misconduct that
occurred during the guilt phase portion of the case. On April 30, 2003, Judge
Murguia received a note from an unnamed juror asking if the jury was permitted to
consult "detailed maps" of the locations involved in the case. RT 2769. The
Court's response was to give the jury an instruction at the end of the day
informing them that they should not conduct any independent investigation or
consult outside sources. (RTT 2769.) The jurors were never questioned as to who
sent this note or for what purpose. Present counsel has never been provided a
copy of this note.
The note itself is ambiguous, it is not clear if the author is asking if she can
consult an outside source for her own knowledge or if she is writing in response to
others in the jury room consulting outside sources and wondering if this is
allowed. This is an important distinction as the latter would involve extraneous,

11

App H - 099

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 12 of 18

possibly prejudicial information and/or outside influence, evidence of which is
admissible under Rule 606(b ).
Also on April 30, 2003, Judge Murguia received a note from Alternate Juror
Murphy stating that he had been in the company of three men who were discussing
Mitchell's trial. (RTT 2770.) At the end of the day, the Court addressed this issue
with Mr. Murphy who stated that the men only said the name of the case in his
presence. (RT 2909.) He did, however, make a comment that Mitchell finds
deeply disturbing, after telling the Court that the men said the name of the case he
stated: "Yeah, that's all that was said. I was kind of glad because I didn't want to
say anything about it either." (Id.) Mr. Murphy clearly indicates that had the men
spoke further about the case, he would have been inclined to speak about the case
as well.
Jurors are obviously banned from engaging in such conversations, and
knowing Mr. Murphy's inclination to not abide by this rule, he must be
interviewed to ensure that no such indiscretions took place. Such testimony would
be admissible per Rule 606(b) as this would be evidence of an outside influence
that may have improperly affected Mr. Murphy.
These notes indicate a strong possibility that outside influence and
extraneous prejudicial information tainted the jury, and Mr. Mitchell's
representatives must be permitted to investigate fully to ensure that this was not
the case. Moreover, given that Mitchell was never provided with copies of these
notes, it is all the more imperative that Mitchell confirm exactly what happened.
Neither this Court nor the Ninth Circuit has explicitly defined what
constitutes "good cause" under Rule 39.2. This Court has, however, defined good
cause under Rule 1.11, the predecessor to Rule 39.2, articulating a high burden of

12

App H - 100

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 13 of 18

proof for the individual seeking to interview jurors. The court cited Ninth Circuit
precedent in support of this position, stating:
Defendants bear the burden of showing that the verdict
would have been different but for the presence of the
external influence. 'Where a losing par!)' in a civil case
seeks to impeach a jury verdict, it must 1:,e shown by a
preponderance of the evidence that the outcome would
have been different.' Hard, 870 F .2d at 1461. Without
such a showing1 the Court need not order additional
investigation, smce, 'an evidenti~ hearing is justified
only when these materials are sufficient on their face to
require setting aside a verdict.' Id.

TIG Ins. Co. v. Liberty Mut. Ins. Co., 250 F.Supp.2d 1197, 1199 (D. Ariz. 2003)
(quoting Hard v. Burlington Northern Railroad Co., 870 F .2d 1454, 1461 (9th Cir.
I 989)).
In TIG, after losing a civil judgement, the defense sought to interview jurors
based upon belief that extraneous evidence influenced the jury. This Court denied
this request stating that the "Defendants' burden ... is to show that the
information they seek will show by a preponderance of the evidence that the
outcome would have been different." TIG Ins. Co., 250 F.Supp.2d at 1199.
Because the defense stated that they were currently in the "investigation stage" of
the case and could not yet meet this burden, the court denied them the opportunity
to investigate. Id.
Mr. Mitchell's situation is distinguished from TIG for several reasons. First
and most obvious, TIG involved an appeal stemming from a civil matter while
Mitchell's case concerns a§ 2255 proceeding following the appeal of a criminal
conviction resulting in a death sentence. The Ninth Circuit was careful in noting
that the burden of proof applied in a civil case. Id.; Hard, 870 F .2d at 1461.
Neither the Ninth Circuit nor this Court has articulated the burden in a criminal

13

App H - 101

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 14 of 18

case, and certainly not in a postconviction proceeding challenging judgments of
conviction and death sentence. This is noteworthy because, unlike an ordinary
trial motion, the writ of habeas corpus is explicitly recognized in the Constitution. 6
U.S. Const. Art. I, § 9, cl. 2. Dubbed the "Great Writ," this procedural remedy
"plays a vital role in protecting constitutional rights." Hamdi v. Rumsfeld, 542
U.S. 507, 536, (2004); Slack v. McDaniel, 529 U.S. 473,483 (2000). Due to the
importance of the habeas corpus right, it is incumbent on counsel to "conduct a
reasonable and diligent investigation aimed at including all relevant claims and
grounds for relief." McCleskey v. Zant, 499 U.S. 467, 498 ( 1991 ). This
necessarily entails conducting an appropriate inquiry of the jurors to determine
whether a constitutional violation has occurred.
Secondly, and perhaps most importantly, this Court misapplied the standard
the Ninth Circuit articulated. In TIG, the defense sought the court's permission to
interview jurors. In Hard, the defense had already interviewed the jurors and was
before the court seeking a new trial based upon affidavits from jurors. As a matter
of fact, the standard that the court applied was taken entirely out of context. The
Ninth Circuit reviewed the defense position in Hard and stated:
Looking only at affidavits and testimony admissible
under Rule 606(b), the court must decide whether an
evidentiary hearing is required to determine whether a
new trial is necessary. An evidentiary hearing is justified
only when these materials are sufficient on their face to
require setting aside the verdict. Where a losing party in
a civil case seeks to impeach a jury verdict, it must be
6

While federal habeas petitions are now brought under the statutory
scheme adopted by Congress, the writ has been in no way diluted. See 28 U.S.C.
§ 2255 (2006); Davis v. United States, 417 U.S. 333,343 (1974) (section 2255 is
"intended to afford federal prisoners a remedy identical in scope to federal habeas
corpus"); Hill v. United States, 368 U.S. 424,427 (1962).
14

App H - 102

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 15 of 18

shown by a preponderance of the evidence that the
outcome would have been different. Unless the
affidavits on their face support this conclusion, no
evidentiary hearing is required. Unless such a showing
is made at the evidentiary hearing, no new trial is
required.
Hard, 870 F.2d at 1461.
The Ninth Circuit did not articulate a standard to determine if juror
interviews should be allowed, but rather articulated the standard to be applied
after the interviews had taken place to determine whether to grant a motion for a
new trial based upon those interviews. The Ninth Circuit's standard, in context, is
logical. Indeed it is prudent and efficient to require the moving party to show that
the outcome would have been different once they have completed their
investigation, provided all evidence to the court, and moved for a new trial. This
Court, however, applied this standard before the moving party was given an
opportunity to investigate, thus it is entirely illogical to require that they show they
would win on a motion for a new trial before they have filed or been given the
opportunity to investigate such.
In the present case, Mitchell does not seek to impeach the verdict and is not
currently filing a motion for a new trial. Rather Mitchell simply seeks to address
the burden the Ninth Circuit set for him in his direct appeal and to conduct a full
and thorough investigation as required by law. Thus the burden set forth in Hard
is inapplicable to Mitchell's motion to interview jurors.
Finally, as the Ninth Circuit has clearly articulated with regards to Rule
606(b), the rule must give away to the demands of due process. See Henley, 238
F.3d at 1120. If the Ninth Circuit has ruled that the Federal Rules of Evidence
cannot bar due process then certainly Local Rule 39.2 must be likewise limited.

15

App H - 103

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 16 of 18

Given that the Ninth Circuit has not ruled on "good cause" as it relates to
Rule 39.2 and the closest District of Arizona opinion is limited to civil cases,
misapplies the laws, and, in this case, would violate due process, the appropriate
standard is not clear. The Eleventh Circuit has clearly defined "good cause" as it
relates to a Southern District of Florida local rule almost identical to Rule 39.2,
explaining that "good cause under the local rule may be shown only by satisfying
the requirements of the exception stated in [Federal Rule of Evidence 606(b)]."

United States v. Camacho, 865 F.Supp. 1527, 1531 (S.D. Fl. 1994) (quoting
United States v. Griek, 920 F.2d 840,842 (11th Cir. 1991)).
The Ninth Circuit standard, as it relates to Rule 39.2, is in all likelihood the
same as the Eleventh Circuit approach. Admissibility under rule 606(b) is often
the deciding factor in issues related to requests for post-verdict contact with jurors,
suggesting that this is the major impediment to receiving the court's approval for
such interviews. See, e.g., United States v. Rice, 446 F.2d 1390 (9th Cir. 1971).
Moreover the structure of Rule 39.2, where the "good cause" language is
immediately followed by a citation to Federal Rule of Evidence 606(b), suggests
that the key to attaining the court's permission to interview jurors is that the
information sought is admissible under 606(b).
The burden placed on Mr. Mitchell by the Ninth Circuit and the fact that the
information Mitchell seeks is admissible under 606(b) constitutes a showing of
good cause sufficient to satisfy the requirements of Rule 39.2.

Ill
Ill
Ill

16

App H - 104

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 17 of 18

E.

CONCLUSION
For all the foregoing reasons, there is good cause to authorize counsel for

Mr. Mitchell to conduct a thorough investigation, which includes interviewing the
trial jurors, and therefore this motion should be granted.
Respectfully submitted,
SEAN K. KENNEDY
Federal Public Defender
DATED: May 22, 2009

By: Isl Statia Peakheart
STATIA PEAKHEART
Deputy Federal Public Defender
Counsel for Petitioner
LEZMOND CHARLES MITCHELL

17

App H - 105

Case 3:09-cv-08089-DGC Document 1 Filed 05/22/09 Page 18 of 18

CERTIFICATE OF SERVICE

•

I hereby certify that on _ _ _ _ _ _ _ _ , I electronically transmitted the
attached document to the Clerk's Office using the CM/ECF System for filing and
transmittal of a Notice of Electronic Filing to the following CM/ECF registrants:

05/22/09
, I served the attached document by
I hereby certify that on
mail
(insert service method: mail, courier service, in-person delivery, e-mail)
on the following, who are not registered participants of the CM/ECF System:
Kristine Fox, Senior Capital Case Staff Attorney
Evo A. DeConcini Courthouse, 405 W. Congress, Suite 1500
Tucson, AZ 85701-5010
s/

App H - 106

SUMMARY OF FEDERAL DISTRICT COURT LOCAL RULES REGULATING JUROR INTERVIEWS
Prepared by the Office of the Federal Defender for the Central District of California, June 8, 2020

COURT
,, '",<',

,,,

:

'

"

,.N()' RESTRICTION;,; f.:RISTRJCTED·
, ,,~it r -:' ;, '

Alabama - MD AL

'"

'{}.

/

·.,.

"

LR 47.l(b)
Attorneys, parties, anyone in their employ, or anyone
acting for them or on their behalf shall not, without
filing a formal motion therefor with the Court and
securing the Court's permission, initiate any form of
contact for the purpose of interrogating jurors or
alternate jurors in civil or criminal cases, in any
manner, in an attempt to determine what the jurors
thought about any aspect of the case or evidence, the
basis for any verdict rendered or to secure other
information concerning the deliberations of the jury or
any members thereof.

Alabama - ND AL

LR47.l
Communications with a juror concerning a case on
which such person has served as a juror or alternate
juror shall not, without prior express approval of a
judge of this court, be initiated by any attorney, party,
or representative of either, prior to the day following
such person's release from jury service for such term of
court.
LR 47. l(e) (good cause)

Alabama - SD AL

Parties, attorneys, and the agents or employees of
parties or attorneys may not approach, interview, or
communicate with a venire member or juror before,
during, or after trial, except with leave of Court. Such
leave may be granted only upon notice to opposing
counsel (or prose opponent) and a showing of good
cause. A juror must be advised at the outset of any
communication that his or her participation is
voluntary. Any juror contact permitted by the Court
under this Rule is subject to the Court's control.
Alaska - D. AK

xx
(L CVR 39.5(b))

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

App. I - 107

Arizona - D. AZ

LR Crim 24.2 (LR Civ 39.2)
Defers to rule 39.2 with regards to communications
with jurors
(LR Civ 39.2)
(a) Before or During Trial. Absent an order of the
Court and except in the course of in-court proceedings,
no one shall directly or indirectly communicate with or
cause another to communicate with a juror, prospective
juror, or member of such juror's or prospective juror's
family before or during a trial. (b) After Trial.
Interviews with jurors after trial by or on behalf of
parties involved in the trial are prohibited except on
condition that the attorney or party involved desiring
such an interview file with the Court written
interrogatories proposed to be submitted to the juror(s),
together with an affidavit setting forth the reasons for
such proposed interrogatories, within the time granted
for a motion for a new trial. Approval for the interview
of jurors in accordance with the interrogatories and
affidavit so filed will be granted only upon the showing
of good cause. See Federal Rules of Evidence, Rule
606(b). Following the interview, a second affidavit
must be filed indicating the scope and results of the
interviews with jurors and setting out the answers
given to the interrogatories. (c) Juror's Rights. Except
in response to a Court order, no juror is compelled to
communicate with anyone concerning any trial in
which the juror has been a participant.

Arkansas - ED AR

LR47.l
No juror shall be contacted without express permission
of the Court and under such conditions as the Court
may prescribe.

Arkansas - WD AR

LR47.l
No juror shall be contacted without express permission
of the Court and under such conditions as the Court
may prescribe.

California - CD CA

xx

California - ED CA

xx

California - ND CA

xx

California - SD CA

xx

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

2

App. I - 108

Colorado - D CO

LCRR24.l
A party or attorney shall not communicate with, or
cause another to communicate with, a juror or
prospective juror before, during, or after a trial without
order of the judicial officer to whom the case is
assigned.

Connecticut - D CT

LR 83.5(c)
Unless explicitly authorized by the Court, no party, and
no attorney or person acting on behalf of a party or
attorney, shall question a juror concerning the
deliberations of the jury, votes of the jury or the actions
or comments of any other juror.

Delaware - D DE

XX ( only req. in civil
47.2)

Unless otherwise
permitted to do so by
the Court, a lawyer
shall not
communicate with a
prospective juror, or
with a juror after
discharge of the jury.
D.C-DD.C.

LCrR 24.2(b) (good cause)
After a verdict is rendered or a mistrial is declared but
before the jury is discharged, an attorney or party may
request leave of Court to speak with members of the
jury after their discharge. Upon receiving such a
request, the Court shall inform the jury that no juror is
required to speak to anyone but that a juror may do so
if the juror wishes. If no request to speak with jurors is
made before discharge of the jury, no party or attorney
shall speak with a juror concerning the case except
when permitted by the Court for good cause shown in
writing. The Court may grant permission to speak with
a juror upon such conditions as it deems appropriate,
including but not limited to a requirement that the juror
be examined only in the presence of the Court.
COMMENT TO LCvR 47.2: This Rule gives the Court
greater flexibility by stating that where the request to
converse with jurors is made after their discharge, the
Court may impose such conditions as it deems
appropriate.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

3

App. I - 109

Florida - MD FL

LR 5.0l(d) LR 5.0l(d) (good cause)
No attorney or party shall undertake, directly or
indirectly, to interview any juror after trial in any civil
or criminal case except as permitted by this Rule. If a
party believes that grounds for legal challenge to a
verdict exist, he may move for an order permitting an
interview of a juror or jurors to determine whether the
verdict is subject to the challenge. The motion shall be
served within I 4 days after rendition of the verdict
unless good cause is shown for the failure to make the
motion within that time. The motion shall state the
name and address of each juror to be interviewed and
the grounds for the challenge that the moving party
believes may exist. The presiding judge may conduct
such hearings, if any, as necessary, and shall enter an
order denying the motion or permitting the interview. If
the interview is permitted, the Court may prescribe the
place, manner, conditions, and scope of the interview.

Florida - ND FL
Florida - SD FL

xx
LR. 11.1 (e) (good cause)
Before and during the trial, a lawyer shall avoid
communicating with a juror in a case with which a
lawyer is connected about any subject, whether
pertaining to the case or not. After the jury has been
discharged, a lawyer shall not communicate with a
member of the jury about a case with which the lawyer
and the juror have been connected without leave of
Court granted for good cause shown. In such case, the
Court may allow counsel to interview jurors to
determine whether their verdict is subject to legal
challenge, and may limit the time, place, and
circumstances under which the interviews may be
conducted. The Court also may authorize certain other
post-trial lawyer/jury communications in specific cases
as the Court may determine to be appropriate under the
circumstances. During any Court-conducted or
authorized inquiry, a lawyer shall not ask questions of
or make comments to a juror that are calculated to
harass or embarrass the juror or to influence the juror's
actions in future jury service. Nothing in this rule shall
prohibit a lawyer from communicating with a juror
after the jury has been discharged where the
communication is not related to the case and either the
juror initiates the communication or the lawyer
encounters the juror in a social or business setting
unrelated to the case.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

4

App. I - 110

..

C:OURT
.

);:

•./~O,~STIU;C:'TIQ~ ..

·.~STRJg~lil;tj;.:
,,"' ,',,,', ',">::,,,/,,,:

: ' ::1!!~1!\!tt i:i:;, \:\,: : : ,,, ,, , , <)\;,;i;:;1:~,v :! :: ;\><t,,

Georgia - MD GA

..

.• • :.· •i•ii(·i .

·.· ';t>[

L CR R 31.l
Attorneys, parties, or anyone acting on their behalf
shall not contact any juror without express permission
of the Court and under such conditions the Court may
prescribe.

Georgia- ND GA

LCRR47.3
During trial or after the conclusion of a trial, no party,
agent or attorney shall communicate with any members
of the petitjury, including alternate or excused jurors,
before which the case was tried without first receiving
permission of the Court.

Georgia - SD GA

LR 83.8
All attempts to curry favor with juries by fawning,
flattery, or pretending solicitude for their personal
comfort are unprofessional. Suggestions of counsel,
looking to the comfort or convenience of jurors and
propositions to dispense with argument or peremptory
challenges, should be made to the Court out of the
presence of the jury or its hearing. Before and during
the trial, a lawyer shall avoid conversing or otherwise
communicating with a juror on any subject, whether
pertaining to the case or not. No party, attorney, or
other person shall, without Court approval, make or
attempt any communication relating to any feature of
the trial of any case with any regular or alternate juror
who has served in such case, whether or not the case
was concluded by verdict.

Guam - D. Guam

xx

Hawaii - D. HI

xx

Idaho - D. ID

xx

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

5

App. I - 111

Illinois - CD IL

LR47.2

(1) Before and during trial, no attorney, party or
representative of either, may contact, converse or
otherwise communicate with a juror or potential juror
on any subject, whether pertaining to the case or not.
(2) No attorney, party, or representative of either may
interrogate a juror after the verdict has been returned
without prior approval of the presiding judge. Approval
of the presiding judge may be sought only by
application made by counsel orally in open court or
upon written motion which states the grounds and the
purpose of the interrogation. If a post-verdict
interrogation of one or more of the members of the jury
should be approved, the scope of the interrogation and
other appropriate limitations upon the interrogation
will be determined by the presiding judge prior to the
interrogation.
Illinois - ND IL

LR 48.1
After the conclusion of a trial, no party, agent or
attorney shall communicate or attempt to communicate
with any members of the petitjury before which the
case was tried without first receiving permission of the
court.

Illinois - SD IL

LR 53.1

Before and during trial, no attorney, party, or
representative of either shall contact, converse, or
otherwise communicate with a juror or potential juror
on any subject, whether pertaining to the case or not.
No attorney, party, or representative of either may
interrogate a juror after the verdict has been returned
without prior approval of the presiding judge. Approval
of the presiding judge shall be sought only by
application made by counsel orally in open court or
upon written motion which states the grounds and the
purpose of the interrogation. If a post-verdict
interrogation of one or more of the members of the jury
is approved, the scope of the interrogation and other
appropriate limitations upon the interrogation will be
determined by the presiding judge prior to the
interrogation.
Indiana - ND IN

LR47-2
(a) Communication Forbidden. Ordinarily, no party or
attorney (or any of their employees or agents) may
communicate off the record with: (1) a member of the
jury pool; or (2) a juror during trial, during
deliberations, or after a verdict. (b) Exceptions. The
court may allow a party or attorney to communicate
with jurors if all other parties are given notice and if
the court sets conditions on allowed communication.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

6

App. I - 112

COlJRT
Indiana - SD IN

LR 47-2 (good cause)
(a) Communication Not Allowed. No party or attorney
(or any of their employees or agents) may
communicate or attempt to communicate off the
record: (I) with a member of the venire from which the
jury will be selected; or (2) with a juror. (b)
Exceptions. The court may allow a party or attorney to
communicate with jurors after the trial if all other
parties are given notice. In criminal cases, a party or
attorney must show good cause before the court will
allow communication.

Iowa- ND IA

LR47
Except by leave of court, no party or lawyer, and no
other person acting on their behalf, may contact,
interview, examine, or question any civil or criminal
trial juror or potential trial juror before, during, or after
a trial concerning the juror's actual or potential jury
service.

Iowa- SD IA

LR47
Except by leave of court, no party or lawyer, and no
other person acting on their behalf, may contact,
interview, examine, or question any civil or criminal
trial juror or potential trial juror before, during, or after
a trial concerning the juror's actual or potential jury
service.

Kansas - D. KS

LR 47. l(a)(b)
(a) Court Order Required. No one-including the
parties, their attorneys, or the agents or employees of
either-is permitted to examine or interview any juror,
either orally or in writing, except: (I) by order of the
court in its discretion; and (2) under such terms and
conditions as the court establishes. (b) Restrictions on
Interviews. If the court permits examination or
interviews of jurors, the following restrictions apply, in
addition to any other restrictions the court imposes: (l)
Jurors may refuse all interviews or comments. (2) If a
juror refuses to be interviewed or questioned, no person
may repeatedly ask for interviews or comments. (3) Ifa
juror agrees to an interview, he or she must not disclose
any information with respect to: (A) the specific vote
of any juror other than the juror being interviewed; or
(B) the deliberations of the jury.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

7

App. I - 113

Kentucky - ED KY

LCRR.24.l(a)
Unless permitted by the Court, no person, party or
attorney, nor any representative of a party or attorney,
may contact, interview, or communicate with any juror
before, during or after trial.

Kentucky - WD KY

L. CR R. 24.l(a)
Unless permitted by the Court, no person, party or
attorney, nor any representative of a party or attorney,
may contact, interview, or communicate with any juror
before, during or after trial.

Louisiana - ED LA

LCRR23.2B
(LR Civ. 47.5)
(A) A juror has no obligation to speak to any person
about any case and may refuse all interviews or
requests for comments. (B) Attorneys and parties to an
action, or anyone acting on their behalf, are prohibited
from speaking with, examining or interviewing any
juror regarding the proceedings, except with leave of
court. If leave of court is granted, it shall be conducted
only as specifically directed by the court. (C) No
person may make repeated requests to interview or
question a juror after the juror has expressed a desire
not to be interviewed.

Louisiana - MD LA

LR CR 24(good cause)
(LR Civ. 47(e))

(1) No party or their attorney shall, personally or
through another person, contact, interview, examine, or
question any juror or alternate, except on leave of court
granted upon good cause shown. If a party believes in
good faith that grounds for legal challenge to a verdict
exist, he may move for an order permitting an
interview of a juror or jurors to determine whether the
verdict is subject to challenge. (2) No juror has any
obligation to speak to any person about any case and
may refuse all interviews or comments; (3) No person
may make repeated requests for interviews or questions
after a juror has expressed the desire not to be
interviewed; (4) No juror or alternate who consents to
be interviewed may disclose any information with
respect to the following: (A) The specific vote of any
juror other than the juror being interviewed; (B) The
deliberations of the jury; or (C) Evidence of
improprieties in the jury's deliberation.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

8

App. I - 114

Louisiana - WD LA

LR 47.5 - (good cause)
A. No juror has any obligation to speak to any person
about any case and may refuse all interviews or
comments; B. No person may make repeated requests
for interviews or questions after a juror has expressed
his/her desire not to be interviewed; C. No juror or
alternate who consents to be interviewed may disclose
any infonnation with respect to the following: 1. The
specific vote of any juror other than the juror being
interviewed; 25 2. The deliberations of the jury; or 3.
For the purposes of obtaining evidence of improprieties
in the jury's deliberation. D. No party or their attorney
shall, personally or through another person, contact,
interview, examine or question any juror or alternate or
any relative, friend or associate thereof, except on
leave of court granted upon good cause shown.

Maine- D ME
Maryland - DMD

LR 107-16
Unless pennitted by the presiding judge, no attorney or
party shall directly or through an agent interview or
question any juror, alternate juror, or prospective juror
with respect to that juror's jury service,

Mass- D MA

xx

Michigan - ED MI

XX(LR47.l)

Michigan - WD MI

xx

Minnesota - D MN

XX(LR47.2)

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

9

App. I - 115

-:

'\

e

·. ·.· i:(i},•·. :• .. }

Mississippi - ND MS

N(l.kE~®CTION', ,"~,~$,!~~~

: ·:·c:.. ·'\ir:;::;:;~.::

. .,.,.,:-:-: .

.,>:;/!t:i!;;t.!t;

:1:_.;:

: .• \. ,:?{r}·

.:

..

Rule 48 - (good cause)
Upon the return of a verdict by the jury in any civil or
criminal action, neither the attorneys in the action nor
the parties may, in the courtroom or elsewhere, express
to the members of the jury their pleasure or displeasure
with the verdict. After the jury has been discharged,
neither the attorneys in the action nor the parties may at
any time or in any manner communicate with any
member of the jury regarding the verdict. Provided,
however, that if an attorney believes in good faith that
the verdict may be subject to legal challenge, the
attorney may apply ex parte to the trial judge for
permission to interview one or more members of the
jury regarding the fact or circumstance claimed to
support the legal challenge. If satisfied that good cause
exists, the judge may grant permission for the attorney
to make the requested communication and will
prescribe the terms and conditions under which it may
be conducted.

Mississippi - SD MS

Rule 48 - (good cause)
Upon the return of a verdict by the jury in any civil or
criminal action, neither the attorneys in the action nor
the parties may, in the courtroom or elsewhere, express
to the members of the jury their pleasure or displeasure
with the verdict. After the jury has been discharged,
neither the attorneys in the action nor the parties may at
any time or in any manner communicate with any
member of the jury regarding the verdict. Provided,
however, that if an attorney believes in good faith that
the verdict may be subject to legal challenge, the
attorney may apply ex parte to the trial judge for
permission to interview one or more members of the
jury regarding the fact or circumstance claimed to
support the legal challenge. If satisfied that good cause
exists, the judge may grant permission for the attorney
to make the requested communication and will
prescribe the terms and conditions under which it may
be conducted.

Missouri - ED MO

Rule 47-7.0l(B)(l)
Petit jurors shall not be required to provide any
information concerning any action of the petitjury,
unless ordered to do so by the Court. Attorneys and
parties to an action shall not initiate, directly or
indirectly, communication with any petit juror, relative,
friend or associate thereof at any time concerning the
action, except with leave of Court. If an attorney or
party receives evidence of misconduct by a petitjuror,
the attorney or party shall inform the Court, and the
Court may conduct an investigation to establish the
accuracy of the misconduct allegations.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

10

App. I - 116

COlJRTI .... ·.
Missouri - WO MO

xx

Montana - D MT

LR CR 24.2(b) (good cause+ timing requirement)
Unless a different time applies under Fed. R. Crim. P.
33(b):
(1) or a judge's order, neither parties nor counsel may
interview jurors unless, within 14 days after the jury
returns its verdict, a party files:
(A) proposed written questions to be asked of the
jurors;
(B) an affidavit showing good cause; and,
(C) if granted leave, a second affidavit showing the
results.
(2) Unless otherwise ordered by the court, any juror or
prospective juror may decline to communicate with
anyone concerning a trial in which the juror was
involved.

LRCivR48.l(b)
(1) Neither parties nor counsel may interview jurors
unless, within 28 days after entry of judgment, a party
files: (A) proposed written questions to be asked of the
jurors; (B) an affidavit showing good cause; and, (C) if
granted leave, a second affidavit showing the results.
(2) Unless otherwise ordered by the court, a juror or
prospective juror may decline to communicate with
anyone concerning a trial in which the juror was
involved.
Nebraska - D. NE

xx

Nevada- D. NV

XX (LR 48-1 only
prohibits jury contact
during trial)

New Hampshire - D. NH

LR 4 7.3 (good cause + extraordinary circs)
No attorney, party, or witness, acting directly or
through the use of an agent, shall attempt to
communicate with any juror, prospective juror, or
former juror concerning the person's service as a juror
without obtaining prior approval from the court. The
court will not approve a request to communicate with a
juror except in extraordinary circumstances and for
good cause shown.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

11

App. I - 117

COURT
.

NO RESTRICTION

:

.·

<:.

:,,

New Jersey - D NJ

lt:ES:TRI<i:T;ED . ·.
........ .,...

·-

'

,.

"

.

··:

........

.

47.l(e) (good cause)
(e) No attorney or party to an action shall personally or
through any investigator or other person acting for such
attorney or party, directly or indirectly interview,
examine or question any juror, relative, friend or
associate thereof during the pendency of the trial or
with respect to the deliberations or verdict of the jury
in any action, except on leave of Court granted upon
good cause shown.

New Mexico - D NM

X¥

New York- ED NY

X¥

New York- ND NY

X¥(LR47.5 only
prohibits jury contact
during trial)

New York - SD NY

X¥

New York - WD NY

X¥

North Carolina - ED NC

X¥ (LR 24.2(c))

North Carolina - MD NC

X¥ (LCrR24. l(b)(4))

North Carolina - WD NC

X¥ (criminal cases)

Barred in civil cases only LCvR47.l(d))
No attorney or party to an action, or persons acting on
their behalf, shall personally or through their designees,
directly or indirectly,
interview, examine or question, or communicate in any
way with, any juror, relative, friend, or associate
thereof during the trial, or with respect to the
deliberations or verdict of the jury in any action, except
on leave of the presiding judge upon good cause
shown.

North Dakota - D. ND

X¥

Northern Mariana Islands - D
NMI

X¥

Ohio-ND OH

X¥

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

12

App. I - 118

Sl'?URT
''·

,,,,,

:NO BESllUCTION··
:
•.·l ;:;:\:':;,: ,!:'),:'.,; '.1::i,:\::1;:j'li:~;;;~:;::';::,t' ::,:,>,;'" .', ~:, ,~STJ:-O'CTED"
'. t 1H/;,, ,\,:,1i;~;*';;!/'£?
',,/
d,,.,
......... ·••·'•

Ohio- SDOH

.. :.)

J , ,,t

,~"' ,'"

··•

LR 47.1
No attorney, party, or anyone acting as agent or in
concert with them connected with the trial of an action
shall personally, or acting through an investigator or
other person, contact, interview, examine, or question
any juror regarding the verdict or deliberations of the
jury in the action except with leave of the Court.

Oklahoma - ED OK

xx

Oklahoma - ND OK

LR CR 24.2 (Criminal)
At no time, including after a case has been completed,
may attorneys approach or speak to jurors regarding
the case unless authorized by the Court, upon written
motion.

LCvR 47.2 (Civil)
At no time, including after a case has been completed,
may attorneys approach or speak to jurors regarding
the case unless authorized by the Court, upon written
motion.
LCrR53.3

Oklahoma - WD OK

LCvR47.1 applies to criminal cases.

LCvR47.1
At no time, including after a case has been completed,
may attorneys approach or speak to jurors regarding
the case unless authorized by the court, upon written
motion.
Oregon - D. Or

XX (criminal cases)

Only prohibited in civil context - LR48-2

Except as authorized by the Court, attorneys, parties,
witnesses, or court employees must not initiate contact
with any juror concerning any case which that juror
was sworn to try.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

13

App. I - 119

COURT
,, .,.,, -:·

"·

'C\', ,

.,,

Pennsylvania - ED PA

·.

LR24.l
(a) Before the trial ofa case, no attorney, party or
witness shall communicate or cause another to
communicate with anyone the lawyer, party or witness
knows to be a member of the venire from which the
jury will be selected for the trial of the case.
(b) During the trial ofa case, no attorney, party or
witness shall communicate with or cause another to
communicate with any member of the jury.
(c) After the conclusion of a trial no attorney, party or
witness shall communicate with or cause another to
communicate with any member of the jury without first
receiving permission of the Court.

Pennsylvania - MD PA

LR 83.4
No attorney or party or anyone acting on behalf of such
attorney or party shall, without express permission
from the court, initiate any communication with any
juror pertaining to any case in which that juror may be
drawn, is participating, or has participated.

Pennsylvania - WD PA

XX (LcrR24.3(B))
LR 124(e)

Puerto Rico - D. PR

Counsel are strictly prohibited from any post-verdict
communication with jurors, except under the
supervision of the Court.
Rhode Island - D RI

LCrR 24(g) (Criminal)
Unless otherwise permitted by the Court, no attorney,
party, or agent ofan attorney or party shall
communicate directly or indirectly with a juror during
or after the trial of a case.
LR Cv 47(d)
Unless otherwise permitted by the Court, no attorney,
party, or agent of an attorney or party shall
communicate directly or indirectly with a juror during
or after the trial of a case.

South Carolina - D SC

XX (criminal cases)

Under no condition shall an attorney or party
personally or through any person acting for such
attorney or party ask questions of or make comments to
a member of that jury or the members of the family of
such a juror until after such juror has been permanently
dismissed from jury service and has left the courthouse
premises.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

14

App. I - 120

:

'' :.. . ..,

..

South Dakota - D SD

:, :

.

:

.

LR 24.2
No one may contact any juror before or during the
jurors service on a case. The parties, their lawyers and
anybody acting on their behalf must seek and obtain
permission from the district judge who tried the case
before contacting a juror after the juror served on the
case.

Tennessee - ED TN

LR48.1
Unless permitted by the Court, no attorney,
representative of an attorney, party or representative of
a party, may interview, communicate with, or
otherwise contact any juror or prospective juror before,
during, or after the trial. Permission of the Court must
be sought by an application made orally in open court
or upon written motion stating the grounds and the
purpose of the contact. If permission is granted, the
scope of the contact and any limitations upon the
contact will be prescribed by the Court prior to the
contact.

Tennessee - MD TN

LR 39.0l(g)(2)
No attorney, party, or representative of either may
interview a juror after the verdict has been returned
without prior approval of the Court. Approval of the
Court may be sought only by counsel orally in open
court, or upon written motion that states the grounds
and the purpose of the interview. If a post- verdict
interview of one or more members of the jury is
approved, the scope of the interview and other
appropriate limitations upon the interview will be
determined by the Judge prior to the interview.

Tennessee - WD TN

LR 47.l(e)
After a verdict, no attorney, party, or representative of
either may interrogate a juror without prior approval of
the Court. Approval of the Court shall be sought only
by an application of counsel in open Court, or upon
written motion, either of which must state the grounds
for and the purpose of the interrogation. Ifa postverdict interrogation is approved, the Court will
determine the scope of the interrogation and any
limitations upon the interrogation prior to the
interrogation.

Texas - ND TX

LR24.l
A party, attorney, or representative ofa party or
attorney, shall not, before or after trial, contact any
juror, prospective juror, or the relatives, friends, or
associates of a juror or prospective juror, unless
explicitly permitted to do so by the presiding judge.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

15

App. I - 121

---- - - -

----------------------

·-

COURT
Texas - SD TX

LR47
Except with leave of Court, no attorney, party, nor
agent of either of them may communicate with a
former juror to obtain evidence of misconduct in the
jury's deliberations.
LR CR 24 (Criminal)

Texas - ED TX

(a) Communication with Jurors.
(I) No party or attorney for a party shall converse with
a member of the jury during the trial of an action.

(2) After a verdict is rendered, an attorney must obtain
leave of court to converse with members of the jury.
(b) Signature of the Petit Jury Foreperson. The petit
jury foreperson shall sign all documents or
communications with the court using his or her initials.
LR CV 47 (Civil)
(a) No party or attorney for a party shall converse with
a member of the jury during the trial of an action.
(b) After a verdict is rendered, an attorney must obtain
leave of court to converse with members of the jury.
Texas-WO TX

xx

Utah- UT

xx
DU CrimR 57-8;
DUCivR 47-2(b)

Vermont - D VT

LR 83.5
Parties, attorneys, their agents and representatives shall
not contact jurors before, during, or after a trial without
first obtaining the written permission of the trial judge.

Virgin Islands - D VI

LR47.l(b)
(b) After the conclusion ofa trial, no attorney, party, or
witness shall, directly or indirectly, communicate with
or cause another to communicate with any member of
the jury without first receiving permission from the
Court.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

16

App. I - 122

COURT

··.·.·

l'!OJ$~TRIC'FION•
" !,,,

Virginia - ED VA

0

,,

J9~S1m~,i:····
.•· .
t'.f?p\;
'\,,,

",'

,'

\

.

''

.•

LR Cr 24(c) (Criminal) (good cause)
(c) No attorney or party litigant shall personally, or
through any investigator or any other person acting for
the attorney or party litigant, interview, examine, or
question any juror or alternate juror with respect to the
verdict or deliberations of the jury in any criminal
action except on leave of Court granted upon good
cause shown and upon such conditions as the Court
shall fix.

LRC 47(c) (Civil)
(c) No attorney or party litigant shall personally, or
through any investigator or any other person acting for
the attorney or party litigant, interview, examine, or
question any juror or alternate juror with respect to the
verdict or deliberations of the jury in any civil action
except on leave of Court granted upon good cause
shown and upon such conditions as the Court shall fix.
Virginia - WD VA

LR I O (good cause)
No attorney or party litigant shall personally, or
through any investigator or any other person acting for
the attorney or party litigant, interview, examine or
question any juror or alternate juror during the juror's
term of service as a potential juror with respect to the
verdict or deliberations of the jury in any action, civil
or criminal, except by leave of Court upon good cause
shown and upon such conditions as the Court in the
particular case may fix.

Washington - ED WA

LCrR 3 l{e) (Criminal)
Neither counsel nor the parties shall contact or
interview jurors or cause jurors to be contacted or
interviewed after trial without first having been granted
leave to do so by the court.
LCivR 48(d) (Civil)
(d) Neither counsel nor the parties shall contact or
interview jurors or cause jurors to be contacted or
interviewed after trial without first having been granted
leave to do so by the Court.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

17

App. I - 123

COURT
Washington- WD WA

CrR 31 (e) (Criminal)
(e) Counsel shall not contact or interview jurors, or
cause jurors to be contacted or interviewed after trial
without first having been granted leave to do so by the
court.
LCR47(d)
(d) Counsel shall not contact or interview jurors or
cause jurors to be contacted or interviewed after trial
without first having been granted leave to do so by the
court.

West Virginia - ND WV

LR Gen P 47.01
No party, party's agent or attorney shall communicate
or attempt to communicate with any member of the
jury regarding the jury's deliberations or verdict
without first obtaining an order from the Court
allowing such communication.

West Virginia - SD WV

LR Cr P 31.1 (Criminal) (good cause)
After conclusion ofa trial, no party, nor his or her
agent or attorney, shall communicate or attempt to
communicate with any member of the jury, including
alternate jurors who were dismissed prior to
deliberations, about the jury's deliberations or verdict
without first applying for (with notice to all other
parties) and obtaining, for good cause, an order
allowing such communication.
LR Civ P 48.1 (Civil)
After conclusion ofa trial, no party, nor his or her
agent or attorney, shall communicate or attempt to
communicate with any member of the jury, including
alternate jurors who were dismissed prior to
deliberations, about the jury's deliberations or verdict
without first applying for (with notice to all other
parties) and obtaining for good cause an order allowing
such communication.

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

18

App. I - 124

COURT
.

NO'RES11UCTION , .">'':'>,"
:RESTRICTED
·:
·1",
',,,'.i'
. :> :., ',,.

Wisconsin - ED WI

.

,":;i>:,::;,:;(:,,,,

,,

.: '

,:

>

LR 47(c) (good cause)
Parties, attorneys, and the agents or employees of
parties or attorneys may not approach, interview, or
communicate with a venire member or juror, before,
during or after trial, except on leave of Court granted
upon notice to opposing counsel and upon good cause
shown. Good cause may include a trial attorney's
request for permission to contact one or more jurors
after trial for the trial attorney's educational benefit.
The juror(s) must be advised at the outset of any
communication that the juror's participation is
voluntary. Any juror contact permitted by the Court
under this rule is subject to the Court's control.
Rule 4 (LR 47.2)

Wisconsin - WD WI

No lawyer or party or person acting on their behalf
shall contact any juror serving in this court, either
before or after impanelment, without the prior
permission of the trial judge or magistrate judge .
Wyoming - D WY

.IT (LR 24.1)

TOTAL94

36 (38%)

58 (62%)

FPD-Prepared Summary of Local Court Rules Regulating Juror Interviews

19

App. I - 125

